UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
USAMA JAMIL HAMAMA, ET AL.,
Petitioners-Appellees,
v.
REBECCA ADDUCCI, ET AL.,

Nos. 17-2171/181233

Respondents-Appellants.
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:17-cv-11910—Mark A. Goldsmith, District
Judge.
Argued: April 25, 2018
Decided and Filed: December 20, 2018
Before: BATCHELDER, SUTTON, and WHITE,
Circuit Judges.
_________________
COUNSEL
ARGUED: Scott G. Stewart, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellants. Lee Gelernt, AMERICAN CIVIL
LIBERTIES UNION FOUNDATION IMMIGRANTS’
RIGHTS PROJECT, New York, New York, Margo
Schlanger, Ann Arbor, Michigan, for Appellees. ON
BRIEF: Scott G. Stewart, Michael A. Celone,
William C. Silvis, Sarah Stevens Wilson, UNITED
STATES DEPARTMENT OF JUSTICE, Washington,
1a

D.C., for Appellants. Lee Gelernt, Judy Rabinovitz,
AMERICAN
CIVIL
LIBERTIES
UNION
FOUNDATION IMMIGRANTS’ RIGHTS PROJECT,
New York, New York, Margo Schlanger, Samuel R.
Bagenstos, Ann Arbor, Michigan, Michael J.
Steinberg, Miriam J. Aukerman, AMERICAN CIVIL
LIBERTIES UNION FUND OF MICHIGAN, Detroit,
Michigan, Nadine Yousif, Nora Youkhana, CODE
LEGAL AID INC., Madison Heights, Michigan,
Kimberly L. Scott, Wendolyn Wrosch Richards,
MILLER, CANFIELD, PADDOCK & STONE, PLC,
Ann Arbor, Michigan, William W. Swor, WILLIAM
W. SWOR & ASSOCIATES, Detroit, Michigan, for
Appellees.
Cynthia M.
Nunez,
AMERICAN
IMMIGRATION
LAWYERS
ASSOCIATION,
Washington, D.C., Carl M. Levin, Gabriel E. Bedoya,
HONIGMAN MILLER SCHWARTZ AND COHN
LLP, Detroit, Michigan, Elisa J. Lintemuth,
DYKEMA GOSSETT PLLC, Grand Rapids,
Michigan,
Jason
P.
Steed,
KILPATRICK
TOWNSEND & STOCKTON LLP, Dallas, Texas,
Amy G. Doehring, MCDERMOTT WILL & EMERY
LLP, Chicago, Illinois, Noah A. Levine, Jamie S.
Dycus, WILMER CUTLER PICKERING HALE AND
DORR LLP, New York, New York, for Amici Curiae
in 17-2171. Gabriel E. Bedoya, HONIGMAN
MILLER SCHWARTZ AND COHN LLP, Detroit,
Michigan, Jill M. Wheaton, DYKEMA GOSSETT
PLLC, Ann Arbor, Michigan, Nareeneh Sohbatian,
WINSTON & STRAWN LLP, Los Angeles,
California, for Amici Curiae in 18-1233.
BATCHELDER, J., delivered the opinion of
the court in which SUTTON, J., joined. WHITE, J.
(pp. 16–26), delivered a separate dissenting opinion.

2a

_________________
OPINION
_________________
ALICE M. BATCHELDER, Circuit Judge.
These consolidated appeals arise from the
government’s efforts to execute long-standing final
removal orders of Iraqi nationals that the United
States had, for many years, been unable to execute.
The district court entered two preliminary
injunctions: one to halt the removal of Iraqi nationals
(removal-based claims) and one to order bond
hearings for those Iraqi nationals who continued to
be detained after the district court halted their
removals (detention-based claims). Because we find
the district court lacked the jurisdiction to enter both
the removal-based and the detention-based claims,
we VACATE the preliminary injunctions for both the
removal-based and the detention-based claims, and
we REMAND with directions to dismiss the
removal-based claims for lack of jurisdiction, and for
further proceedings consistent with this opinion.1

Petitioners have filed a Motion for Judicial Notice, requesting
that we take judicial notice of “certain adjudicated outcomes in
Petitioners’ individual immigration cases,” as compiled by Ms.
Margo Schlanger, counsel for Petitioners. We DENY the motion.
Federal Rule of Evidence 201(b) permits a court to take judicial
notice of facts “not subject to reasonable dispute.” In United
States v. Bonds, 12 F.3d 540, 553 (6th Cir. 1993), we refused to
take judicial notice of a National Research Committee report
because there was considerable dispute over the significance of
its contents. Similarly here, there are questions about whether
the declaration, which is a compilation of data that has been
selected and then analyzed by class counsel, “can be accurately
and readily determined from sources whose accuracy cannot
reasonably be questioned.” Fed. R. Evid. 201(b)(2).
1

3a

I.
A.
Petitioners-Appellees (“Petitioners”) are Iraqi
nationals, the vast majority of whom were ordered
removed to Iraq years (and some decades) ago
because of criminal offenses they committed in the
United States. For many years Iraq refused to
repatriate Iraqi nationals who, like Petitioners, had
been ordered removed from the United States.2
Because the United States was unable to execute the
removal of Iraqi nationals to Iraq, Petitioners
remained in the United States under orders of
supervision by United States Immigration and
Customs Enforcement (“ICE”). Their removal orders
remained final and active.
Things changed in 2017. Iraq began to
cooperate with repatriation efforts and the removal
of Iraqi nationals to Iraq quickly resumed. Iraqi
nationals such as Petitioners, with final orders of
removal that had been long-stalled, were faced with
an unpleasant reality—their removals were now
imminent. Though many of these Iraqi nationals had
come to expect that the execution of their removals
would never materialize, they had been living in the
United States on borrowed time. Iraq’s agreement to
cooperate with repatriation efforts meant that time
was up.

Iraq declined to issue requisite travel documents to aid the
United States in repatriating Iraqi citizens and would accept
only Iraqi nationals with final orders of removal who had
unexpired passports and were returning on commercial flights.
2

4a

The reality of Iraq’s resuming cooperation in
repatriating its nationals hit in April 2017 when ICE
conducted its first removal by charter flight to Iraq
since 2010, removing eight Iraqi nationals and
scheduling a second charter for late June 2017. In
preparation for the second charter, ICE arrested and
held in custody more than 200 Iraqi nationals in midJune 2017.3 These arrests prompted the cases now
before us.
B.
On June 15, 2017, Petitioners filed a putative
class action habeas petition in the United States
District Court for the Eastern District of Michigan on
behalf of “all Iraqi nationals in the United States
with final orders of removal, who have been, or will
be, arrested and detained by ICE as a result of Iraq’s
recent decision to issue travel documents to facilitate
U.S. removal.” Petitioners also filed a motion for a
temporary restraining order and/or stay of removal,
asking the district court to halt their removal to Iraq
and to hear the Petitioners’ arguments of allegedly
changed country conditions.
Petitioners’ choice to file this action before the
district court was undoubtedly outside the norm for
removal proceedings, over which immigration courts
hold exclusive jurisdiction. See 8 U.S.C. § 1252(g)
The vast majority of arrests took place in Detroit. ICE
arrested approximately 114 Detroit-based Iraqi nationals and
transferred them to federal facilities in Michigan, Ohio,
Louisiana, and Arizona to await removal to Iraq. ICE also
arrested and detained approximately 85 Iraqi nationals from
Tennessee, New Mexico, and California, who were subsequently
transferred to facilities in Alabama, Louisiana, Tennessee, and
Texas.
3

5a

(“[N]o court shall have jurisdiction to hear any cause
or claim by or on behalf of any alien arising from the
decision or action by the Attorney General to
commence proceedings, adjudicate cases, or execute
removal orders against any alien . . . .”). So before
making any determination on the preliminary
injunction, the district court had to determine
whether it had jurisdiction to hear Petitioners’ case.
Pending its jurisdictional decision, the district court
stayed the purported class’s final removal orders—
first in the Eastern District of Michigan and then
nationwide.
The district court eventually concluded that it
had jurisdiction to hear Petitioners’ claims.
Acknowledging that “8 U.S.C. §1252(g) applies to
divest this Court of subject-matter jurisdiction,” the
district court found that the circumstances in the
case presented an as-applied constitutional violation
of the Suspension Clause, allowing it to exercise
jurisdiction.
Specifically, the district court explained that
“[t]he mechanism provided by [Congress through] the
REAL ID Act for judicial review of removal orders—
filing motions to reopen proceedings in immigration
courts and subsequent review in the courts of
appeals—does not take into account the compelling
confluence of grave real-world circumstances present
in [this] case.” The district court, in July 2017,
granted Petitioners a nationwide preliminary
injunction preventing the government from enforcing
final removal orders against Iraqi nationals and
requiring the government to produce extensive
discovery. The government appealed the preliminary
injunction on September 21, 2017. That appeal is
before us as Case No. 17-2171.
6a

The second appeal stems from Petitioners’
continued detention during the pendency of these
cases. The government has kept Petitioners detained,
as relevant to the appeal before us, under the
authority provided in two statutes. The first grants
authority to detain aliens who are subject to final
removal orders because they have not moved to
reopen their immigration proceedings or have not
prevailed in a motion to reopen their proceedings.
See 8 U.S.C. § 1231(a)(6). The second grants
authority to detain certain aliens who have
succeeded in having their removal orders reopened
(and are not subject to a final removal order and
detention authority under § 1231) but have criminal
convictions or qualifying terrorist activities that
render them subject to mandatory detention pending
a decision on removal. See 8 U.S.C. § 1226(c)(1).4
In October 2017, nearly three months after the
district court granted Petitioners’ removal- based
preliminary injunction, Petitioners amended their
habeas petition and class action complaint to add
claims challenging their continued detentions under
8 U.S.C. §§ 1231 and 1226(c) while the courts resolve
their removal-based claims based on due process
principles and the Immigration and Nationality Act,
8 U.S.C. § 1101, et seq.5 Petitioners moved for a
The government notes that this detention is a direct result of
the district court’s stay of removal of Petitioners. Without the
stay, Petitioners would have been removed to Iraq.
4

Petitioners added count four: “prohibition on immigration
detention where removal is not significantly likely in the
reasonably foreseeable future”; count five: “prohibition on
immigration detention without an individualized hearing on
danger and flight risk”; count six: “unlawful application of
mandatory detention to class members whose motions to reopen
have been granted”; and count seven: “relief for class members
5

7a

preliminary injunction seeking relief on these
detention-based claims, which the district court
granted, ordering an injunction requiring bond
hearings on a class-wide basis. The government
appealed the district court’s preliminary injunction
on March 2, 2018. That appeal is before us as Case
No. 18-1233.
II.
We review de novo the district court’s
determination of subject-matter jurisdiction. Pak v.
Reno, 196 F.3d 666, 669 (6th Cir. 1999).
A.
We begin with the removal-based claims.
“Federal courts are not courts of general jurisdiction;
they have only the power that is authorized by
Article III of the Constitution and the statutes
enacted by Congress . . . .” Bender v. Williamsport
Area Sch. Dist., 475 U.S. 534, 541 (1986) (citing
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 173-80
(1803)). Congress enacted 8 U.S.C. § 1252(g) to limit
the jurisdiction of federal courts. Section 1252(g)6
who have been deprived of timely access to the files needed to
file their motions to reopen.”
Congress amended § 1252(g) in 2005 to its current form with
the enactment of the REAL ID Act. The Act, among other
things, “sought to channel judicial review of an alien’s claims
related to his or her final order of removal through a petition for
review at the court of appeals.” Elgharib v. Napolitano, 600
F.3d 597, 600 (6th Cir. 2010); see also Almuhtaseb v. Gonzales,
453 F.3d 743, 747 (6th Cir. 2006) (“The REAL ID Act renders
petitions for review the exclusive means for judicial review for
all orders of removal, except for limited habeas review of
expedited removal orders.”).
6

8a

provides, in full:
(g) Exclusive jurisdiction
Except as provided in this section and
notwithstanding any other provision of
law
(statutory
or
nonstatutory),
including section 2241 of title 28, or any
other habeas corpus provision, and
sections 1361 and 1651 of such title, no
court shall have jurisdiction to hear any
cause or claim by or on behalf of any
alien arising from the decision or action
by the Attorney General to commence
proceedings,
adjudicate
cases,
or
execute removal orders against any
alien under this chapter.
8 U.S.C. § 1252(g). This provision applies “to three
discrete actions that the Attorney General may take:
[the] ‘decision or action’ to ‘commence proceedings,
adjudicate cases, or execute removal orders.’” Reno v.
American-Arab Anti-Discrimination Comm., 525 U.S.
471, 482 (1999).
The district court found that the “natural
reading of § 1252(g)” and “the Sixth Circuit’s
straightforward view expressed in Elgharib [v.
Napolitano, 600 F.3d 597 (6th Cir. 2010)],” divested
it of subject-matter jurisdiction, unless to do so would
violate the Constitution. The government argues that
the district court got this right; Petitioners assert
that the district court erred by finding that § 1252(g)
divested it of jurisdiction.
Under a plain reading of the text of the
statute, the Attorney General’s enforcement of longstanding removal orders falls squarely under the
Attorney General’s decision to execute removal
9a

orders and is not subject to judicial review. See Reno,
525 U.S. at 483; Elgharib, 600 F.3d at 601-03; cf.
Silva v. United States, 866 F.3d 938, 941 (8th Cir.
2017) (finding no jurisdiction over tort claims
stemming from mistaken execution of a removal
order during a stay of removal because “[t]he
limitation on jurisdiction . . . applies to ‘any cause or
claim by or on behalf of any alien’ that arises from a
decision to execute a removal order”) (citation
omitted). The district court did not err by finding
that § 1252(g) divested it of subject-matter
jurisdiction.
But our agreement with the district court’s
reasoning ends there. After correctly concluding that
§ 1252(g) divested it of jurisdiction as a matter of
federal statutory law, the court then erred by finding
that it could still exercise jurisdiction because
“extraordinary circumstances” created an as-applied
constitutional violation of the Suspension Clause.
This is a broad, novel, and incorrect application of
the Suspension Clause.
There are at least two reasons why § 1252(g)’s
jurisdictional limitations do not violate the
Suspension Clause. First, because Petitioners are not
seeking habeas relief in the first instance. And
second, because even if they were, Congress’s
petition-for-review process provides an adequate
alternative to an action in habeas as applied to
Petitioners.
To begin with, the type of relief Petitioners
seek is not protected by the Suspension Clause. The
Clause states that “[t]he Privilege of the Writ of
Habeas Corpus shall not be suspended, unless when
in Cases of Rebellion or Invasion the public Safety
10a

may require it.” U.S. Const. art. I, § 9, cl. 2. “At its
historical core,” the writ “served as a means of
reviewing the legality of Executive detention.” I.N.S.
v. St. Cyr, 533 U.S. 289, 301 (2001); see also Munaf v.
Geren, 553 U.S. 674, 693 (2008). The traditional
remedy provided by habeas is “removing the injury of
unjust and illegal confinement.” 3 William
Blackstone, Commentaries on the Laws of England
137 (1768); see also Munaf, 553 U.S. at 693 (citing
Preiser v. Rodriguez, 411 U.S. 475, 484 (1973) (“[T]he
traditional function of the writ is to secure release
from illegal custody.”)).
The government argues that because
Petitioners’ removal-based claims fail to seek relief
that is traditionally cognizable in habeas, the
Suspension Clause is not triggered. We agree. As the
government states, “[t]he claims and relief requested
here are fundamentally different from a traditional
habeas claim.” Petitioners’ removal-based claims did
not challenge any detention and did not seek release
from custody. Rather, they sought “a stay of removal
until they . . . had a reasonable period of time to
locate immigration counsel, file a motion to reopen in
the appropriate administrative immigration forum,
and have that motion adjudicated to completion in
the administrative system, with time to file a
petition for review and request a stay of removal in a
federal court of appeals.” “[T]he nature of the relief
sought by the habeas petitioners suggests that
habeas is not appropriate in these cases” because
“the last thing petitioners want is simple release” but
instead a “court order requiring the United States to
shelter them.” Munaf, 553 U.S. at 693-94. And the
relief ordered by the district court—a stay of
removal—did not result in Petitioners’ release from
11a

custody.7 Because the common-law writ could not
have granted Petitioners’ requested relief, the
Suspension Clause is not triggered here.
The dissent claims we misrepresent St. Cyr
because St. Cyr requires some “judicial intervention
in deportation cases.” 533 U.S. at 300. True enough,
the Supreme Court invoked the Suspension Clause in
the face of a removal-based challenge in St. Cyr. See
533 U.S. at 304– 05. But the relief St. Cyr sought is
qualitatively different from what Petitioners seek
here. St. Cyr sought cancellation of removal, which
would have entitled him to be released into and
remain in the United States. See id. at 297, 314–15;
Immigration and Nationality Act of 1952, ch. 477, §
212(c), 66 Stat. 182, 187 (repealed 1996); 8 U.S.C. §
1229b. Petitioners here seek withholding of removal,
which would entitle them not to be released into Iraq.
A petitioner who succeeds in showing that he may
suffer torture in the receiving country has no right to
stay in the United States; the government may
remove him to some other (safe) place. See 8 C.F.R. §
208.16(c)(4), (f).
That difference means this case is less like St.
Cyr and more like Munaf, which concerned American
citizens seized in Iraq and held in U.S. custody there.
Munaf, 553 U.S. at 680–85. The Supreme Court
concluded that those petitioners failed to state a
As the government notes, other aspects of Petitioners’ request
for injunctive relief and the district court’s preliminary
injunction underscore the unconventional nature of Petitioners’
purported habeas claims. Petitioners have not exhausted
available remedies; Petitioners’ claim is based on allegedly
changed factual circumstances, which is not a core use of
habeas; and Petitioners seek class-wide relief, which falls
outside the traditional use of habeas.
7

12a

claim for habeas relief because they were seeking
only to avoid release into Iraq. Id. at 692. The dissent
states that Munaf is inapposite because, unlike in
Munaf, in the instant case Petitioners are not subject
to an extradition request and are not seeking habeas
to shelter them from government prosecution. But
the reasoning in Munaf was not restricted to the
particular relief those petitioners were seeking. The
Court reviewed the history of habeas, noted it “is at
its core a remedy for unlawful executive detention,”
and because what petitioners were seeking did not fit
into the “core remedy,” determined the remedy those
petitioners’ claimed was not cognizable in habeas.
553 U.S at 693. Similarly, Petitioners are not seeking
relief that fits in the “core remedy” of habeas.
Even if the relief Petitioners seek was
available under the common-law writ, Petitioners’
Suspension Clause claim would fail for the
independent reason that Congress has provided an
adequate alternative as applied to them. Congress
does not suspend the writ when it strips the courts of
habeas jurisdiction so long as it provides a substitute
that is adequate and effective to test the legality of a
person’s detention. Swain v. Pressley, 430 U.S. 372,
381 (1977); see also Felker v. Turpin, 518 U.S. 651,
664-65 (1996). When Congress stripped the courts of
jurisdiction to grant habeas relief in § 1252(g), it
provided aliens with an alternative method to
challenge the legality of removal orders: a motion to
reopen followed by a petition for review filed in a
court of appeals. See 8 U.S.C. § 1252(a)(5), (2)(D).
Because this process provides an alien with the same
scope of relief as habeas, the REAL ID Act does not
violate the Suspension Clause. Muka v. Baker, 559
F.3d 480, 485 (6th Cir. 2009); see also Luna v.
13a

Holder, 637 F.3d 85, 95 (2d Cir. 2011); Mohamed v.
Gonzales, 477 F.3d 522, 526 (8th Cir. 2007); Puri v.
Gonzales, 464 F.3d 1038, 1042 (9th Cir. 2006);
Alexandre v. U.S. Attorney Gen., 452 F.3d 1204,
1205–06 (11th Cir. 2006).
Petitioners respond that, while the petitionfor-review process may be a facially adequate
alternative to habeas, a confluence of circumstances
made that alternative constitutionally inadequate as
applied to them. They are wrong. Petitioners had
years to file their motions to reopen; they cannot now
argue that the system gave them too little time. The
administrative scheme established by Congress even
provided multiple avenues to stay removal while
pursuing relief. Petitioners have not shown any
constitutional inadequacy in this process.
The district court did not have jurisdiction
over Petitioners’ removal-based claims, and we
therefore vacate the injunction.
B.
We proceed now to the detention-based claims.
The government and Petitioners agree that the
district court had jurisdiction over the detentionbased claims and that this jurisdiction is an
independent consideration that is not tied to whether
the district court has jurisdiction over the removalbased claims. We agree the district court’s
jurisdiction over the detention-based claims is
independent of its jurisdiction over the removalbased claims. Nevertheless, we find that 8 U.S.C. §
1252(f)(1) bars the district court from entering classwide injunctive relief for the detention-based claims.
Section 1252(f)(1) reads:
14a

(f) Limit on injunctive relief
(1) In general
Regardless of the nature of the action or
claim or of the identity of the party or
parties bringing the action, no court
(other than the Supreme Court) shall
have jurisdiction or authority to enjoin
or restrain the operation of the
provisions of [8 U.S.C. §§ 1221-31] . . .
other than with respect to the
application of such provisions to an
individual
alien
against
whom
proceedings under such part have been
initiated.
Interpreting this statute in Reno, the Supreme
Court held that, “By its plain terms, and even by its
title, that provision is nothing more or less than a
limit on injunctive relief. It prohibits federal courts
from granting classwide injunctive relief against the
operation of §§ 1221-31, but specifies that this ban
does not extend to individual cases.” 525 U.S. at 48182. In our view, Reno unambiguously strips federal
courts of jurisdiction to enter class-wide injunctive
relief for the detention-based claims. Petitioners
disagree and raise three objections. We address each
of these objections below.
Objection #1: The plain text of the statute does
not bar class actions. According to Petitioners, “§
1252(f)’s language bars injunctions that purport to
protect persons not yet in immigration proceedings”
(emphasis added). Petitioners come to this conclusion
by focusing on the language in § 1252(f)(1) that reads
“other than . . . an . . . alien . . . against whom
proceedings under such part have been initiated”
15a

(emphasis added). According to Petitioners, §
1252(f)(1) is a bar on injunctions but there is a
carveout for those aliens who are already in
immigration proceedings. Since everyone in the
current litigation is currently in immigration
proceedings, Petitioners argue that § 1252(f)(1) is
inapplicable to the current class action litigation.
This argument does violence to the text of the
statute. The only way Petitioners can come to the
conclusion they do is by reading out the word
“individual” before “alien” in the last sentence of the
statute. In other words, they argue that a class
action is not barred by this statute because all the
members of the proposed subclasses are already in
immigration proceedings. But although Petitioners
are correct that the statute provides a carveout for
those already in immigration proceedings, that
carveout applies only to an “individual.” There is no
way to square the concept of a class action lawsuit
with the wording “individual” in the statute. “It is ‘a
cardinal principle of statutory construction’ that ‘a
statute ought, upon the whole, to be so construed
that, if it can be prevented, no clause, sentence, or
word shall be superfluous, void, or insignificant.’”
TRW Inc. v. Andrews, 534 U.S. 19, 31 (2001) (citation
omitted). The only way to permit a class action or
class-based lawsuit without running awry of §
1252(f)(1) would be if the statute, instead of using
the phrase “an individual alien,” used a phrase such
as “aliens” or “any alien.” By giving no meaning to
the word “individual,” Petitioners are arguing for a
version of the statute that Congress simply did not
write.
Indeed, elsewhere in the statute Congress
made it very clear that it knew how to distinguish
16a

when it wanted a statute to apply not to “individual”
aliens, but rather to “any alien.” For example, the
phrase “any alien” appears in the very next
subsection of the statute— “Notwithstanding any
other provision of law, no court shall enjoin the
removal of any alien . . .” § 1252(f)(2) (emphasis
added)—as well as in other subsections of the
statute. See, e.g., § 1252(e)(4)(B) (“Any alien who is
provided a hearing . . .”) (emphasis added); § 1252(g)
(“[N]o court shall have jurisdiction to hear any cause
or claim by or on behalf of any alien . . . or execute
removal orders against any alien under this
chapter.”) (emphasis added).
Petitioners argue that if Congress had wanted
to ban class certification under Rule 23 it would have
just said that. In fact, it did elsewhere in the statute.
See § 1252(e)(1)(B) (“[N]o court may . . . certify a class
under Rule 23 . . . .”). But there is a big difference
between barring the certification of a class under
Rule 23 and barring all injunctive relief. The former
bars a class action regarding anything; the latter
only bars injunctive relief for anyone other than
individuals.
Petitioners next argue that “[t]he use of the
term ‘individual alien’ does not withdraw a court’s
power to grant class relief.” In support of their
position, Petitioners cite Califano v. Yamasaki, 442
U.S. 682 (1979), which says, “The fact that the
statute speaks in terms of an action brought by ‘any
individual’ or that it contemplates case-by-case
adjudication does not indicate that the usual Rule
providing for class actions is not controlling, where
under that Rule certification of a class action
otherwise is permissible. Indeed, a wide variety of
federal jurisdictional provisions speak in terms of
17a

individual plaintiffs, but class relief has never been
thought to be unavailable under them.” Id. at 700.
But Yamasaki was about an entirely different
statute. And although the rule laid out in Yamasaki
may be true as a general rule, it does not stop the
Court from looking at a particular statute that uses
the word “individual” and determining that, even if
the use of “individual” does not always bar class
actions, it does bar them in the particular statute at
issue. And that is exactly what the Court found in
Reno. Additionally, in Nken v. Holder, 556 U.S. 418
(2009), the Court interpreted the statute the exact
same way. Id. at 431 (describing § 1252(f)(1) as “a
provision prohibiting classwide injunctions against
the operation of removal provisions”). It is telling
that Petitioners choose not to engage with Reno,
other than to dismiss it as “dictum.”
We are not alone in our interpretation of §
1252(f)(1). Other courts, following Reno’s guidance,
have determined that they do not have jurisdiction
under § 1252(f)(1) to issue class- based injunctive
relief against the removal and detention statutes. See
Van Dinh v. Reno, 197 F.3d 427, 433 (10th Cir. 1999)
(“§ 1252(f) forecloses jurisdiction to grant class-wide
injunctive relief to restrain operation of §§ 1221–31
by any court other than the Supreme Court.”);
Pimentel v. Holder, 2011 WL 1496756, at *2 (D.N.J.
Apr. 18, 2011) (explaining § 1252(f)(1) bars courts
from exercising jurisdiction over class claims for
injunctive relief); Belgrave v. Greene, 2000 WL
35526417, at *4 (D. Colo. Dec. 5, 2000) (explaining
that § 1252(f)(1) does not bar detainees from seeking
habeas relief from detention, but it does “require[]
that those challenges be brought on a case-by-case
basis”).
18a

Objection #2: § 1252(f)(1) does not apply to
habeas. Petitioners argue that “Congress made no
specific reference to habeas corpus, which therefore
remains intact.” Petitioners cite St. Cyr, which says
that “[i]mplications from statutory text or legislative
history are not sufficient to repeal habeas
jurisdiction; instead, Congress must articulate
specific and unambiguous statutory directives to
effect a repeal.” 533 U.S. at 299. Petitioners go on to
point out that the lack of reference to habeas
jurisdiction in § 1252(f)(1) is especially notable given
that in other parts of § 1252, Congress chose to
specifically mention habeas using the phrase:
“Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241 of
Title 28, or any other habeas corpus provision.” See
§§ 1252(a)(2)(A), (B), (C), 1252(a)(4), (5), 1252(g).
But Petitioners’ argument fails because there
is nothing in § 1252(f)(1) that suspends the writ of
habeas corpus. It is true that habeas is barred as to
injunctive relief for class actions, but there is nothing
barring a class from seeking a traditional writ of
habeas corpus (which is distinct from injunctive
relief, see Jennings, 138 S. Ct. at 858 (Thomas, J.,
concurring in part and concurring in the judgment)),
or an individual from seeking habeas relief, whether
injunctive or otherwise. There was therefore no
reason for Congress to explicitly call attention to
habeas jurisdiction in § 1252(f)(1). Additionally, St.
Cyr is not properly invoked by Petitioners because
the animating principle behind St. Cyr was that
courts needed to tread carefully when interpreting a
statute that “invokes the outer limits of Congress’
power.” St. Cyr, 533 U.S. at 299. In such cases, “we
expect a clear indication that Congress intended that
19a

result.” Id. But delineating the jurisdiction of Article
III courts is soundly within the powers of Congress.
See Bender, 475 U.S. at 541 (“Federal courts are not
courts of general jurisdiction; they have only the
power that is authorized by Article III of the
Constitution and the statutes enacted by Congress . .
. .”).
Argument #3: As to their statutory claims,
Petitioners do not seek “to enjoin or restrain the
operation of the [referenced] provisions” of the INA.
Petitioners claim that “the district court was not
enjoining or restraining the statutes, but rather
interpreting them to ensure they are correctly
enforced.” There are two problems with this
argument. First, Jennings foreclosed any statutory
interpretation that would lead to what Petitioners
want. The Jennings Court chastised the Ninth
Circuit for “erroneously conclud[ing] that periodic
bond hearings are required under the immigration
provisions at issue here,” a conclusion the Ninth
Circuit came to by “adopt[ing] implausible
constructions of the . . . immigration provisions at
issue.” Jennings, 138 S. Ct. at 850, 836. Similarly,
Petitioners’ argument here cannot succeed to the
extent that Petitioners are arguing the district court
was interpreting the statute to find a statutory basis
for the injunction.
Second, the claim that “the district court was
not enjoining or restraining the statutes” is
implausible on its face. The district court, among
other things, ordered release of detainees held “for
six months or more, unless a bond hearing for any
such detainee is conducted”; created out of thin air a
requirement for bond hearings that does not exist in
the statute; and adopted new standards that the
20a

government must meet at the bond hearings (“shall
release . . . unless the immigration judge finds, by
clear and convincing evidence, that the detainee is
either a flight risk or a public safety risk”). If these
limitations on what the government can and cannot
do under the removal and detention provisions are
not “restraints,” it is not at all clear what would
qualify as a restraint.
The district court did not have jurisdiction to
enter class-wide injunctive relief on Petitioners’
detention-based claims.8
III.
The district court lacked jurisdiction to enter
its preliminary injunction both with regard to the
The dissent claims Jennings leaves open the possibility that
constitutional claims may survive § 1252(f)(1)’s removal of
jurisdiction. We recognize that the Court in Jennings did not
rule on whether a court may issue class-wide injunctive relief
on the basis of constitutional claims. See 138 S.Ct. at 851.
However, in declining to rule on this issue, Jennings leaves in
place the holding from Reno that § 1252(f)(1) bars injunctive
relief—period. Absent an explicit holding otherwise, we see no
way to interpret Reno to allow injunctive relief on any basis.
8

The dissent claims also that § 1252(f)(1) does not bar
declaratory relief. Be that as it may, both parties agree in their
letter briefs that the issue of declaratory relief is not before us.
Even if it were before us, we are skeptical Petitioners would
prevail. It is true that “declaratory relief will not always be the
functional equivalent of injunctive relief.” Alli v. Decker, 650
F.3d 1007, 1014 (3d Cir. 2011). But in this case, it is the
functional equivalent. The practical effect of a grant of
declaratory relief as to Petitioners’ detention would be a classwide injunction against the detention provisions, which is
barred by § 1252(f)(1).

21a

removal-based and the detention-based claims. It
lacked jurisdiction over the removal- based claims
because § 1252(g) plainly reserves for the Attorney
General the authority to execute removal orders.
These orders are not subject to judicial review. There
is no Suspension Clause violation because the
Suspension Clause can only be triggered when a
petitioner is requesting release from custody. That is
not what Petitioners request in the instant case.
Instead, they seek additional time to have their
petitions heard in the immigration courts.
Additionally, the district court lacked jurisdiction
over the detention-based claims because § 1252(f)(1)
unambiguously strips federal courts of the authority
to enter class-wide injunctive relief, as the district
court did in this case. We accordingly VACATE the
preliminary injunctions for both the removal-based
and the detention-based claims, and we REMAND
with directions to dismiss the removal-based claims
for lack of jurisdiction, and for further proceedings
consistent with this opinion.
_________________
DISSENT
_________________
HELENE
dissenting.

N.

WHITE,

Circuit

Judge,

I respectfully dissent.
The majority vacates the preliminary
injunctions relative to both types of claims—the
removal-based claims and the detention-based
claims—on the basis that the district court lacked
jurisdiction to enter the injunctions. The removalbased relief must be vacated, says the majority,
because the Suspension Clause, on which the district
22a

court relied, “can only be triggered when a petitioner
is requesting relief from custody” (Maj. Op. at 14–
15), and, in any event, Congress’s petition-for-review
procedure provides an adequate substitute for
habeas as applied to Petitioners (Maj. Op. at 9). The
detention-based relief must be vacated, according to
the majority, because “§ 1252(f)(1) unambiguously
strips federal courts of the authority to enter classwide injunctive relief.” (Maj. Op. at 15.) Although the
majority remands for further proceedings, it rejects
the avenues left open by Jennings v. Rodriguez, 138
S. Ct. 830 (2018), which was decided after the
injunctions were entered.
Although I agree with the majority that
Jennings forecloses Petitioners’ argument that the
district court did not enjoin the operation of the
provisions, but rather enforced them after
interpreting them to require bond hearings, I
disagree with the remainder of the majority’s
conclusions. Regarding the removal-based claims,
protection against the executive action of removal is
within the recognized scope of habeas, and the
petition-for-review procedure provides an inadequate
substitute for habeas under the circumstances
presented here. Thus, the district court properly
exercised jurisdiction over that claim. Regarding the
detention-based claims, the district court had
jurisdiction under § 2241, and § 1252(f)(1) does not
purport to bar class-wide declaratory relief or
individual injunctive relief.
I.

Removal-Based Claims

I dissent from the majority’s determination
that the district court lacked jurisdiction to enter the
preliminary injunction staying removal until
23a

Petitioners have the opportunity to file motions to
reopen and pursue their available avenues for
administrative relief and judicial review. Petitioners
do not challenge the orders of removal; they claim
that country conditions have changed since those
orders were entered and that they face persecution,
torture, and possibly death if removed to Iraq. They
do not ask the courts to make this determination in
the first instance; they seek only to pursue their
statutory rights to reopen their cases and make the
requisite showing before the administrative agency.
In short, they seek time to pursue Congress’s
mandated avenues for relief before they are deported,
which, they plausibly assert, will render any relief
granted pursuant to those procedures meaningless.
The district court determined that Congress’s
withdrawal of habeas jurisdiction under these
circumstances constitutes an as-applied violation of
the Suspension Clause. I agree.
Scope of Habeas and the Suspension
Clause
The United States Constitution states: “The
Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in Cases of Rebellion or
Invasion the public Safety may require it.” U.S.
Const. art. I, § 9, cl. 2. Known as the “Suspension
Clause,” this provision establishes that suspension of
the common-law writ of habeas corpus is a
constitutional violation. See Boumediene v. Bush, 553
U.S. 723, 745 (2008) (reciting history of the
Suspension Clause and explaining its modern-day
application).
The relief available under habeas corpus is not
nearly as narrow as the majority holds. In its order
24a

granting the preliminary injunction, the district
court considered the relevant case law and correctly
noted that “in none of the many cases cited by the
parties and by the Court regarding habeas
jurisdiction in immigration cases has a court refused
to consider a petitioner’s argument on the grounds
that the challenge to the removal order was not
cognizable for failure to challenge detention.” (R. 87,
PID 2336-37 (collecting cases).)
The majority opinion sweeps broadly, finding
that the Suspension Clause only protects the “core”
remedy of release from detention and that protection
from removal is not included. In support of this
argument, the majority cites INS v. St. Cyr, 533 U.S.
289, 301 (2001) (“At its historical core,” the writ
“served as a means of reviewing the legality of
Executive detention.”), and Munaf v. Geren, 553 U.S.
674, 693 (2008) (“[T]he traditional function of the
writ is to secure release from illegal custody.”).
Yet neither of these cases holds that habeas
protections do not include protection from removal.
Notably, St. Cyr involved “an alien subject to a
federal removal order,” and recognized that the
Suspension
Clause
requires
some
“judicial
intervention in deportation cases.” St. Cyr, 533 U.S.
at 300 (citing Heikkila v. Barber, 345 U.S. 229, 235
(1935)). The St. Cyr Court also stated that habeas
was “the sole means by which an alien could test the
legality of his or her deportation order” until the
1952 enactment of the Immigration and Nationality
Act. Id. at 306. The Court explained that “even
assuming that the Suspension Clause protects only
the writ as it existed in 1789, there is substantial
evidence to support the proposition that pure
questions of law like the one raised by the
25a

respondent in this case could have been answered in
1789 by a common-law judge with power to issue the
writ of habeas corpus.” Id. at 304-05. As a result, the
Court reasoned, “[i]t necessarily follows that a
serious Suspension Clause issue would be presented”
by Congress’s withdrawal of habeas review from
federal courts without providing an “adequate
substitute for its exercise.” Id. at 305. Like St. Cyr,
the present case involves aliens subject to federal
removal orders who seek habeas review on a question
of law related to their immigration proceedings,
specifically, whether a district court has jurisdiction
to stay removal proceedings for aliens at risk of
immediate deportation where the relief available in
the immigration courts does not provide an adequate
and effective alternative. The majority focuses on the
relief sought—cancellation of removal, which would
leave St. Cyr free to remain in the U.S., as opposed to
withholding of removal, which would entitle
Petitioners not to be released into Iraq. The majority
then notes that an alien who shows he will suffer
torture is not automatically entitled to stay in the
U.S. and may be removed to some other safe place. I
do not find this difference significant; the point is
that protection against deportation was within the
core of the writ.
Similarly, Munaf explains that the “typical”
habeas remedy is release, but nowhere states that it
is the only “core” habeas remedy. In Munaf, the
petitioners were U.S. citizens who were arrested by
U.S.-led forces in Iraq on terrorism-related charges.
The petitioners conceded that they were subject to
arrest by the Iraqi government and sought to prevent
their transfer to Iraqi custody following an
extradition request. Munaf, 553 U.S. at 693. The
26a

Court explicitly found that it had jurisdiction over
the habeas petitions but noted that the petitioners’
requested relief was inappropriate because they were
not asking for release from custody, which would
“expose them to apprehension by Iraqi authorities for
criminal prosecution.” Id. The Court went on to
explain that “habeas is not a means of compelling the
United States to harbor fugitives from the criminal
justice system of a sovereign with undoubted
authority to prosecute them.” Id. at 697. Here,
Petitioners are not subject to the extradition request
of a foreign power and are not seeking habeas that
would “shelter them” from government prosecution.
Although Munaf declined to grant the petitioners the
requested relief, the Munaf Court did not hold that
the writ is unavailable where the petitioner seeks to
stay removal proceedings in order to pursue
statutory remedies that would grant relief from
removal.
Further, the history of the writ includes its
application to challenge removal proceedings. In
their amicus brief, Scholars of Habeas Corpus Law
(Scholars) correctly observe that for over a hundred
years, courts have recognized that the executive act
of removing an alien from the country involves the
sort of restraint on personal liberty that can properly
form the basis of a habeas petition. (Scholars Br. at
5-6 (citing Chin Yow v. U.S., 208 U.S. 8, 12 (1908)
(“It would be difficult to say that [an alien] was not
imprisoned, theoretically as well as practically, when
to turn him back meant that he must get into a
vessel against his wish and be carried to China.”); In
re Jung Ah Lung, 25 F. 141, 142 (D. Cal. 1885) (“If
the denial, therefore, to the petitioner of the right to
land, thus converting the ship into his prison-house,
27a

to be followed by his deportation across the sea to a
foreign country, be not a restraint of his liberty
within the meaning of the habeas corpus act, it is not
easy to conceive any case that would fall within its
provisions.”), aff’d, 124 U.S. 621 (1888)).) Thus, the
district court did not err in concluding that it had
jurisdiction over the removal-based claims under the
Suspension Clause.
Adequate and Effective Alternative
Of course, even where the Suspension Clause
applies, it is not violated where habeas is replaced
with an adequate and effective alternative. Relying
on Muka v. Baker, 559 F.3d 480 (6th Cir. 2009), the
majority concludes that even assuming the
Suspension Clause applies, “the REAL ID Act does
not violate the Suspension Clause because a petition
for review provides an ‘adequate and effective’
mechanism for relief.” Id. at 484 (citing Swain v.
Pressley, 430 U.S. 372, 381 (1977)). Petitioners do not
dispute that the petition-for-review process generally
provides an adequate alternative to habeas. Rather,
they assert, and the district court found, that the
petition-for-review mechanism is not adequate and
effective as applied to Petitioners in the present
“compelling
confluence
of
grave,
real-world
circumstances.” (R. 64, PID 1243-44.) Importantly,
Muka did not “foreclose other distinct as-applied
challenges” under the Suspension Clause. Muka, 559
F.3d at 486. The majority gives short shrift to the
district court’s core finding, simply asserting that
“Petitioners had years to file their motions to reopen;
they cannot now argue that the system gave them
too little time. The administrative scheme
established by Congress even provided multiple
avenues to stay removal while pursuing relief.” (Maj.
28a

Op. at 9.) The majority plainly ignores the facts on
the ground.
Aliens seeking to challenge their removal
based on changed country conditions can file a
motion to reopen, which is a request for
redetermination of a prior decision to remove the
alien. See 8 U.S.C. § 1229a(c)(7); 8 C.F.R. §§
1003.2(c)(1) and 1003.23(b)(3). A motion to reopen
does not automatically stay removal. Once a motion
to reopen has been filed, the alien may also file a
motion to stay, although there is no guarantee that
an alien will not be deported during the pendency of
the motion to stay removal. A motion to reopen based
on changed country conditions must establish prima
facie eligibility for the relief sought, see 8 U.S.C. §
1229a(c)(7), which means the motion and supporting
documentation must (1) set forth a complete
description of the new circumstances, (2) articulate
how those new circumstances affect the party’s
eligibility for relief, and (3) include evidence of the
changed circumstances, 8 C.F.R. §§ 1003.2(c);
1003.23(b)(3) and (4)(i); Immigration Court Practice
Manual, Chapter 5.7(e)(i) (June 10, 2013).
In this case, Petitioners’ grounds for relief
from removal based on changed country conditions in
Iraq arose after (in some cases, many years after)
Petitioners’ removal proceedings had ended.
Petitioners presented the district court with evidence
that because they were likely to be killed or tortured
if deported, their impending removal would be in
violation of the Immigration and Nationality Act
(INA) and the Convention Against Torture (CAT),
and that without a stay they would be deported
before they could seek relief under these acts. The
government did not contest this evidence, and the
29a

majority does not find fault with the district court’s
findings that without a stay, deportations would
commence immediately, with death, torture, and
persecution probably resulting. Instead, the majority
faults Petitioners for failing to file motions to reopen
earlier. Yet there are good reasons for Petitioners’
failure to do so. The government was unable to
deport Petitioners to Iraq until 2017 when a
diplomatic agreement resulted in the resumption of
removals. Petitioners were living for years (or
decades) under removal orders but with no actual
prospect of being deported. Susan Reed, Petitioners’
witness and the Managing Attorney of the Michigan
Immigrant Rights Center, explained that stays of
removal are not typically sought until removal is
imminent because they are rarely granted when
removal is not imminent. Although Petitioners could
have filed motions to reopen and to stay removal, it
is not reasonable to expect that they would have done
so because there was no real possibility of removal,
and it was unclear what country conditions might be
at some hypothetical future time when removal
might be possible.
There is abundant evidence in the record that
motions to reopen are complicated, time- consuming,
and expensive. These motions require the applicant
to compile files, affidavits, and “hundreds of pages of
supporting evidence,” fill out all sections of the
application, and include an original signature. (See
R. 77-2, R. 77-26, R. 77-27, R. 30-3 ¶ 12, 8 C.F.R. §
1003.2(c)(1) (noting that a motion to reopen “must be
accompanied by the appropriate application for relief
and all supporting documentation”).) Amicus Curiae
American Immigration Lawyers Association’s (AILA)
explains that “[t]he mechanics of filing a Motion to
30a

Reopen with either the immigration court or the
Board of Immigration Appeals can be a highlycomplex and time- consuming process even for the
most-seasoned immigration attorney.” (AILA Br. at
3.) Here, attorneys faced difficulties preparing the
applications because Petitioners were transferred to
out- of-state facilities and even when attorneys did
visit the out-of-state facilities, they were often denied
the opportunity to meet with their clients. (See R. 7722 ¶¶ 7–9 (attorney who drove four hours to meet
with client was denied the opportunity to visit on two
separate occasions, despite prior assurances that
they would be able to meet); R. 77-7 (attorney stating
that it is “nearly impossible” for her to meet with her
clients “because they were all transferred . . .
approximately 4 hours away”).)
Petitioners additionally note that their Alien
files (A-files)—which document their immigration
history—and Records of Proceedings (ROP)—which
document past proceedings before the immigration
courts and BIA—are ordinarily attainable only
through a FOIA request and can take months to
obtain. (R. 77-28 ¶¶ 6, 7; R. 77-26 ¶¶ 8, 9; AILA Br.
at 2 (explaining that the motion to reopen “takes
time, in large part due to the government’s own
bureaucratic weight, the difficulty in obtaining and
reviewing records and evidence particularized to
each individual respondent, and the sudden strain on
a community affected by mass round-up of its
members”).) Under normal circumstances, preparing
a motion to reopen can take between three and six
months. (R. 77-26 ¶ 12; R. 77-27 ¶ 5.)
The
majority’s
assertion
that
“[t]he
administrative scheme established by Congress even
provided multiple avenues to stay removal while
31a

pursuing relief” would carry weight if the Petitioners
had had time to pursue the “multiple avenues,” or
indeed any avenue. (Maj. Op. at 9.) But when the
ICE raids began, Petitioners were faced with the
very real possibility that they would be deported
before they could reopen their immigration cases and
then be imprisoned, tortured, or killed upon removal
to Iraq. If the district court had not granted a stay of
removal, Petitioners would have quickly been
deported far beyond the reach of habeas and the
court’s jurisdiction. See Boumediene, 553 U.S. at 787
(explaining that “when the judicial power to issue
habeas corpus properly is invoked the judicial officer
must have adequate authority to make a
determination in light of the relevant law and facts
and to formulate and issue appropriate orders for
relief, including, if necessary, an order directing the
prisoner’s release”). The circumstances were such
that recourse to the immigration courts, the BIA, and
the courts of appeal would not have been an
adequate or effective substitute for habeas relief.
Nor is the district court’s application of the
Suspension Clause under these circumstances novel
or unusual. Courts throughout the country
confronting similar circumstances have found that
interpreting § 1252(g) to divest them of jurisdiction
could violate the Suspension Clause. In Devitri v.
Cronen, 289 F. Supp. 3d 287 (D. Mass. 2018), fifty
Indonesian Christians who were subject to orders of
removal brought habeas petitions seeking stays of
deportation. The petitioners sought to file motions to
reopen based on changed country conditions in
Indonesia that occurred after their original removal
orders were entered. Id. at 291. The district court
noted that petitioners provided “persuasive evidence
32a

demonstrating that it is likely that the BIA will not
rule on their non-emergency motions to stay before
they are deported.” Id. at 294. As a result of this
“Kafkaesque procedure,” petitioners would be
“removed back to the very country where they fear
persecution and torture while awaiting a decision on
whether they should be subject to removal because of
their fears of persecution and torture.” Id. The
district court determined that the BIA’s “processes
for adjudicating motions to reopen and motions to
stay are not adequate administrative alternatives to
habeas for these petitioners,” and that § 1252(g)
resulted in an as-applied violation of the Suspension
Clause. Id.
Other courts have concluded that the motion
to reopen process is not an adequate substitute for
habeas relief in circumstances similar to Petitioners’.
Ibrahim v. Acosta, No. 17– cv–24574, 2018 WL
582520, at *5–6 (S.D. Fla. Jan. 26, 2018) (granting
habeas petitions for stay of removal to class of Somali
nationals subject to orders of removal and facing
imminent deportation, concluding that § 1252(g)
“violates the Suspension Clause as applied if it
deprives Petitioners of a meaningful opportunity to
exercise their statutory right to file motions to
reopen their immigration cases”); Sied v. Nielson, No.
17–cv–06785, 2018 WL 1142202, at *25 (N.D. Cal.
Mar. 2, 2018) (holding that the motion-to-reopen
process “is not a constitutionally adequate substitute
process in the facts of this case, where the
government can manipulate the process by deporting
Mr. Sied before he can be heard, to a country
[Eritrea] where he may be tortured or killed”);
Hussein v. Brackett, No. 18–cv–273–JL, 2018 WL
2248513, at *7 (D.N.H. May 16, 2018) (finding that
33a

petitioner “has raised a colorable claim that the
jurisdiction-divesting provisions of § 1252 violate the
Suspension Clause as applied to him, and that this
court has jurisdiction to resolve that question”).
Because Petitioners had no reason to file
motions to reopen and to stay without some notice
that removal was imminent, and once they received
such notice the petition-for-review process failed to
provide a realistic possibility of effective relief, the
district court correctly concluded that the petitionfor-review process failed to provide an adequate
alternative to habeas relief.
In sum, the majority’s conclusion that
Congress can permissibly render the federal courts
impotent to temporarily stay the executive branch’s
imminent removal of aliens to a place where they are
likely to be tortured before they have an opportunity
to pursue relief based on changed country conditions
is contrary to the historical understanding of the writ
of habeas corpus and the Suspension Clause. I would
affirm the district court’s exercise of jurisdiction and
its grant of the preliminary injunction on the
removal-based claims.
II.

Detention-Based Claims

Although § 1252(f)(1) and its interpretation by
the Supreme Court in Reno v. American- Arab AntiDiscrimination Committee, 525 U.S. 471 (1999)
appear to foreclose the possibility of class-wide
injunctive relief, there is no indication that the
statute forecloses class-wide declaratory relief, and it
clearly allows for individual relief where the court

34a

otherwise has jurisdiction.1
In Reno, the Supreme Court considered §
1252(f)(1) within the context of the broader Illegal
Immigration Reform and Immigrant Responsibility
Act (IIRIRA) and explained that “[b]y its plain
terms,” § 1252(f)(1) is “a limit on injunctive relief.”
Id. at 481. The Court stated that § 1252(f)(1)
“prohibits federal courts from granting class-wide
injunctive relief against the operation of §§ 1221–
123[2],” but “does not extend to individual cases.” Id.
at 481-82.
But the Supreme Court addressed § 1252(f)(1)
again in Jennings v. Rodriguez,2 and seemingly left
open the possibility that § 1252(f)(1) does not apply
to constitutional claims. Citing Reno for the
proposition that § 1252(f)(1) “prohibits federal courts
from granting class- wide injunctive relief against
the operation of §§ 1221–123[2],” the Jennings Court
declined to consider the aliens’ constitutional
arguments in favor of injunctive relief. 138 S. Ct. at
851. The Court remanded to the Ninth Circuit,
instructing that:

Reno expressly rejected the view that § 1252(f)(1) provides “an
affirmative grant of jurisdiction” over class-based challenges to
removal decisions. Id. at 482.
1

In Jennings, the Court rejected the Ninth Circuit’s conclusion
that the doctrine of constitutional avoidance requires that §
1225(b) and § 1226(c) be interpreted to include a 6-month limit
on mandatory detentions and to require bond hearings after
that point, 138 S. Ct. at 846, explaining that the sections are
unambiguous as to the permissible length of detention and do
not authorize bond hearings. Thus, I agree that to the extent
the district court determined that the statutes incorporate a
bond-hearing requirement, it erred.
2

35a

the Court of Appeals should consider on
remand whether it may issue classwide
injunctive relief based on respondents’
constitutional claims. If not, and if the
Court of Appeals concludes that it may
issue only declaratory relief, then the
Court of Appeals should decide whether
that remedy can sustain the class on its
own.
Id.
The majority concludes that the issue was settled by
Reno; but if this is so, the Jennings Court’s remand is
baffling. In any event, and assuming Reno settled the
issue, Jennings clearly supports that class-wide
declaratory relief is not barred. Other courts have
determined that § 1252(f)(1) does not bar class-wide
declaratory relief. See Alli v. Decker, 650 F.3d 1007,
1013 (3d Cir. 2011) (“[V]iewing the provision in
context and then taking into consideration the
heading of the provision [‘limits on injunctive relief’],
it is apparent that the jurisdictional limitations in §
1252(f)(1) do not encompass declaratory relief.”);
Rodriguez v. Hayes, 591 F.3d 1105, 1119 (9th Cir.
2010) (“It is simply not the case that Section 1252(f)
bars Petitioner from receiving declaratory relief on
behalf of the class.”); Reid v. Donelan, No. 13-30125PBS, 2018 WL 5269992, at *6 (D. Mass. Oct. 23,
2018) (declining to address whether § 1252(f)(1) bars
a class- wide injunction because the statute “does not
bar class-wide declaratory relief, which suffices to
satisfy Rule 23(b)(2)”). This, of course, is consistent
with § 1252(f)(1)’s use of the words “enjoin” and
“restrain,” as compared with § 1252(e)(1)’s language
explicitly
preventing
courts
from
entering
“declaratory, injunctive, or other equitable relief” in
36a

cases involving aliens excluded under 8 U.S.C. §
1225(b)(1).
The majority notes that the parties’ letter
briefs make clear that the issue of declaratory relief
is not before us. (Maj. Op. at 14, N.8.) That is true in
the sense that Petitioners state “§ 1252(f)(1) does not
apply to Petitioners’ request for classwide
declaratory relief, which is not before this Court, as
the district court has not yet ruled on Petitioners’
request for such relief.” (Petitioners’ Letter Br. at
10.) But the request for such relief is part of the case
and should be entertained by the district court on
remand without prejudgment by this court.
Conclusion
In sum, I would affirm the district court’s
preliminary injunction as to the removal-based
claims; as to the detention-based claims, I would
vacate the district court’s class-wide preliminary
injunction and remand for reconsideration in light of
Jennings and for further proceedings as are
consistent with § 1252(f)(1).

37a

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-2171/18-1233
USAMA JAMIL HAMAMA, et al.,
Petitioners-Appellees,
v.
REBECCA ADDUCCI, et al.,
Respondents-Appellants.
Before: BATCHELDER, SUTTON, and WHITE,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
THIS CAUSE was heard on the record from
the district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the preliminary injunctions for both
the removal-based and detention-based claims are
VACATED, and the matter is REMANDED to the
district court with directions to dismiss the removalbased claims for lack of jurisdiction, and for further
proceedings consistent with this opinion.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk
38a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
USAMA J. HAMAMA, et al.,
Petitioners

Case No. 17-cv11910

REBECCA ADDUCCI,

HON. MARK A.
GOLDSMITH

vs.
Respondent.
_______________________________/

OPINION & ORDER GRANTING
PETITIONERS’ MOTION FOR PRELIMINARY
INJUNCTION (Dkt. 77)
In their motion for a preliminary injunction,
Petitioners ask this Court to halt temporarily their
deportation to Iraq, until they can make their case in
the immigration courts that their removal is legally
prohibited. The grounds that they will urge in those
courts and, if necessary, in the federal courts of
appeals will be that returning them to the
lawlessness and senseless religious hatred that
engulfs much of Iraq would subject them to
persecution, torture, and possible death. The
Government opposes the motion, principally on the
grounds that this Court has no jurisdiction to provide
any relief — even temporary relief — and that
Petitioners’ only recourse is to seek a stay of removal
before the immigration courts. As this Court
explained in its earlier opinion on jurisdiction, and as
it will explain again below, the Government’s view is
inconsistent with the Constitution’s command that
39a

the writ of habeas corpus — the fundamental
guarantor of liberty — must not be suspended, except
in the rare case of foreign invasion or domestic
rebellion.
The Government’s view ignores the compelling
confluence of extraordinary circumstances presented
here. Without warning, over 1,400 Iraqi nationals
discovered that their removal orders — many of
which had lain dormant for several years — were
now to be immediately enforced, following an
agreement reached between the United States and
Iraq to facilitate removal. This abrupt change
triggered a feverish search for legal assistance to
assert rights against the removal of persons
confronting the grisly fate Petitioners face if deported
to Iraq. That legal effort has, in turn, been
significantly
impeded
by
the
Government’s
successive transfers of many detainees across the
country, separating them from their lawyers and the
families and communities who can assist in those
legal efforts.
In these singular circumstances, a federal
district court is armed with jurisdiction to act as a
first responder to protect the writ of habeas corpus
and the allied right to due process, by allowing an
orderly filing for relief with the immigration courts
before deportation, thereby assuring that those who
might be subjected to grave harm and possible death
are not cast out of this country before having their
day in court.
For the reasons explained fully below, the
Court grants Petitioners’ motion for a preliminary
injunction (Dkt. 77).

40a

I.
A.

BACKGROUND

Procedural History

On June 11, 2017, agents from United States
Immigration and Customs Enforcement (“ICE”)
began arresting Detroit-based Iraqi nationals subject
to final orders of removal. Am. Hab. Pet. ¶¶ 2, 5 (Dkt.
68). ICE’s operation ultimately resulted in the arrest
of 114 Iraqi nationals who have since been
transferred to federal facilities in Michigan, Ohio,
Louisiana, and Arizona, where they await removal to
Iraq. Id. ¶¶ 5, 8. This operation was part of a
nationwide effort to remove Iraqi nationals who have
been subject to longstanding final orders of removal,
resulting from criminal convictions or overstaying
visas. Id. ¶¶ 2, 7. Outside of Detroit, approximately
eighty- five Iraqi nationals from Tennessee, New
Mexico, and California have been arrested and
detained. Id. ¶¶ 5-6. Those individuals have since
been transferred to facilities in Alabama, Louisiana,
Tennessee, and Texas. Id. ¶ 52. In total, 234 Iraqi
nationals subject to final orders of removal have been
arrested and are currently detained in 31 facilities
across the country. See Kitaba- Gaviglio Decl., Ex. S
to Pet’rs Mot., ¶ 5 (Dkt. 77-20). The Government
seeks to remove 1,210 additional Iraqi nationals
subject to final orders of removal who have yet to be
arrested. Am. Hab. Pet. ¶ 7.
Over eighty-three percent of those detained
have been subject to final orders of removal for at
least five years, with more than fifty percent being
subject to the orders for a decade or more. See
Kitaba-Gaviglio Decl. ¶ 8. However, prior to March
2017, the Government had difficulty executing
removal orders for Iraqi nationals due to Iraq’s
41a

longstanding policy of not issuing the requisite travel
documents for repatriation. Am. Hab. Pet. ¶ 42. It
was not until the United States agreed to remove
Iraq from the list of countries set forth in Executive
Order 13780, issued March 6, 2017, that Iraq agreed
to issue travel documents. Id. ¶ 43 (citing 82 F.R.
13209). Prior to this agreement, the Government was
only able to repatriate Iraqi nationals with unexpired
passports. Schultz Decl., Ex. C to Gov’t Resp., ¶ 6
(Dkt. 81-4). Since 2007, just over 400 such
individuals were removed by the Government or
voluntarily agreed to return to Iraq. Id. ¶ 4. Iraq’s
recent willingness to issue travel documents has
allowed for removal on a much more aggressive scale.
On June 15, 2017, Petitioners filed both a
habeas corpus class action petition (Dkt. 63) and a
motion for a temporary restraining order and/or stay
(Dkt. 66). The motion sought to prevent their
removal “until an appropriate process has
determined whether, in light of current conditions
and circumstances, they are entitled to mandatory
protection from removal.” Pet’rs Mot. for TRO at 2.
After the Government opposed the motion on
jurisdictional grounds, the Court issued a stay of
removal, pending resolution of the jurisdictional
issue, which stay was made applicable to the class as
then defined, i.e., all Iraqi nationals subject to
removal orders within the jurisdiction of the Detroit
ICE Field Office. See Hamama v. Adducci, No. 17CV-11910, 2017 WL 2684477 (E.D. Mich. June 22,
2017).
After Petitioners filed an amended habeas
corpus class action petition and class action
complaint, along with a motion to expand the stay
(Dkt. 69), the Court entered an order expanding the
42a

stay to a nationwide class of Iraqi nationals subject
to final orders of removal. See Hamama v. Adducci,
No. 17-CV-11910, 2017 WL 2806144 (E.D. Mich.
June 26, 2017). 1 The stay was subsequently
extended until July 24, 2017 to allow further
consideration of the jurisdiction issue. See 7/6/2017
Op. & Order (Dkt. 61). Since that time, the Court has
ruled that it has jurisdiction in this matter. See
Hamama v. Adducci, No. 17-CV-11910, 2017 WL
2953050, ___ F. Supp. 3d ___ (E.D. Mich. July 11,
2017).
In their motion for a preliminary injunction,
Petitioners argue that it is unlawful to remove them
prior to an adjudication of their motions to reopen by
the immigration courts and the filing of a petition for
review with the courts of appeals, if necessary.
Motions to reopen allow those who are already
subject to final orders of removal to argue that the
order is now unlawful, or that they are now eligible
for immigration relief or protection based on changed
country conditions. See Realmuto Decl., Ex. Y to
Pet’rs Mot., ¶ 5 (Dkt. 77-26). Petitioners, many of
whom are religious minorities, including Chaldean
Christians, Kurds, and Sunni and Shiite Muslims,
argue that they are eligible for mandatory relief
under provisions of the Immigration and Nationality
Act (“INA”), the Foreign Affairs Reform and
Restructuring Act (“FARRA”), and the Convention
Against Torture (“CAT”). Pet’rs Mot. at 18 (citing 8
U.S.C. § 1231(b)(3) (restricting removal to country
where alien’s life or freedom would be threatened); 8
U.S.C. § 1231 note (stating policy of the United
States not to remove individual to a country where
The members of the expanded putative class are encompassed
within the term “Petitioners,” unless otherwise indicated.
1

43a

there are substantial grounds to believe the
individual will be tortured in that country); 8 C.F.R.
§ 208.16(c)(2) (implementing regulation for the CAT,
which forbids removal if more likely than not
individual will be tortured upon removal). Petitioners
argue that these laws prohibit their removal until
motions to reopen have been filed and adjudicated.
They also argue that the Fifth Amendment’s Due
Process Clause forbids removal prior to the
opportunity to be heard regarding the risk of torture,
persecution, or death.
Petitioners contend that the harm they will
face if removed to Iraq far outweighs the harm to the
Government that will result if removal is delayed
pending
the
completion
of
administrative
proceedings and the opportunity to seek a stay in the
courts of appeals. They also maintain that the public
interest weighs in their favor because the public has
an interest in fair immigration proceedings.
To ensure their claims are heard, Petitioners
request that their removal be enjoined for three
months in order to file motions to reopen, beginning
from the time the Government provides them with
their Alien Files (“A-Files”) and their Record of
Proceedings (“ROP”) from the immigration courts
and/or the Board of Immigration Appeals (“BIA”). For
those who file a motion to reopen within that threemonth period, Petitioners request that the
enjoinment of their removal continue through the
adjudication of the administrative proceedings and, if
necessary, until they have submitted both petitions
for review and motions to stay in the appropriate
courts of appeals.

44a

In response, the Government reasserts its
claim that the REAL ID Act, 8 U.S.C. § 1252, divests
this Court of jurisdiction. It argues that there is no
Suspension
Clause
violation
under
these
circumstances, because the administrative motion to
reopen process is adequate. The Government also
raises, for the first time, the argument that there
cannot be a Suspension Clause violation because
habeas relief is inappropriate where the detainee is
challenging a transfer from custody, as distinct from
a challenge to detention itself. Finally, the
Government argues that even if this Court has
jurisdiction, Petitioners’ motion for preliminary
injunction should be denied because their claims are
meritless and the balance of equities weighs in the
Government’s favor.
Prior to addressing these arguments, the
Court turns to the pertinent facts.
B.

Conditions in Iraq

As noted in the Court’s opinion regarding
jurisdiction, Petitioners’ removal orders largely
predate the deteriorating conditions in Iraq. See
Hamama, 2017 WL 2953050 at *3; see also Heller
Decl., Ex. D. to Pet’rs Mot., ¶ 8 (Dkt. 77-10)2; KitabaGaviglio Decl. ¶ 7 (noting that over fifty percent of
Petitioners have been subject to orders of removal
since 2007). The country’s instability traces back to
the 2003 United States-led invasion of Iraq, which
Rebecca Heller is the director and co-founder of the
International Refugee Assistance Project (“IRAP”), a project of
the Urban Justice Center, Inc. Heller Decl. ¶ 1. IRAP provides
free legal services to refugees, including those who seek escape
from persecution. Id. ¶ 4. The organization has extensive
experience providing assistance to Iraqi refugees. Id. ¶ 5.
2

45a

brought in its wake the persecution of religious
minorities, including Christians, Yezidis, and others.
See Lattimer Decl. I, Ex. I to Pet’rs Mot., ¶¶ 8, 10
(Dkt. 11-10).3 However, it was not until 2014 that
conditions became especially dire for religious
minorities. In June of that year, the Islamic State in
Iraq and Syria (“ISIS”) took control of Mosul, Iraq’s
second largest city, causing an immediate exodus of
some 500,000 civilians. Id. at 9.4
Religious minorities in Iraq face significant
persecution at the hands of ISIS. See Lattimer Decl. I
¶¶ 8, 10. see also id. ¶ 17 (“[R]eligious minorities are
at risk of extinction in Iraq . . . .”). In addition to
desecrating numerous places of worship, ISIS has
carried out large-scale killings and abductions of
those who have been unable to flee. Id. ¶ 10. ISIS
forces in Iraq have directed Christians, in particular,
Mark Lattimer, currently the executive director of Minority
Rights Group International, has been extensively involved in
various organizations dedicated to monitoring human rights
abuses in Iraq. Lattimer Decl. ¶ 1.
3

Destabilization flowing from the 2003 invasion caused about
two-thirds of Iraq’s Christian community to leave the country
prior to June 2014. See “No Way Home: Iraq’s Minorities on the
Verge of Disappearance,” (hereinafter, “No Way Home Report”),
at 10, available at http://minorityrights.org/wp-content
/uploads/2016/07/MRG_CFRep_Iraq_Aug16_UPD-2.pdf.
According to the United Nations High Commissioner for
Refugees, an estimated one million Iraqi citizens remain
internally displaced due to sectarian violence dating from about
2006 until ISIS became heavily active in roughly 2014. See Iraq,
Int’l Religious Freedom Report, U.S. State Dep’t at 3 (2015),
available at https://www.state.gov/documents/organization/
256479.pdf. The conflict with ISIS, however, caused a rate of
displacement that vastly and rapidly outpaced the previous one,
displacing an additional 3.4 million people in less than two
years, from 2014 to July 2015. Id.
4

46a

to “pay a protection tax, convert to Islam, or be
killed.” Id. ¶ 9. Christians have also been subject to
rape and other atrocities. Id. ¶ 10. Five of the named
Petitioners identify as Christian. See Am. Hab. Pet.
¶¶ 19-23.
Sectarian violence in Iraq is by no means
limited to Christian minorities. Shiite Muslims and
Yezidis have been subject to sexual slavery,
abductions, and death at the hands of ISIS. Heller
Decl. ¶¶ 32, 38. ISIS has gone as far as to target
these groups for genocide. Id. ¶ 32.5Two of the named
Petitioners identify as Shiite Muslims. See Am. Hab.
Pet. ¶¶ 24-25.
ISIS is not the only group targeting religious
minorities. The record indicates that Sunni Muslims
have been singled out by militias associated with the
Iraqi government. Following the rise of ISIS, the
Iraqi
government
empowered
the
Popular
Mobilization Forces (“PMF”) to reclaim territory.
Heller Decl. ¶ 16. PMF consists of mostly Shiite
organizations that are trained by the Iranian
government and has engaged in a campaign of
abductions and extrajudicial killings against Sunni
Muslims. Id. ¶¶ 16, 20.

The current International Religious Freedom Report,
published by the State Department, also notes that “Yezidi,
Christian, and Sunni leaders continued to report harassment
and abuses” by certain regional governments. See Int’l Religious
Freedom Report at 7; see also id. at 15 (“Coordinated [ISIS]
bomb attacks continued to target Shia markets, mosques, and
funeral processions. . . .); id. at 18 (“[ISIS] continued to publish
open threats via leaflets, social media, and press outlets of its
intent to kill Shia ‘wherever they were found’ on the basis of
being ‘infidels.’”).
5

47a

There is also evidence that Petitioners’
association with Westerners will heighten their risk
of persecution. In addition to targeting U.S. citizens,
ISIS and other sectarian militias have targeted
Iraqis who they perceive to be associated with
“western interests.” Lattimer Decl. II, Ex. K to Pet’rs
Mot., ¶ 2 (Dkt. 77-13). There is a high likelihood that
if they are removed to Iraq, Petitioners will be
immediately detained and interrogated by the
country’s internal security forces. Smith Decl., Ex. E
to Pet’rs Reply, ¶ 1 (Dkt. 84-6). Petitioners face a
heightened risk of interrogation due to media
coverage of their criminal records, as well as Iraq’s
fear of American espionage. Id. ¶ 5. Many of the
interrogation techniques used by Iraq’s internal
security forces would qualify as torture. Id. ¶ 2. Any
Iraqi who lived or spent a considerable amount of
time in the United States would almost certainly be
unable to conceal this fact upon return to Iraq.
Lattimer II Decl. ¶ 11.6
C.

Barriers to Asserting Claims

Petitioners assert that they have been
significantly impeded in raising these changed
conditions in immigration courts since their
detention. According to Petitioners, even without the
pressure of immediate removal without advance
notice, preparing a motion to reopen proceedings
before the immigration courts is a difficult task. They
The State Department’s recent Iraq Travel Warning notes that
“[a]nti-U.S. sectarian militias may also threaten U.S. citizens
and western companies throughout Iraq.” See Iraq Travel
Warning, U.S. Dep’t of State (June 14, 2017), available at
https://travel.state.gov/content/passports/en/alertswarnings/iraq
-travel-warning.html.
6

48a

note that it requires compiling files, affidavits,
“hundreds of pages of supporting evidence,” and
preparing the application for relief. Abrutyn Decl. I,
Ex. A to Pet’rs Mot., ¶¶ 11, 13 (Dkt. 77-2); see also
Realmuto Decl., Ex. Y to Pet’rs Mot., ¶ 8 (Dkt. 77-26)
(noting that time is necessary to gather “substantial
new evidence” n support of a motion to reopen);
Scholten Decl., Ex. Z to Pet’rs Mot., ¶ 8 (Dkt. 77-27);
8 C.F.R. § 1003.2(c)(1) (noting that an alien’s
criminal history will often need to be retrieved and
reviewed, and that a motion to reopen “must be
accompanied by the appropriate application for relief
and all supporting documentation”).
The two most important documents, the A-File
(the file documenting the alien’s immigration history)
and the ROP (a court file that contains a history of
the alien’s past proceedings before the immigrations
courts and BIA), are generally only attainable
through a Freedom of Information Act (“FOIA”)
request. See Realmuto Decl, ¶¶ 8-9. Responses to
these FOIA requests can often take over five months.
See Abrutyn Decl. II, Ex. AA to Pet’rs Mot., ¶¶ 6, 7
(Dkt. 77-28).
Preparing a motion to reopen is also an
expensive proposition. Preparing the motion requires
“a high level of immigration law knowledge and
experience,” which costs clients somewhere between
$5,000 and $10,000. See Reed Decl., Ex. K to Pet’rs
Mot., ¶¶ 7, 10 (Dkt. 77- 12). This amount does not
include fees of $10,000 to $30,000 that arise if the
motion is granted and the case proceeds to a merits
hearing on the underlying form of relief sought. Id. ¶
10. In a case of this nature, costs can reach up to
$80,000. Id.
49a

The difficulty of preparing a motion to reopen
has been compounded by Petitioners’ detention in
facilities far from their homes. Petitioners detained
in Michigan have been transferred to Ohio,
Louisiana, and Arizona; Petitioners detained in
Tennessee have been transferred to Louisiana,
Texas, Alabama, and Arizona. See Am. Hab. Pet. ¶
52. It is estimated that approximately seventy-nine
percent of Petitioners are being detained in facilities
outside of the state in which the immigration court
issued their final orders of removal. Kitaba-Gaviglio
Decl. ¶ 9. Further, many Petitioners have been
transferred multiple times. Am. Hab. Pet. ¶ 56. One
Petitioner, Constantin Jalal Markos, has been
transferred to facilities in Michigan, Ohio, Louisiana,
and Arizona, with a layover in Texas, since his
detainment in May 2017. See Markos Decl., Ex. X to
Pet’rs Mot., ¶¶ 17-19 (Dkt. 77-25).
Relocation of Petitioners impedes retaining
and communicating with counsel. Am. Hab. Pet. ¶
55. And it impedes local community efforts to find
and maintain counsel for Petitioners when they are
shuttled around the country. Id. ¶ 53.
Attorneys have also described “extremely
limited access to the phone” at detention facilities,
thus making it difficult to compile the necessary
information for a motion to reopen. See Kaur Decl.,
Ex. U to Pet’rs Mot., ¶ 4 (Dkt. 77-22); see also Markos
Decl. ¶¶ 20-21 (stating that phone calls at the
Arizona detention facility can last no longer than
fifteen minutes at twenty-five cents per minute).
Attempts to visit clients in person have also been
impeded. Ruby Kaur, an attorney representing two
Petitioners detained in Ohio, stated that after
making the four-hour drive from Michigan to Ohio,
50a

she was twice denied the opportunity to visit her
clients despite receiving prior assurances. See Kaur
Decl. ¶¶ 7-9; see also Jajonie-Daman Decl., Ex. F to
Pet’rs Mot., ¶¶ 7- 8 (Dkt. 77-7) (stating it is “nearly
impossible” for her to meet with her Petitionerclients “because they were all transferred to
Youngstown, Ohio approximately 4 hours away . . .
.”); Samona Decl, Ex. V to Pet’rs Mot., ¶¶ 9-10 (Dkt.
77-23) (stating that it is impractical for him to drive
over four hours to visit his clients in the Ohio
facility).
In response to this detailed statement of
evidence, the Government provides a generalized
rebuttal. The Government first argues that “[t]he
requirements for the motion [to reopen] are not
elaborate.” Gov’t Resp. at 8 (Dkt. 81). It notes that a
motion need only state the new facts that will be
proven and provide evidence relating to those facts.
Id. (citing 8 U.S.C. § 1229a(c)(7)(B)). Further, when
considering motions to reopen and motions to stay
removal, the immigration courts taken into account
“the possibility that the motions may have been
prepared and submitted without the alien (or his or
her attorney) having time to obtain all appropriate
evidence in support of the motion.” McNulty Decl.,
Ex. B to Gov’t Resp., ¶ 20 (Dkt. 81-3).
Regarding the transfer of most of the Detroitbased Iraqi nationals to Ohio, the Government states
that this was done due to the lack of available space
at local county jails. See Lowe Decl., Ex. D to Gov’t
Resp. ¶¶ 5-6 (Dkt. 81-5). Successive transfers to
facilities in other states have been done for the
purpose of staging for removal from the United
States to Iraq. Id. ¶ 12.
51a

The Government also states that it provides
daily phone access to its detainees, and notes that at
its Arizona facility, phone calls made to pro bono
counsel, the immigrations courts, the BIA, the
American Civil Liberties Union (“ACLU”), and other
institutions are free of charge. See McGregor Decl.,
Ex. F to Gov’t Resp., ¶ 3 (Dkt. 81-7). Detainees are
also provided a handbook informing them of this
right. Id.
Petitioners have presented specific facts
contradicting
the
Government’s
generalized
treatment of the facts. Detainees at the Arizona
facility have stated that the list of legal service
providers that they may call for free only consists of
three organizations, only two of which can provide
services, and such providers are limited by their
resources to assisting only a small number of
detainees. Peard Decl., Ex. F to Pet’rs Reply, ¶ 9
(Dkt. 84-7). Detainees contest that they are
permitted to call the ACLU free of charge, and state
that they must pay for calls to private immigration
attorneys who have offered their services pro bono.
Id. ¶ 10. Significantly, there is evidence that those in
the Arizona facility are not permitted to call legal
service providers in Michigan free of charge, despite
the fact that the immigration court in which they
received their final order of removal is in that state.
Id. Further, there is evidence that detainees at the
Ohio facility have been limited to just ten minutes of
time when making phone calls to counsel. Samona
Decl. ¶ 12.

52a

II.

STANDARD OF DECISION

To determine whether to grant a preliminary
injunction, a district court must consider: (i) the
plaintiff’s likelihood of success on the merits; (ii)
whether the plaintiff may suffer irreparable harm
absent the injunction; (iii) whether granting the
injunction will cause substantial harm to others; and
(iv) the impact of its decision on the public interest.
Yolton v. El Paso Tenn. Pipeline Co., 435 F.3d 571,
578 (6th Cir. 2006). These four factors “are factors to
be balanced, not prerequisites that must be met.”
Hamad v. Woodcrest Condo. Ass’n, 328 F.3d 224, 230
(6th Cir. 2003).
III.
A.

ANALYSIS

Jurisdiction

Prior to addressing whether issuance of a
preliminary injunction is appropriate, the Court
must again address the Government’s jurisdictional
challenge. “Without jurisdiction the court cannot
proceed at all in any cause. Jurisdiction is power to
declare the law, and when it ceases to exist, the only
function remaining to the court is that of announcing
the fact and dismissing the cause.” Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94 (1998)
(quoting Ex parte McCardle, 7 Wall. 506, 514 (1868)).
In its most recent opinion, the Court held that
the REAL ID Act did not apply to divest the Court of
subject-matter jurisdiction because the Act violated
the Constitution’s Suspension Clause, as applied. See
7/11/2017 Op. & Order at 23. The Government now
argues that there can be no Suspension Clause
violation where, as here, there is no entitlement to
habeas relief. It also reasserts its argument that
53a

there is no violation because the REAL ID Act
created an adequate and effective alternative
through the administrative motion-to-reopen process.
In support of its argument that a habeas claim
is improper under the circumstances, the
Government relies on the Supreme Court’s ruling in
Munaf v. Geren, 553 U.S. 674 (2008). In Munaf, the
petitioners were two American citizens, who traveled
to Iraq where they were arrested by the
Multinational Force-Iraq (“MNF-I”) in connection
with charges of kidnapping and providing aid to
terrorist groups. Id. at 681, 683. The petitioners
subsequently filed a petition for habeas corpus,
seeking to prohibit their transfer from MNF-I
custody to the custody of the Iraqi government for
prosecution. Id. at 682, 684. The Court held, as an
initial matter, that the federal courts had habeas
jurisdiction in such circumstances. Id. at 688. It went
on to say, however, that the habeas power should not
be exercised in the context of that case, because
“habeas is not a means of compelling the United
States to harbor fugitives from the criminal justice
system of a sovereign with undoubted authority to
prosecute them.” Id. at 697. The Court also rejected
the petitioners’ claim that they might be tortured if
turned over to Iraqi authorities, explaining that the
petitioners alleged “only the possibility of
mistreatment in a prison facility.” Id. at 702.
Notably, regarding the petitioners’ claim that their
transfer was barred under FARRA, the Court stated
that their pleadings did not plead any FARRA-based
claim, and stressed that it was expressing no opinion
“on whether [the petitioners] may be permitted to
amend their respective pleadings to raise [a FARRA
claim] on remand.” Id. at 703 n.6.
54a

The Government also relies on Kiyemba v.
Obama, 561 F.3d 509 (D.C. Cir. 2009), which
addressed a habeas claim by Guantanamo Bay
detainees who sought to prevent transfer to countries
where they might face torture. The court held that
the petitioners had properly asserted that the federal
courts had habeas jurisdiction, even though the
petitioners sought to prevent transfer, rather than
seek release from detention. Id. at 513 (“[I]it is clear
they allege a proper claim for habeas relief,
specifically an order barring their transfer to or from
a place of incarceration.”). However, the court
concluded that the habeas power should not be
exercised, because the Government had submitted a
declaration expressly stating that it would not
transfer any of the detainees to a country where a
detainee was likely to be tortured. Id. at 514. The
court also rejected a claim under FARRA, because
the petitioners were not challenging a removal order.
Our case is far different from both Munaf and
Kiyemba. Unlike the petitioners in Munaf,
Petitioners here are not the subject of extradition
requests by a foreign power, so there is no issue of
interference with comity in regards to foreign
nations, the expressed concern of the Supreme Court.
And unlike the Munaf petitioners, Petitioners here
have not made a speculative claim that they may be
mistreated; they have produced substantial evidence
that such mistreatment is highly probable. And
unlike the Munaf petitioners, Petitioners here have
specifically invoked the CAT.
Kiyemba is also distinguishable, because
unlike the petitioners there, who were enemy
combatants, Petitioners here are participants in the
immigration process, who wish to raise CAT/FARRA
55a

arguments to challenge the present enforcement of
their removal orders. See Hamama, 2017 WL
2953050 at *9 (stating that, if constitutional, 8
U.S.C. § 1252(g) would apply because Petitioners’
claims arise out of the Attorney General’s decision to
execute their final orders of removal).
The Government’s argument that habeas is
not appropriate — on the theory that Petitioners are
not challenging the fact of their detention — thus has
no support in Munaf or Kiyemba. In fact, in none of
the many cases cited by the parties and by the Court
regarding habeas jurisdiction in immigration cases
has a court refused to consider a petitioner’s
argument on the grounds that the challenge to the
removal order was not cognizable for failure to
challenge detention. See, e.g., Elgharib v. Napolitano,
600 F.3d 597 (6th Cir. 2010); Benitez v. Dedvukaj,
656 F. Supp. 2d 725 (E.D. Mich. 2009); Ba v. Holder,
No. 09-14645, 2009 WL 5171793, at *2 (E.D. Mich.
Dec. 24, 2009). As a result, the Court finds that
Petitioners have raised a cognizable habeas claim.
The Government also reasserts its claim that
there is no Suspension Clause violation because the
alternative to habeas relief created by the REAL ID
Act — claims brought by motions to reopen
adjudicated at the administrative level followed by
petitions for review in the courts of appeals — is
adequate and effective. In support of this argument,
the Government submits declarations from officials
charged with overseeing the Detroit immigration
court and the BIA. Sheila McNulty, the assistant
chief immigration judge in charge of overseeing the
Detroit immigration court, states that her office
prioritizes the timely adjudication of emergency
motions to stay removal. McNulty Decl., Ex. B to
56a

Gov’t Resp., ¶ 11 (Dkt. 81-3). She states that there
are multiple avenues to seek a stay pending the
adjudication of a motion to reopen: (i) the initial
motion for stay in immigration court; (ii) filing a
motion to stay with the BIA pending appeal and; (iii)
requesting a stay from the immigration court while
an alien’s appeal before the BIA is pending. Id. ¶ 13;
see also Gearin Decl., Ex. A to Gov’t Resp. (Dkt. 81-3)
(describing the BIA’s Emergency Stay Unit, a
division dedicated to timely adjudicating emergency
motions to stay).
The Court agrees with the Government that
the administrative level is the proper venue to
adjudicate Petitioners’ motions to reopen and,
ordinarily, motions to stay. However, as noted in the
Court’s prior opinion, the confluence of events in this
case would effectively foreclose this route for many
Petitioners without intervention by the Court. As
detailed below, the impediments to prosecuting their
motions to reopen are formidable. The administrative
process to file motions to reopen and stay can only be
adequate and effective if individuals are given a fair
chance to access the process.
The Government contends that Petitioners
have been given such a chance, as evidenced by the
fact that seventy-nine of the Detroit-based
Petitioners have already received rulings on their
motions to reopen and stay since the commencement
of this case. See Gov’t Resp. at 10 (citing McNulty
Decl. ¶ 23). Unfortunately for the Government, this
statistic does not prove much. For seventy-one of
these cases, the Government does not state whether
the motions to reopen and stay were filed before or
after this Court’s stay was entered. Thus, this
Court’s stay may well have given sufficient
57a

“breathing room” for certain Petitioners to invoke the
administrative process. If the Court had not
intervened, it seriously doubts that a meaningful
number of Petitioners would have been able to file
necessary motions and receive an adjudication from
the immigration courts or the BIA prior to the time
they might otherwise have been removed. It has
taken a herculean effort by members of the bar and
several nonprofit organizations just to get those
seventy-nine motions filed. The record indicates that,
under normal circumstances, preparing a motion to
reopen can take anywhere from three to six months.
Realmuto Decl. ¶ 12; Scholten Decl. ¶ 5. And the
Government’s focus on the seventy-nine motions says
nothing of the hundreds of others in the class who
have not yet been able to file motions or even retain
counsel.
What the Court said in its earlier opinion on
jurisdiction remains true and bears repeating. Under
ordinary circumstances, the REAL ID Act would
apply to divest this Court of jurisdiction. The act
states that, other than a petition for review in the
courts
of
appeals
following
administrative
adjudication, “no court shall have jurisdiction to hear
any cause or claim by or on behalf of any alien
arising from the decision or action by the Attorney
General to commence proceedings, adjudicate cases,
or execute removal orders against any alien under
this chapter.” 8 U.S.C. § 1252(g).
But to enforce the REAL ID Act in the present
circumstances violates the Constitution’s Suspension
Clause. The Suspension Clause states that “[t]he
Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in Cases of Rebellion or
Invasion the public Safety may require it.” U.S.
58a

Const. art. I, § 9, cl. 2. “[T]he Supreme Court has
noted that this Clause requires ‘some judicial
intervention in deportation cases.’” Muka v. Baker,
559 F.3d 480, 483 (6th Cir. 2009) (quoting I.N.S. v.
St. Cyr, 533 U.S. 289, 300 (2001)). However,
suspension will not be made out if there is a “new
collateral remedy which is both adequate and
effective” to challenge the alleged illegality. Id.
(quoting Swain v. Pressley, 430 U.S. 372, 381 (1977)).
The Sixth Circuit in Muka held “facially, the
petition for review filed in the court of appeals
provides an adequate and effective process to review
final orders of removal.” Id. at 484-485. The court
also rejected the petitioners’ as-applied challenge,
noting that the petitioners’ failure to make a known
argument during the administrative proceedings did
not mean that the court “must grant them a second
bite at the apple to satisfy the Suspension Clause’s
requirements.” Id. at 486. However, the court
allowed for the possibility of successful as-applied
challenges in the future.7 Id.

The Government notes that “the motion to reopen process has
been upheld under the Suspension Clause by multiple courts of
appeal.” Gov’t Resp. at 7-8 (citing Iasu v. Smith, 511 F.3d 881
(9th Cir. 2007); Alexandre v. U.S. Atty. Gen., 452 F.3d 1204
(11th Cir. 2006); Luna v. Holder, 637 F.3d 85 (2d Cir. 2011)).
But two of the cases — Iasu and Alexandre — dealt with
petitioners who, like the petitioners in Muka, had failed to raise
a claim or submit evidence of which they had knowledge at the
time of the initial removal proceeding. By contrast, Petitioners
here seek to raise claims that became available to them only
after their removal orders were entered. Luna is inapposite,
because it held that the Suspension Clause was not violated
where the petitioner’s counsel failed to timely file a petition for
review, noting that the petitioner was able to challenge his final
order of removal by way of a motion to reopen. Unlike the
7

59a

This case presents such a challenge. Unlike in
Muka, Petitioners did not fail to raise a claim in their
prior administrative proceedings; their CAT/FARRA
and INA claims did not ripen until at least 2014,
when the persecution of religious minorities and
those affiliated with the United States became far
more apparent. See Lattimer Decl. I. ¶ 9. More
important, the REAL ID’s alternative to habeas relief
— filing motions to reopen followed by petitions for
review in the courts of appeals — does not take into
account the compelling confluence of grave, realworld circumstances present in this case that stand
in the way of Petitioners’ ability to access the
administrative system.
The sudden decision to detain Petitioners in
facilities far from home and with limited phone
access has greatly hindered their ability to file
motions to reopen. While the Government provides
an overview of its efforts to provide detainees with
access to counsel, it does not rebut the declarations of
counsel and Petitioners who state they have been
greatly impeded in their efforts to avail themselves of
the administrative process. See Kaur Decl. ¶¶ 7-9
(noting that she was twice denied the opportunity to
see her clients after driving four hours to Ohio); see
also Markos Decl. ¶¶ 20-21 (phone calls at Arizona
facility limited to fifteen minutes per day at twentyfive center per minute); Peard Decl. ¶ 9 (Arizona
facility only allows free phone calls to two legal
service providers that can only accommodate a small
number of detainees); Reed Decl. ¶ 12 (stating that
petitioner in Luna, Petitioners do not have an effective
opportunity to file a motion to reopen absent this Court’s
prevention of their removal.

60a

preparing motions to stay and motions to reopen
requires original signatures from the detained
clients, thus necessitating in-person visits that are
often impractical in light of Petitioners’ everchanging locations). The shortcomings of these
facilities, along with ICE’s successive transferring to
different facilities in order to facilitate removal, has
either prevented Petitioners from filings motions
altogether, or caused them to sacrifice the quality of
their filings in light of the pace at which the
Government is moving. Valenzuela Decl., Ex. W to
Pet’rs Mot., ¶ 17 (Dkt. 77-24).
Petitioners have also submitted compelling
evidence that if they are removed prior to their filing
and adjudication of motions to reopen, their ability to
seek judicial review in the courts of appeals will be
effectively foreclosed. Their status as religious
minorities places them at grave risk of torture and
other forms of persecution at the hands of ISIS, other
Sunni insurgencies, and the various Shi’a militias
within the PMF. Heller Decl. ¶¶ 16, 20. Since ISIS’s
capture of Mosul in June 2014, the group has
targeted Christian and Yezidi Iraqis, subjecting them
to religious desecration, abductions, sexual slavery,
and large scale killings. Lattimer Decl. I ¶¶ 9-10.
Iraq responded to ISIS’s rise by empowering the
PMF, a group consisting of several Shi’a militias
trained in Iran, a designated state sponsor of terror.
Heller Decl. ¶ 16. In addition to combating ISIS,
these militias have engaged in widespread
persecution of the Sunni community as a form of
retaliation. Id. ¶ 20. The militias have “carried out a
systematic pattern of violations” against the Sunni
community, including enforced disappearance and
extrajudicial executions. Id.
61a

The risk to Petitioners is compounded by their
affiliation with the United States, an affiliation that
will likely expose them to mistreatment by Iraq’s
internal security forces, as well as targeted killings
by both Sunni and Shi’a groups. Immediately upon
arriving in Iraq, Petitioners will be subject to
interrogation that will likely cross the line into
torture due to Iraq’s fear of American espionage.
Smith Decl. ¶¶ 1-2. Assuming they are released,
Petitioners will be at risk from various groups. The
record indicates that both Sunni and Shi’a militias
continually target those associated with “western
interests.” Lattimer Decl. II ¶ 9.
Petitioners who face this severe mistreatment
will obviously be unable to vindicate their habeas
rights. Deportees who must undertake evasive action
to avoid persecution, torture, or death — such as
changing residences or leaving jobs — will be
deprived of the stability that is often necessary to
properly pursue legal challenges. Maintenance of
legal paperwork and communication with lawyers
and potential witnesses would likely become
extraordinarily problematic, if not impossible.
The Government’s attempt to characterize
Petitioners as having slept on their rights prior to
detainment is unpersuasive. The earliest Iraq’s
changed conditions became apparent to Petitioners
was 2014, with conditions threatening to some
Petitioners not arising until much later. Heller Decl.
¶ 35 (members of the Sabaean-Mandaean community
reported robberies and death threats beginning in
2015); id. ¶ 20 (2016 State Department report noted
the extent to which members of the PMF were
retaliating against Sunni civilians); Smith Decl. ¶ 36
(stating that upcoming Kurdish independence
62a

referendum could pose threat to Christians and
Yezidis). By 2014, Iraq’s refusal generally to
accommodate removals led Petitioners — most of
whom had been living peaceably under removal
orders for over a decade — to reasonably conclude
that filing a motion to reopen was an academic
exercise. And given that lack of utility, it was
reasonable not to incur the prohibitive cost of filing a
motion to reopen, which can reach up to $80,000 in a
case of this nature. Reed Decl. ¶ 10.
The Government points out that removals to
Iraq have never fully ceased, noting that over 400
have been repatriated since 2007 alone. Schultz Decl.
¶ 4. However, this number includes those who have
voluntarily returned and those with unexpired
passports, a condition that had been imposed by Iraq
for repatriation. Iraq also refused to accommodate
charter flights for a number of years, another
condition that prevented removal on a larger scale.
Given the very limited nature of removals to Iraq
prior to their detainment, Petitioners justifiably
assumed that a motion to reopen was not necessary
until given notice otherwise.
These circumstances once again lead the Court
to hold that the REAL ID Act violates the Suspension
Clause, as applied. Because the Act may not be
enforced, the Court is not stripped of jurisdictional
grants found in other sources of the law, including 28
U.S.C. § 2241 (habeas); 28 U.S.C. § 1331 (federal
question); 28 U.S.C. § 1361 (mandamus).
B.

Preliminary Injunction

The Court next turns to Petitioners’ motion for
preliminary injunction. A proper balancing of the
four factors counsels granting the motion.
63a

1.

Likelihood of Success on the Merits

Before deciding whether Petitioners are likely
to succeed on the merits, it is important to clarify
what it is they are claiming. At the commencement of
this action, Petitioners argued that they were
entitled to relief under the INA and CAT/FARRA,
and that this Court would be an appropriate forum to
adjudicate their claims. Petitioners have since
narrowed their claim, arguing that (i) they are
statutorily
and
constitutionally
entitled
to
adjudication of their claims via motions to reopen
before the immigration courts and review by the
courts of appeals, and (ii) this Court’s role should be
to make that process meaningful by staying
enforcement of their removal orders until the
immigration courts have acted and the courts of
appeals have reviewed any motion for a stay.
Regarding their statutory right to adjudication prior
to removal, Petitioners contend that the INA and
CAT/FARRA guarantee them the right to be heard
prior to removal. Further, Petitioners contend that
the Fifth Amendment’s Due Process Clause forbids
their removal without an opportunity to be heard in
the face of probable persecution and torture.
The merits analysis must be conducted
consistent with the Court’s jurisdiction analysis.
Having concluded that the Court’s jurisdiction is
limited to preserving a meaningful opportunity for
access to the process that Congress intended be
followed, this Court does not evaluate whether any
class member will likely succeed on the substance of
INA and CAT/FARRA arguments before the
immigration courts and the courts of appeals.
Rather, the Court’s role now is to evaluate whether
the sources of law put forward by Petitioners support
64a

their claim of a right to adjudication of their motions
to reopen prior to removal.
The standard regarding the merits that a
court must evaluate is whether the moving party
“has raised questions going to the merits so serious,
substantial, difficult, and doubtful as to make them a
fair ground for litigation and thus for more deliberate
investigation.” Six Clinics Holding Corp., II v.
Cafcomp Sys., Inc., 119 F.3d 393, 402 (6th Cir. 1997).
Petitioners’ showing meets that standard.
a.

INA and CAT/FARRA

The first statutory ground identified by
Petitioners is 8 U.S.C. § 1231(b)(3)(A), a subsection of
the INA, which “implements the ‘non-refoulement
obligation’ reflected in Article 33 of the Refugee
Convention.” Yousif v. Lynch, 796 F.3d 622, 632 (6th
Cir. 2015). The principle of non-refoulement, codified
in the 1951 United Nations Convention Relating to
the Status of Refugees (“Refugee Convention”),
restricts the ability of countries to send individuals
fleeing persecution to countries where they would be
further threatened. See Almuhtaseb v. Gonzales, 453
F.3d 743, 749 (6th Cir. 2006). The INA provision
implementing the Refugee Convention states that
“the Attorney General may not remove an alien to a
country if the Attorney General decides that the
alien’s life or freedom would be threatened in that
country because of the alien’s race, religion,
nationality, membership in a particular social group,
or political opinion.” 8 U.S.C. § 1231(b)(3)(A).8
Title 8 U.S.C. § 1231(b)(3)(A) does not apply if (i) the applicant
participated in persecution; (ii) the applicant is viewed as a
danger to the community because he committed a serious crime;
(iii) there is a reason to believe the applicant committed a
8

65a

Petitioners state that they are also entitled to
adjudication of their claims prior to removal based on
statutory and regulatory provisions implementing
the CAT. The statutory provision is the FARRA,
which states that “[i]t shall be the policy of the
United States not to expel, extradite, or otherwise
effect the involuntary return of any person to a
country in which there are substantial grounds for
believing the person would be in danger of being
subjected to torture.” Pub. L. No. 105-277, 112 Stat.
2681-822 (codified at 8 U.S.C. § 1231 note). The
CAT’s implementing regulation provides that
removal is to be withheld if the applicant establishes
that “it is more likely than not that he or she would
be tortured if removed to the proposed country of
removal.” 8 C.F.R. § 208.16(c)(2). Petitioners argue
that “statutory immigration law, having granted
individuals with final orders of removal a mandatory
right to protection from persecution and torture, also
grants them the right to file motions to reopen based
on changed country conditions and to have these
motions adjudicated prior to removal.” Pet’rs Mot. at
21.
However, the plain language of these statutes
— which is the principal guidepost for statutory
interpretation, Chapman v. Higbee Co., 319 F.3d 825,
829 (6th Cir. 2003) — does not support this
conclusion. Neither the INA nor CAT/FARRA
contains an express procedural guarantee that a
motion to reopen on the basis of INA or CAT/FARRA

serious nonpolitical crime outside the United States prior to
arrival; or (iv) if there are reasonable grounds to believe that
the applicant is a danger to the security of the United States.
See 8 U.S.C. § 1231(b)(3)(B).

66a

is to be adjudicated prior to removal.9
Petitioners instead rely on 8 U.S.C. §
1229a(c)(7), the subsection governing motions to
reopen. That subsection states that:
There is no time limit on the filing of a
motion to reopen if the basis of the
motion is to apply for relief under
sections 1158 or 1231(b)(3) of this title
and is based on changed country
conditions arising in the country of
nationality or the country to which
removal has been ordered, if such
evidence is material and was not
available and would not have been
discovered or presented at the previous
proceeding.
8 U.S.C. § 1229a(c)(7)(C)(ii); see also 8 C.F.R. §
1003.23(b)(4) (“time and numerical limitations” do
not apply to motions to reopen based on 8 U.S.C.
1231(b)(3) or the CAT claiming changed country
conditions).
According to Petitioners, the “statutory
entitlement” to adjudication prior to removal is
Amici argue that “[t]he [United Nations] Committee against
Torture has made clear that the principles of non-refoulement
set forth in Article 3 of the Convention Against Torture includes
both a substantive obligation as well as a procedural
obligation.” Am. Br. at 14 (Dkt. 80). They state that the
Committee Against Torture has taken the position that
adjudication “must occur before removal is effectuated.” Id. at
15. While amici cite to decisions by various U.N. bodies
requiring adjudication prior to removal, neither they, nor
Petitioners, have cited any American case law holding that
CAT/FARRA contains a procedural obligation.
9

67a

“clear” from the text of 8 U.S.C. § 1229a. The Court
disagrees. The statute states that there is no time
limit to file a motion to reopen; it does not state that
removal is to be automatically stayed pending
adjudication. To the contrary, the regulations
governing motions to reopen indicate that removal is
generally not stayed pending adjudication of the
motion. Title 8 C.F.R. § 1003.23(b)(1)(v) states that
“[e]xcept in cases involving in absentia orders, the
filing of a motion to reopen or a motion to reconsider
shall not stay the execution of any decision made in
the case.”
Further, 8 C.F.R. § 1003.6, the regulation
addressing stays pending a decision by the BIA,
states that removal will not be automatically stayed
pending the appeal of an immigration judge’s denial
of a motion to reopen, unless the motion was filed
based on an order of removal entered in absentia. See
8 C.F.R. §1003.6(b); see also Jusufi v. Chertoff, No.
07-15450, 2007 WL 4591760, at *3 (E.D. Mich. Dec.
28, 2007) (“Petitioner’s assertion that Congress could
not have intended to allow an alien to be removed
before all of his administrative remedies are
exhausted is belied by the fact that Congress
selectively imposed an automatic stay of removal
orders under some circumstances but declined to do
so in others.”); id. at *4 (“grant of discretionary
authority with respect to certain actions suggests
that Congress, contemplated situations just such as
this one but elected not to provide protection against
deportation in all instances”).
The above leads the Court to conclude that
there is no statutory right to adjudication of motions
to reopen prior to removal.
68a

b.

Procedural Due Process

Petitioners also contend that they have a
constitutional right not to be removed prior to
adjudication of their motions to reopen. Specifically,
Petitioners argue that the Fifth Amendment’s Due
Process Clause prohibits their removal prior to
adjudication under the circumstances present here.
In support of their claim, Petitioners list several
factors at play: “the speed of the proposed
deportation dates; the government’s insistence on
removal before Petitioners can file motions to reopen
and before those motions have been adjudicated; and
the obstacles posed by detention far from home to
obtaining and communicating with counsel.” Pet’rs
Mot. at 22. The Government argues that there is no
due process violation because Petitioners could have
filed motions to reopen at any time prior to their
arrest if they believed conditions had changed in
Iraq. Gov’t Resp. at 22. It notes that some Petitioners
did in fact file motions to reopen as early as 2011.
Finally, the Government argues that the
circumstances are not emergent in light of the
procedural protections afforded by the administrative
process.
“Procedural due process imposes constraints
on governmental decisions which deprive individuals
of ‘liberty’ or ‘property’ interests within the meaning
of the Due Process Clause of the Fifth or Fourteenth
Amendment.” Mathews v. Eldridge, 424 U.S. 319,
332 (1976). “The fundamental requirement of due
process is the opportunity to be heard ‘at a
meaningful time and in a meaningful manner.’” Id.
at 333 (quoting Armstrong v. Manzo, 380 U.S. 545,
552 (1965)).
69a

“Fifth Amendment guarantees of due process
extend to aliens in [removal] proceedings.” Vasha v.
Gonzales, 410 F.3d 863, 872 (6th Cir. 2005) (quoting
Huicochea-Gomez v. INS, 237 F.3d 696, 699 (6th Cir.
2001)). “A violation of due process occurs when ‘the
proceeding was so fundamentally unfair that the
alien was prevented from reasonably presenting his
case.’” Hassan v. Gonzales, 403 F.3d 429, 436 (6th
Cir. 2005) (quoting Ladha v. INS, 215 F.3d 889, 904
(9th Cir.2000)).
The Court agrees with the Government that
the administrative process is equipped to adjudicate
the substance of Petitioners’ motions to reopen. But
the process Congress erected can only adjudicate
claims that are actually before them. As noted above,
Petitioners’ efforts to prepare and file motions have
been stymied by their successive transfers to out-ofstate facilities, as well as by the reduced access to
counsel those facilities afford Petitioners. The Court
takes the Government at its word that these
transfers have been conducted only for operational
purposes and not with the intent to interfere with
the right to counsel. Nevertheless, the effect of these
transfers has been to severely disrupt this right.
The record contains numerous examples of the
difficulties Petitioners and their attorneys have had
preparing motions to reopen and stay removal since
their detainment. Susan Reed, the managing
attorney at the Michigan Immigrant Rights Center,
states that Petitioners’ original signatures are
required on motions to reopen and stay removal, a
requirement made more difficult by counsel’s limited
access to the detention facilities. Reed Decl. ¶ 12.
Kaur described how, after making the four-hour
drive from Detroit to the Youngstown, Ohio facility,
70a

she was twice denied an opportunity to meet with
her clients. Kaur Decl. ¶¶ 7-9. Markos has described
a fifteen-minute limit on phone calls in the Arizona
detention facility, with costs often reaching up to
twenty cents per minute. Markos Decl. ¶¶ 20-21.
Markos’ account is corroborated by William Peard,
an ACLU attorney, who notes that detainees at the
Arizona facility are only afforded free phone access to
two local legal service providers who are not
equipped to handle the large number of Petitioners
in need. Peard Decl. ¶ 9. Importantly, detainees are
not given free phone access to private attorneys
offering pro bono services, nor are they given free
access to attorneys who are located in the states in
which their final orders of removal were issued. Id. ¶
10.
These difficulties have prevented Petitioners
from availing themselves of the administrative
system’s procedural protections.10 For those who
have been able to file motions, their ability to further
litigate these motions will almost assuredly be
extinguished upon their removal to Iraq. Those who
are tortured or killed will obviously not be able to
argue their motions; even those who are able to
evade this treatment will likely be focused on their
safety, rather than devoting the requisite attention
to their legal proceeding.
To the extent the Government argues that
Petitioners should have filed motions to reopen prior
to their detainment, the Court has already noted
While the Government has submitted declarations describing
generally the efforts the detention facilities undertake to
provide phone access, none of the declarations rebuts the
specific instances of interference alleged by Petitioners and the
counsel of individual class members.
10

71a

that such a filing would have been academic. See
Hamama, 2017 WL 2953050 at *12. It was not until
2014 that the changed conditions in Iraq started to
become apparent. The threat of ISIS to religious
minorities and others was not recognized by the
much of the international community until June
2014. Lattimer Decl. I ¶ 9. Further, threats posed by
other groups to certain members of the class did not
become apparent until well after. See, e.g., Heller
Decl. ¶ 20 (2016 State Department report noted the
extent to which members of the PMF were
retaliating against Sunni civilians).
Even when the threat was realized, Iraq’s
continued resistance to repatriation, combined with
the prohibitive cost of preparing motions to reopen,
made filing motions impractical. The Government’s
declarations indicate that, prior to the March 2017
agreement, Iraq would only accept repatriation for
those individuals with unexpired passports. Schultz
Decl. ¶ 6. The country was unwilling to issue travel
documents or accept charter flights, two measures
that made carrying out removals exceedingly difficult
for the Government. Id. This difficulty was well
known to Petitioners, the majority of whom had been
living in their communities subject to final orders of
removal for a decade or more with little expectation
that they would be removed in light of Iraq’s refusal
to accommodate repatriation. See Kitaba-Gaviglio
Decl. ¶ 8. One of the named Petitioners, Jihan Asker,
had been living in her community subject to a final
order of removal since 1986. Am. Hab. Pet. ¶ 20.
Until notified otherwise, Petitioners had little reason
to suspect that the effort and cost of preparing a
motion to reopen — up to $80,000 in a case of this
nature — was necessary, given that they had been
72a

living peaceably for long periods of time under
limited supervision. See Reed Decl. ¶ 10.
The Government notes that two of the
Petitioners, Barash and Al-Dilaimi, filed motions to
reopen prior to detainment, in 2011 and 2012,
respectively. See Sidhu Decl., Ex. F. to Gov’t Resp., ¶
10 (Dkt. 73-7); Crowley Decl., Ex. C to Gov’t Resp., ¶
8 (73-4). These two exceptions prove the rule:
hundreds of others reasonably assumed that such an
undertaking was not required until they were
informed of Iraq’s change in policy. Now that
Petitioners are on notice that filing motions is
necessary, due process concerns would require that
they be given a fair opportunity to present their
cases.
The Government argues that even if there has
been a due process violation, this Court cannot
assess the prejudice inflicted upon each Petitioner,
given the individualized nature of their claims. See
Graham v. Mukasey, 519 F.3d 546, 549-550 (6th Cir.
2008) (“[T]o establish the requisite prejudice, [the
alien] must show that the due process violations led
to a substantially different outcome from that which
would have occurred in the absence of those
violations.”).
But what the Government ignores is that the
record contains compelling evidence that many
Petitioners would be significantly impeded from
filing motions to reopen. This is supported by
abundant evidence concerning (i) the large number of
Iraqis simultaneously affected by this sudden change
in policy; (ii) the intense time and logistic pressures
placed on the immigration bar in preparing
necessary filings; (iii) the interference with attorney73a

client communications as detainees are shuttled
around the country; (iv) the significant cost of the
legal work and; (v) the difficulty that Petitioners
would face trying to present their claims from foreign
soil if they were removed prior to adjudication.
Therefore,
this record,
as a
whole,
demonstrates significant prejudice. The due process
violation at issue here — impeded access to the
administrative system — is far different than due
process challenge brought by way of a run-of-the-mill
petition for review in the courts of appeals. The
typical due process challenge is whether a decision
by the immigration court rendered the proceeding
fundamentally unfair. See, e.g. Vasha, 410 F.3d at
872. In such a case, the concept of prejudice is of a
specific and individualized nature. Here, Petitioners
are arguing that their due process rights will be
violated by extraordinary circumstances impacting
their ability to get into a system of adjudication at a
meaningful time for the protection of their rights.
Prejudice is the denial or impeded access itself,
rather than the loss of a particular outcome. As a
result, Petitioners need not make a more specific
showing of prejudice from a particular ruling that
impacted the substantive outcome of their case.
Given the compelling evidence that Petitioners
have presented regarding the probable deprivation of
a meaningful opportunity to present their INA and
CAT/FARRA claims to the immigration courts and
courts of appeals, they have shown a likelihood of
success on their due process claim.
c.

Habeas

The same concerns that inform traditional
notions of due process support the view, previously
74a

expressed by the Court, that the right of habeas
corpus would be significantly compromised without
according pre-removal adjudication. And what the
Court has said regarding habeas rights in its earlier
pronouncements on jurisdiction is applicable in the
context of the merits.
In finding a Suspension Clause violation here,
the Court has held that the extraordinary
circumstances of this case — the longstanding
unenforced removal orders, the detention far from
home followed by successive transfers, and limited
access to counsel — undermined the alternative to
habeas set forth in the REAL ID Act. Because an
injunction pending adjudication of the motions and
the filing of petitions for review in the courts of
appeals would allow for the requisite judicial review,
its issuance is necessary to vindicate Petitioners’
habeas rights.11
2.

Irreparable Harm, Potential
Injuries to Others, and the Public
Interest

The “irreparable injury” factor requires that
any harm to the plaintiff be “actual and imminent.”
Abney v. Amgen, Inc., 443 F.3d 540, 552 (6th Cir.
The Government’s contention that the difficulties faced by
Petitioners are common to all litigants is without merit.
Contrary to the Government’s unsubstantiated assertion,
everyday litigants are not forced to prepare motions while being
transferred to successive detention facilities with limited access
to counsel and their families. Further, litigants are not
normally faced with the compressed time frame involved here.
Nor are typical litigants forced to conduct their legal battle from
foreign shores, on the run from hostile forces seeking to kill,
torture, or otherwise persecute them.
11

75a

2006). As stated above, Petitioners have provided the
Court with ample evidence of the risk of persecution,
torture, and death they face if removed to Iraq. Such
grievous
harm
unquestionably
establishes
irreparable harm. See Hadix v. Caruso, 492 F. Supp.
2d 743, 753 (W.D. Mich. 2007) (“The Injunction in
question is necessary to prevent irreparable harm,
including bodily injury and death.”).
While the Government notes that the Court
cannot individually assess the risk of return for each
Petitioner, there are several threats that apply to the
entire class. For instance, the record is clear that all
Petitioners will be targeted for torture or death based
solely on their association with America. Lattimer II
Decl. ¶¶ 2, 9 (noting that Petitioners will be targeted
simply because of their association with “western
interests”). Further, the perpetrators will not be
limited to just ISIS, whose fortunes and influence
may wax and wane with time. The record
demonstrates that other Sunni groups, Shi’a militias
backed by Iran, as well as Iraq’s own internal
security forces, harbor prejudice towards those
affiliated with America, which will manifest itself in
the form of torture and extrajudicial killings. Id. ¶ 9;
Smith Decl. ¶¶ 1-2.
All Petitioners are also at risk due to the
media coverage of their criminal records. Smith Decl.
¶ 5. And it appears that most Petitioners are
religious minorities who will face persecution at the
hands of ISIS, other sectarian militias, or Iraq’s own
forces. This harm is also imminent, as the
Government’s own declaration indicates that a
charter flight was scheduled to depart prior to this
Court’s stay of removal. Schultz Decl. ¶ 8.
76a

The Government also argues that Petitioners
cannot establish irreparable harm because they will
not be removed to ISIS-controlled territory. This
assurance likely provides little solace to Petitioners.
As an initial matter, the Government does not
establish how it can ensure that each Petitioner will
avoid ISIS territory once removed to Iraq. While it
states that Petitioners will be flown into Baghdad, a
city not controlled by ISIS, it does not discuss where
Petitioners are supposed to go from there. See Id. ¶ 6.
Further, the uncertainty created by the ever-shifting
fortunes of war means that areas that are not
currently under ISIS control could very well be
captured by that group after Petitioners are removed.
Finally, as stated above, the threat to Petitioners is
not limited to ISIS. Their status as members of
religious minorities and affiliation with America puts
them at risk from a variety of Sunni and Shi’a
militias. See Lattimer II Decl. ¶ 9.
This grievous harm must be weighed against
the harm to the Government and the public interest.
See Nken v. Holder, 556 U.S. 418, 435 (2009) (“Once
an applicant satisfies the first two factors, the
traditional stay inquiry calls for assessing the harm
to the opposing party and weighing the public
interest. These factors merge when the Government
is the opposing party.”). The Government argues that
its interest in the prompt, efficient removal
outweighs
Petitioners’
“speculative,
non-yetsubstantiated” claims of irreparable harm. Gov’t
Resp. at 30. The Court disagrees.
Petitioners’ claims are far from speculative.
Each Petitioner faces the risk of torture or death on
the basis of residence in America and publicized
criminal records; many will also face persecution as a
77a

result of a particular religious affiliation. While cost
and efficiency in administering the immigration
system are not illegitimate governmental concerns,
such interests pale to the point of evaporation when
weighed against the potential lethal harm
Petitioners may suffer. A relatively brief delay in the
removal process to assure that Petitioners have a
meaningful opportunity to invoke the process
Congress established is a small price to pay in
service to the public interest in fundamental
fairness.12
The above factors mandate issuance of a
preliminary injunction.13
Regarding its ability to conduct efficient removals, the
Government expresses concern that an injunction “has the
potential to create duplicative review paths in thousands of
cases.” Gov’t Resp. at 29. This concern is puzzling given that
this Court’s ruling is meant to foster review exclusively in the
immigration courts and the courts of appeals. Only those courts
will conduct a substantive review of Petitioners’ INA and
CAT/FARRA claims. To the extent the Government is concerned
that a flood of future litigants will seek habeas relief in light of
this Court’s ruling, the Court notes that the REAL ID Act will
serve to quickly divest courts of subject-matter jurisdiction,
unless, like here, the court is presented with extraordinary facts
giving rise to a successful as-applied Suspension Clause
challenge.
12

The Court notes that its issuance of a preliminary injunction
comes prior to a decision on class certification. However, the
Sixth Circuit has held that “there is nothing improper about a
preliminary injunction preceding a ruling on class certification.”
Gooch v. Life Inv’rs Ins. Co. of Am., 672 F.3d 402, 433 (6th Cir.
2012); see also Rodriguez v. Providence Cmty. Corr., Inc., 155 F.
Supp. 3d 758, 767 (M.D. Tenn. 2015) (“[A] district court may, in
its discretion, award appropriate classwide injunctive relief
prior to a formal ruling on the class certification issue based
upon either a conditional certification of the class or its general
13

78a

IV.

CONCLUSION

For the foregoing reasons, the Court grants
Petitioners’ motion for a preliminary injunction (Dkt.
77). The Court orders as follows:
1. Respondents Adducci, Homan, Kelly, and any
other federal officials and personnel involved in
the removal process, as well as all acting in
concert with them, are preliminarily enjoined
from enforcing final orders of removal directed to
any and all Iraqi nationals in the United States
who had final orders of removal on June 24, 2017,
and who have been, or will be, detained for
removal by ICE, except as provided below.
2. This preliminary injunction shall be terminated
as to a particular class member upon entry by the
Court of a stipulated order to that effect in
connection with any of the following events:
a. a class member’s failure to file a motion to
reopen with the appropriate immigration
court, or, if appropriate, the BIA not later than
ninety
days
following
Respondents’
equity powers.”); Newberg on Class Actions § 4:30 (5th ed.)
(court is permitted to issue a preliminary injunction prior to
ruling on class certification). Given the grave issues at stake,
and the uniform nature of the challenged Government conduct,
the Court believes it equitable to issue a preliminary injunction
prior to class certification. Further the Government is correct
that the award of class-wide relief in habeas proceedings is a
subject of debate. See Harris v. Nelson, 394 U.S. 286, 294 n.5
(1969) (“The applicability to habeas corpus of the rules
concerning . . . class actions has engendered considerable
debate.”). However, the Government has not cited any Supreme
Court or Sixth Circuit decision prohibiting preliminary relief to
a putative class in a habeas proceeding.

79a

transmittal to the class member of the A-file
and ROP pertaining to that class member;
b. a class member’s failure to timely appeal to
the BIA a final adverse ruling from an
immigration judge;
c. a class member’s failure to timely file a
petition for review with the appropriate
United States Court of Appeals of a final
adverse ruling from the Board of Immigration
Appeals together with a motion for a stay;
d. the denial of a motion for a stay by the United
States Court of Appeals;
e. a class member’s consent that this preliminary
injunction be terminated as to that class
member.
If the parties dispute whether any of the
foregoing events has transpired, the matter
will be resolved by the Court by motion.
Termination of this preliminary injunction as
to that class member shall abide the Court’s
ruling.
3. As soon as practicable, Respondents shall
transmit to each class member that class
member’s A-file and ROP, unless that class
member advises Respondents that he or she will
seek to terminate this preliminary injunction as
to that class member.
4. Commencing on August 7, 2017, and continuing
every other Monday thereafter, Respondents shall
report to class counsel the following information:
attorney representation of individual class
members; transmittal of A-files and ROPs; status
of filing and adjudication of motions to reopen,
80a

stay, and petitions for review; detention locations,
transfers, releases from detention. The parties
may negotiate additional information that should
be supplied; agreement shall be memorialized in a
stipulated order.
5. The Court will conduct a status conference with
counsel on August 31, 2017 at 2:00 p.m. to assess
what modifications, if any, are required to this
Order, and to discuss further proceedings in this
case.14
6. This preliminary injunction shall remain in effect
unless modified by the Court.
SO ORDERED.
Dated: July 24, 2017
Detroit, Michigan

s/Mark A. Goldsmith
MARK A. GOLDSMITH
United States District Judge

Some of the specific provisions of the preliminary injunction
are based on Petitioners’ contentions in the briefing and at
argument. Specifically, the Court has adopted a modified
definition of the class to avoid any ambiguity in Petitioners’
earlier definitions, which had defined the class as including
those who had been or would be arrested “as a result of Iraq’s
recent decision to issue travel documents to facilitate U.S.
removal.” The Court agrees that the phrase is unnecessary. In
addition, reporting requirements are appropriate to monitor the
progress of class members in preparing and filing motions to
reopen and to stay.
14

81a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
USAMA J. HAMAMA, et al.,
Petitioners
vs.
REBECCA ADDUCCI,

Case No. 17-cv11910
HON. MARK A.
GOLDSMITH

Respondent.
_______________________________/
OPINION & ORDER REGARDING
JURISDICTION
This case pits the power of Congress to control
the jurisdiction of the federal courts against the
Constitution’s command that the writ of habeas
corpus must be preserved. Both sides in this clash
are right, in part. The Government is correct that
Congress meant to strip federal district courts of
jurisdiction to entertain the kind of habeas claims
that Petitioners assert here challenging their
repatriation to Iraq. But Petitioners are correct that
extraordinary circumstances exist that will likely
render their habeas claims meaningless, unless this
Court intervenes to stay their deportation while
review of their removal orders proceeds before the
immigration courts and the courts of appeals.
This Court concludes that to enforce the
Congressional mandate that district courts lack
jurisdiction — despite the compelling context of this
case — would expose Petitioners to the substantiated
risk of death, torture, or other grave persecution
82a

before their legal claims can be tested in a court.
That would effectively suspend the writ of habeas
corpus, which the Constitution prohibits.
The Supreme Court has instructed, “It must
never be forgotten that the writ of habeas corpus is
the precious safeguard of personal liberty and there
is no higher duty than to maintain it unimpaired.”
Bowen v. Johnston, 306 U.S. 19, 26 (1939). And
under the law, the federal district courts are
generally the “first responders” when rights
guaranteed by the Constitution require protection. In
fulfillment of that mission, this Court concludes that
it has jurisdiction in this case to preserve the
fundamental right of habeas corpus and the duty to
do so.
I.
A.

BACKGROUND

Procedural History

On June 11, 2017, agents from United States
Immigration and Customs Enforcement (“ICE”)
began arresting Iraqi nationals as part of ICE’s
efforts to execute longstanding orders of removal.
Am. Hab. Pet. ¶¶ 2, 5 (Dkt. 35). The vast majority of
arrests that have taken place so far have occurred
within
metropolitan
Detroit;
this
includes
approximately 114 Detroit-based Iraqi nationals who
have been arrested and transferred to federal
facilities in Michigan, Ohio, Louisiana, and Arizona,
where they await removal to Iraq. Id. ¶¶ 5, 8.
Outside of Detroit, approximately 85 Iraqi nationals
have been arrested and detained, including
individuals from Tennessee, New Mexico, and
California. Id. ¶¶ 5, 6. Those individuals have since
been transferred to facilities in Alabama, Louisiana,
83a

Tennessee, and Texas. Id. ¶ 8. According to
Petitioners, there are more than 1,400 Iraqi
nationals across the country subject to final orders of
removal whom the Government seeks to remove. Id.
¶ 7.
Most of the Iraqi nationals facing removal
have been subject to final orders of removal for many
years, resulting from criminal convictions and
overstaying visas. Id. ¶ 2. However, the Government
was unable to execute these removal orders due to
Iraq’s longstanding policy not to issue the requisite
travel documents for repatriation. Id. ¶ 42. It was not
until the United States agreed to remove Iraq from
the list of countries set forth in Executive Order
13780, issued March 6, 2017, that Iraq agreed to
issue travel documents. Id. ¶ 43.
The current operative pleading of Petitioners,
filed on June 24, 2017, is their amended habeas
corpus class petition and class action complaint for
declaratory, injunctive, and mandamus relief.1 In
their pleading, Petitioners state that they are eligible
for relief from removal under both the Immigration
and Nationality Act (“INA”) and the Convention
Against Torture (“CAT”) because of their status as
persecuted religious minorities and their affiliation
with the United States. Id. ¶¶ 34-39, 68-72 (citing 8
U.S.C. § 1158(b)(1)(A) (providing asylum for
refugees); 8 U.S.C. § 1231(b)(3) (restricting removal
Petitioners’ original pleading, filed on June 15, 2017, was a
habeas corpus class action petition (Dkt. 1). The petition was
substantially the same as the amended pleading, with the
principal change being that the new pleading expanded the
class from Iraqi nationals within the jurisdiction of the Detroit
ICE Field Office to all Iraqi nationals subject to the jurisdiction
of any ICE office throughout the nation.
1

84a

to country where alien’s life or freedom would be
threatened; 8 C.F.R. § 208.16(c)(2) (implementing
regulation for the CAT)).
Petitioners Hamama, Asker, Barash, Ali, and
Nissan fear removal to Iraq because their respective
faiths — Chaldean, Christian, and Catholic — make
them targets for persecution. See id. ¶¶ 19-23.
Petitioners Al-Issawi and Al-Dilaimi fear similar
persecution due to their status as Shiite Muslims. Id.
¶¶ 24-25. Petitioner Al-Saedy fears persecution due
to his status as an apostate. Id. ¶ 27. Petitioner AlSokaini fears persecution because, although he
identifies as a Muslim, he has been involved with a
Baptist congregation in New Mexico. Id. ¶ 28.
Petitioners also assert that their removal prior
to a hearing on the changed country conditions in
Iraq violates their rights under the Fifth
Amendment’s Due Process Clause. Id. ¶¶ 73- 76.
They also allege that the Government’s decision to
transfer them to multiple facilities across the country
has interfered with their statutory right to counsel
under the INA and their right to a fair hearing under
the Due Process Clause. Id. ¶¶ 77-79 (citing 8 U.S.C.
§ 1362). Petitioners bring a separate Due Process
claim based on their detention, arguing that they are
being unlawfully detained, because their detention
bears no reasonable relationship to effectuating their
removal or protecting against danger. Id. ¶¶ 80-82.
Petitioners seek a variety of relief, with the
following requests pertinent for present purposes:
G.

Enter a writ of mandamus and/or
enjoin
the
government
from
removing Plaintiffs/Petitioners to
Iraq without first providing them
85a

with an opportunity to establish
that, in light of current conditions
and the likelihood that they would
suffer persecution or torture if
removed to Iraq, they are entitled to
protection against such removal;
H.

At a minimum, enjoin the
government
from
removing
Plaintiffs/Petitioners to Iraq until
they have been given sufficient
time and access to attorneys to
enable them to file motions to
reopen their removal orders and
seek stays of removal from the
immigration court;

Id. at 36-37 (Prayer for Relief).
Petitioners filed a motion for a temporary
restraining order and/or stay (Dkt. 11), to prevent
their removal “until an appropriate process has
determined whether, in light of current conditions
and circumstances, they are entitled to mandatory
protection from removal.” Id. at 2. After the
Government opposed the motion on jurisdictional
grounds, which the Court found not susceptible to
immediate resolution, the Court issued a stay of
removal, pending resolution of the jurisdictional
issue, which stay was made applicable to the class as
then defined, i.e., all Iraqi nationals subject to
removal orders within the jurisdiction of the Detroit
ICE Field Office. See 6/22/2017 Op. & Order (Dkt.
32). After Petitioners filed their amended habeas
corpus class action petition and class action
complaint, along with a motion to expand the stay
(Dkt. 36), the Court entered an order expanding the
86a

stay to a nationwide class of Iraqi nationals subject
to final orders of removal. See 6/26/2017 Op. & Order
(Dkt. 43).2 The stay was subsequently extended until
July 24, 2017. See 7/6/2017 Op. & Order (Dkt. 61).
It is to the jurisdictional issue that the Court
now turns.
B.

Conditions in Iraq

Petitioners contend that conditions in Iraq
have changed dramatically since their orders of
removal were issued. Specifically, Petitioners allege
that the removal orders at issue “mostly predate the
significant deterioration in Iraq following the
government’s destabilization and the rise of [ISIS].”
Am. Compl. ¶ 49. This Court’s investigation of the
record bears out this claim.
Since the U.S.-led invasion of Iraq in March
2003, that country has essentially been in a
continued state of unrest. See Heller Decl., Ex. D. to
Pet. Reply, ¶ 8 (Dkt. 30-5).3 Instability traceable to
the invasion caused about two-thirds of Iraq’s
Christian community to leave the country prior to
June 2014. See “No Way Home: Iraq’s Minorities on
the Verge of Disappearance,” (hereinafter, “No Way
Home Report”) at 10.4 According to the United
The members of the putative class are encompassed within the
term “Petitioners,” unless otherwise indicated.
2

Rebecca Heller is the director and co-founder of the
International Refugee Assistance Project (“IRAP”), a project of
the Urban Justice Center, Inc. Heller Decl. ¶ 1. IRAP provides
free legal services to refugees, including those who seek escape
from persecution. Id. ¶ 4. The organization has extensive
experience providing assistance to Iraqi refugees. Id. ¶ 5.
3

No Way Home Report was published in July 2016 and is
available
at
http://minorityrights.org/wp-content/uploads/
4

87a

Nations High Commissioner for Refugees, an
estimated one million Iraqi citizens remain
internally displaced due to sectarian violence dating
from about 2006 until ISIS became heavily active in
roughly 2014. See Iraq, Internat’l Religious Freedom
Report, U.S. State Dep’t at 3 (2015), available at
https://www.state.gov/documents/organization/25647
9.pdf. The conflict with ISIS, however, caused a rate
of displacement that vastly and rapidly outpaced the
previous one, displacing an additional 3.4 million
people in less than two years, from 2014 to July
2015. Id.
Religious minorities have fled the country for
good reason. The declaration of Mark Lattimer
indicates that religious minorities in Iraq face
significant persecution at the hands of ISIS. See
Lattimer Decl., Ex. I to Pet. Mot., ¶¶ 8, 10 (Dkt. 1110); see also id. ¶ 17 (“[R]eligious minorities are at
risk of extinction in Iraq . . . .”).5 ISIS forces in Iraq
have directed Christians, in particular, to “pay a
protection tax, convert to Islam, or be killed.” Id. ¶ 9.
Christians have also been abducted and subjected to
sexual slavery, rape, and other atrocities. Id. ¶ 10.
Sectarian violence in Iraq is by no means
limited to Christian minorities. The U.S. State
Department’s website paints a bleak picture of the
country, noting that “[t]he murder rate remains high
2016/07/MRG_CFRep_Iraq_ Aug16_UPD-2.pdf. The report was
jointly authored by several human rights organizations, with
financial assistance from the European Union.
Lattimer, currently the executive director of Minority Rights
Group International, has been extensively involved in various
organizations dedicated to monitoring human rights abuses in
Iraq. Lattimer Decl. ¶ 1.
5

88a

due to . . . religious/sectarian tensions.” The current
International Religious Freedom Report, also
published by the State Department, notes that
“Yezidi, Christian, and Sunni leaders continued to
report harassment and abuses” by certain regional
governments. See Internat’l Religious Freedom
Report at 7.
Further, two of the Petitioners, Al-Issawi and
Al-Dilaimi, identify as Shiite Muslims, a religious
sect that has been targeted by ISIS. See Am. Compl.
¶¶ 24-25; see also Internat’l Religious Freedom
Report at 15 (“Coordinated [ISIS] bomb attacks
continued to target Shia markets, mosques, and
funeral processions. . . .); id. at 18 (“[ISIS] continued
to publish open threats via leaflets, social media, and
press outlets of its intent to kill Shia ‘wherever they
were
found’
on
the
basis
of
being
‘infidels.’”).
There is also evidence that Petitioners’
association with Westerners will heighten their risk
of persecution. In the wake of the U.S.-led invasion of
Iraq in 2003, Christian community leaders “were
targeted for their religious differences as well as their
perceived ties to the West, resulting in a large exodus
of Christians from the country as refugees.” No Way
Home Report at 10 (emphasis added). And the State
Department’s Iraq Travel Warning notes that “[a]ntiU.S. sectarian militias may also threaten U.S.
citizens and western companies throughout Iraq.”
See Iraq Travel Warning, U.S. Dep’t of State (June
14, 2017), available at https://travel.state.gov/
content/passports/en/alertswarnings/iraq-travelwarning.html.

89a

C.

Barriers to Asserting Claims

Petitioners assert that they have been unable
to raise these changed conditions in immigration
courts since their detainment, noting that many of
them have been detained in facilities far from their
homes. Petitioners detained in Michigan have been
transferred to Ohio, Louisiana, and Arizona;
Petitioners detained in Tennessee have been
transferred to Louisiana, Texas, Alabama, and
Arizona. See Am. Hab. Pet. ¶ 52. Some petitioners
were transferred multiple times. Id. ¶ 56. Legal help
has been “mobilized by their local communities,” id. ¶
53, and relocating Petitioners away from counsel and
the communities who help provide such legal
assistance — sometimes in rapid succession —
allegedly has deleterious effects, both for retaining
and
communicating
with
new
counsel
or
communicating with retained counsel, id. ¶ 54-55.
Even without the pressure of an immediate
removal without advance notice, preparing a motion
to reopen proceedings before the immigration courts
— the recognized route for presenting Petitioners’
arguments based on changed circumstances — is no
easy task. Attorney Russell Abrutyn describes the
process that was involved in filing a motion to reopen
for one of his clients: it involved “several months” of
obtaining files and affidavits, preparing applications
for relief, and “gathering hundreds of pages of
supporting evidence.” Abrutyn Decl., Ex. A to Pet.
Mot., ¶¶ 11, 13 (Dkt. 11-2). Abrutyn personally spoke
with family members of various Petitioners, who
related that they are unable to even begin to prepare
similar motions because they lack copies of relevant
documents and, because of detention, the Petitioners
cannot obtain representation by counsel. Id. ¶ 12, 13;
90a

see also Barash Decl., Ex. H to Pet. Mot., ¶¶ 7-9
(daughter of Petitioner stating that Petitioner’s
detention prevents her from locating immigration
documents and putting him in touch with counsel)
(Dkt. 11-9). Some of the relevant documents may
take weeks to obtain, even in the normal course. See
Youkhana Decl., Ex. B to Pet. Mot., ¶ 16 (Dkt. 11-3).
Even those petitioners who have counsel cannot
communicate with counsel or otherwise develop their
motions. See Id. ¶¶ 9-12 (describing the difficulties of
retained and volunteer counsel in meeting with
Petitioners due to relocation in order to file motions
to reopen); Jajonie-Daman Decl., Ex. F to Pet. Mot.,
¶¶ 7- 8 (stating it is “nearly impossible” for her to
meet with her Petitioner-clients “because they were
all transferred to Youngstown, Ohio approximately 4
hours away . . . .”) (Dkt. 11-7).
Preparing motions to reopen and motions to
stay removal is also costly. It requires “a high level of
immigration law knowledge and experience,” which
costs clients somewhere between $5,000 and $10,000.
See Reed Decl., Ex. B. to Pet. Reply, ¶¶ 7, 10 (Dkt.
30-3). This amount does not include fees of $10,000 to
$30,000 that arise if the motion is granted and the
case proceeds to a merits hearing on the underlying
form of relief sought. Id. ¶ 10. In a case of this
nature, costs can reach up to $80,000. Id.
III.

ANALYSIS

Although Petitioners’ request for injunctive
relief, as set out in the amended petition, may be
broad-based and in need of greater definition, they
appear to be asking currently that this Court enjoin
their removal until their claims can be adjudicated
by the immigration courts and, if necessary, the
91a

courts of appeals. 6/21/2017 Hr’g Tr. at 14 (Dkt. 31).
It is that request that must be examined under a
jurisdictional lens.
Jurisdiction is a threshold issue, because it is
the source of a court’s legitimate power; without it, a
court is off the constitutionally sanctioned power
grid. “Without jurisdiction the court cannot proceed
at all in any cause. Jurisdiction is power to declare
the law, and when it ceases to exist, the only function
remaining to the court is that of announcing the fact
and dismissing the cause.” Steel Co. v. Citizens for a
Better Env’t, 523 U.S. 83, 94 (1998) (quoting Ex parte
McCardle, 7 Wall. 506, 514 (1868)).
Petitioners invoke both general and specific
grants of jurisdiction to federal district courts,
including 28 U.S.C. § 2241 (habeas); 28 U.S.C. § 1331
(federal question); 28 U.S.C. § 1361 (mandamus).
However, the Government contends that the REAL
ID Act, codified at 8 U.S.C. § 1252, divests this Court
of jurisdiction. Petitioners argue that the act is
inapplicable, but in the event the Court disagrees,
they contend that the act violates the Constitution’s
Suspension Clause as applied, because it suspends
their right to habeas corpus without providing an
adequate and effective alternative. The Court holds
that Petitioners’ claims regarding removal are
excluded from this Court’s jurisdiction by the REAL
ID Act. But the Court further holds that the act is
unconstitutional as applied to Petitioners in the
extraordinary circumstances of this case.
A.

REAL ID Act

To put the present jurisdictional question in
proper perspective, a review of the history of court
involvement with deportation proceedings is
92a

required, starting with the 1996 enactment of the
Illegal Immigration Reform and Immigrant
Responsibility Act (“IIRIRA”), 110 Stat. 3009- 546.
That act significantly restricted judicial review of
deportation proceedings via 8 U.S.C. § 1252(g),
whose language remains similar in important
respects to the present language of the statute. As
enacted, it read:
Except as provided in this section and
notwithstanding any other provision of
law, no court shall have jurisdiction to
hear any cause or claim by or on behalf
of any alien arising from the decision or
action by the Attorney General to
commence
proceedings,
adjudicate
cases, or execute removal orders against
any alien under this Act.
That provision could be read as a broad
jurisdiction-stripping enactment, depriving courts of
judicial review powers in all deportation matters,
unless § 1252 otherwise provides for such review.
But this “zipper” clause approach was rejected in the
seminal case of Reno v. American Arab AntiDiscrimination Committee, 525 U.S. 471 (1999),
where the Supreme Court held that the provision’s
reach is “much narrower.” Id. at 482. The limitations
on judicial review of an Attorney General’s decision
or action to “commence proceedings, adjudicate cases,
or execute removal orders” only barred district courts
from reviewing those three categories; the statute did
not protect all deportation decisions from districtcourt review. Id. As support for its reading that the
language was not intended to cover the waterfront of
all deportation decisions, the Court claimed that
there was good reason for Congress to focus on these
93a

three areas: “At each stage, the Executive has
discretion to abandon the endeavor, and at the time
IIRIRA was enacted the INS had been engaging in a
regular practice (which had come to be known as
‘deferred action’) of exercising that discretion for
humanitarian reasons or simply for its own
convenience.” Id. at 484. Because litigation had
proliferated against the Attorney General, Congress
stepped in, via § 1252(g), “to give some measure of
protection to ‘no deferred action’ decisions and
similar discretionary determinations[.]” Id. at 485.
In 2005, the REAL ID Act was signed into law.
The act, among other things, amended 8 U.S.C. §
1252, by adding language that expressly stated that
habeas jurisdiction was withdrawn for any claims
excluded by § 1252(g). The amended language —
which is the current language at issue in our case —
states:
Except as provided in this section and
notwithstanding any other provision of
law
(statutory
or
nonstatutory),
including section 2241 of Title 28, or any
other habeas corpus provision, and
sections 1361 and 1651 of such title, no
court shall have jurisdiction to hear any
cause or claim by or on behalf of any
alien arising from the decision or action
by the Attorney General to commence
proceedings,
adjudicate
cases,
or
execute removal orders against any
alien under this chapter.
8 U.S.C. § 1252(g) (amendment emphasized). The act
also clarified that the “sole and exclusive means for
judicial review of an order of removal” shall be a
94a

petition for review filed in the court of appeals. 8
U.S.C. § 1252(a)(5); see also Elgharib v. Napolitano,
600 F.3d 597, 600 (6th Cir. 2010) (“In the REAL ID
Act, Congress sought to channel judicial review of an
alien’s claims related to his or her final order of
removal through a petition for review at the court of
appeals.”).
Based on the current language of the statute,
the Government argues that Petitioners’ claims are
beyond the jurisdiction of this district court. It
asserts that what Petitioners seek — a restraint on
enforcement of removal orders — is captured by the
exclusion of any “claim by . . . any alien arising from
the decision or action by the Attorney General to . . .
execute removal orders against any alien[.]”
Petitioners’ sole recourse, according to the
Government, is for Petitioners to seek relief in the
form of a motion to reopen proceedings with the
immigration courts and judicial review in the
appropriate court of appeals. Gov. Resp. at 1 (Dkt.
17).
Petitioners respond by arguing that § 1252(g)
does not preclude judicial review of all actions by the
Attorney General coming within the three headings
of commencing proceedings, adjudicating cases, or
enforcing removal orders. Rather, only discretionary
decisions within those types of matters are excluded
from a district court’s jurisdiction. They argue that
because the Attorney General has no discretion to
remove them in violation of the CAT and the INA,
his decision to do so is reviewable by this Court. In
support of this argument, Petitioners rely on Reno
and its many references to the fact that § 1252(g)
was designed to protect discretionary decisions of the
Attorney General. See, e.g., Reno, 525 U.S. at 485 n.9
95a

(Section 1252(g) “was directed against a particular
evil: attempts to impose judicial constraints upon
prosecutorial discretion.”).
The problems with Petitioners’ theory are
manifold, starting with Reno. It is true that Reno
notes that § 1252(g) was designed to protect certain
discretionary decisions. But the opinion did not say
that only discretionary decisions were protected. In
fact, the allegation in Reno was that the Attorney
General had violated the First Amendment by
supposedly seeking to deport the petitioner because
he was a member of a politically unpopular
organization. That raised a nondiscretionary issue —
a claimed constitutional violation — much like the
CAT and the INA violations Petitioners allege in the
instant case. Nonetheless, the Supreme Court held
that the district court lacked jurisdiction to consider
the claim because the challenge was to the Attorney
General’s decision to “commence proceedings” — a
challenge that “falls squarely within [§] 1252(g) —
indeed . . . the language seems to have been crafted
with such a challenge precisely in mind[.]” Id. at 487.
Other courts have rejected the view that Reno
viewed § 1252(g) as excluding jurisdiction for claims
only when they are based on discretionary decisions.
In Foster v. Townsley, 243 F.3d 210 (5th Cir. 2001),
the court affirmed dismissal for lack of jurisdiction
where the plaintiff claimed his deportation would
violate non-discretionary regulations requiring that
his deportation be stayed. In rejecting the argument
that Reno interpreted § 1252(g) to exclude
jurisdiction only for claims based on discretionary
decisions, the court held that neither the Reno
opinion nor the statutory language would support
such a distinction:
96a

Foster
asserts
that
[Reno’s]
interpretation of the statute requires
that judicial review be precluded only
when the Attorney General makes
discretionary decisions. We disagree.
Although the Court emphasized the
importance of preserving the Attorney
General’s discretionary functions in the
three enumerated categories, it did not
explicitly state that the provision
applies only to review of discretionary
decisions by the Attorney General in
these areas and not to review of nondiscretionary decisions . . . . The Court
does not . . . state that the provision
exclusively
governs
review
of
discretionary actions. Indeed, there is
no discussion of review over nondiscretionary actions. The provision
itself does not distinguish between
discretionary and non-discretionary
decisions. Rather, the statute refers to
“any cause or claim” that “arises from
the decision or action by the Attorney
General” in the three areas. 8 U.S.C. §
1252(g). Therefore, while it may be true
that the officials executed the order
despite the regulation’s requirement of
an automatic stay of his deportation,
this distinction is not critical because a
plain
reading
of
the
statute
demonstrates that Congress did not
exclude non-discretionary decisions
from this provision limiting judicial
review.
97a

Id. at 214 (emphasis in original); see also Lopez Silva
v. United States, 2016 WL 953233, No. 14- 5084 (D.
Minn. 2016) (dismissing for lack of jurisdiction
claims based on deportation in violation of
mandatory, rather than discretionary, stay of
removal order, because “Reno is silent with regard to
an explicit substantive or procedural distinction
between mandatory and discretionary decisions”).
Petitioners’ discretion-only theory fares no
better under the Sixth Circuit authority they invoke.
In Mustata v. U.S. Department of Justice, 179 F.3d
1017 (6th Cir. 1999), the court affirmed jurisdiction
to hear a habeas petition because the petitioner’s
attorney in the immigration court had been entirely
ineffective by failing to investigate grounds for
asylum and failing to present any evidence during a
hearing. The court noted Reno’s point that § 1252(g)
was directed toward limiting judicial constraints on
executive discretion, and that the petitioners were
not claiming that the Attorney General should grant
them discretionary, deferred-action type relief. But
the court’s statements on discretion were dicta: the
nub of the decision is that the facts relevant to their
claim took place well before any decision by the
Attorney General, and the Attorney General’s
decision was “immaterial to the substance of this
claim.” Id. at 1023. In fact, the habeas claim had
nothing to do with any action by the Attorney
General, because it was based entirely on the
inadequate performance by the petitioner’s attorney.
As such, Mustata is a vastly different case from ours,
in which Petitioners’ claims are premised on the
Attorney General’s decision to proceed with
enforcement of removal orders, based on his legal

98a

conclusions about the application of the CAT and
INA provisions.
Petitioners’ discretion-only theory — and their
reading of Mustata – is contradicted by recent Sixth
Circuit authority. In Elgharib, the petitioner filed an
action in a district court, seeking to challenge her
removal order, which she claimed had been entered
without notice to her, in violation of the Due Process
Clause. The court concluded that § 1252(g) deprived
the district court of jurisdiction over the
constitutional claim. Elgharib, 600 F.3d at 605
(“Congress acted within its constitutional powers to
limit judicial review of constitutional questions under
Section 1252, and we conclude that Section
1252(a)(5) & (g) both preclude district-court
jurisdiction over constitutional challenges to final
orders of removal.”). Importantly, the court made no
mention of discretion as part of its analysis (although
it did note, in passing, that discretion was referenced
in Reno); nor did it even mention Mustata,
suggesting that it did not view that case as an
arguably analogous one that needed to be
distinguished. Elgharib’s dismissal of constitutional
claims is a sobering rebuke of Petitioners’ theory,
given that constitutional claims are, by their nature,
nondiscretionary claims. If the Sixth Circuit had
adopted Petitioners’ discretion-only theory, it would
have entertained the constitutional claims.6
Elgharib’s sweeping conclusion that §1252(g) bars

Other courts have recognized that § 1252(g) prohibits
constitutional challenges to orders of removal in district court.
See, e.g., Ajlani v. Chertoff, 545 F.3d 229, 235 (2d Cir. 2008)
(holding that district court did not have jurisdiction to review
constitutional challenge to order of removal).
6

99a

jurisdiction for constitutional
Petitioners’ theory.7

claims

dooms

Petitioners’ alternative approach is that their
claim is not based on a decision of the Attorney
General to enforce a removal order. This argument is
premised on the notion that the grounds giving rise
to their CAT or INA arguments did not manifest
until long after the removal orders issued. Pet. Reply
at 2 (Dkt. 30).
However, if Petitioners are not challenging
enforcement of a removal order, it is difficult to
understand what they are challenging. To be sure,
they ground their challenge upon circumstances that
have transpired following issuance of the removal
orders. But that does not change the fact that what
they challenge is the Attorney General’s current
decision to enforce orders to remove them, and his
rejection of their arguments based on new
circumstances. Regardless of whether they could
have asserted these grounds before the orders were
Petitioners’ theory has support in other circuits. See, e.g.,
Jama v. INS, 329 F.3d 630, 632 (8th Cir. 2003) (holding that §
1252(g) did not deprive district court of jurisdiction, because
court was not required to “second-guess the Attorney General’s
exercise of his discretion; it is to address a purely legal question
of statutory construction.”); Madu v. U.S. Atty. Gen., 470 F.3d
1362, 1368 (11th Cir. 2006) (“While [§ 1252(g)] bars courts from
reviewing certain exercises of discretion by the attorney
general, it does not proscribe substantive review of the
underlying legal bases for those discretionary decisions and
actions.”); Chmakov v. Blackman, 266 F.3d 210, 215 (3d Cir.
2001) (“[Section 1252(g)] limits the power of federal courts to
review the discretionary decisions of the Attorney General to
commence proceedings, adjudicate cases, or execute removal
orders.”). Unfortunately for Petitioners, the Sixth Circuit in
Elgharib indicated its rejection of the discretiononly approach.
7

100a

issued, they assert them now to challenge the
Attorney
General’s
decision
and
foreclose
enforcement of the orders. It is simply not reasonable
to characterize Petitioners’ claim as not being one
“arising from the decision or action by the Attorney
General to execute removal orders.”8
Any attempt to characterize Petitioners’ efforts
to avoid enforcement of an order as something other
than a challenge to enforcement of an order not only
runs counter to a natural reading of § 1252(g), but
also to the Sixth Circuit’s straightforward view
expressed in Elgharib. There, the court made clear
that § 1252(g) divested the district court of subjectmatter jurisdiction, despite the petitioner’s attempts
to characterize her Due Process claim as being
unrelated to her order of removal. Elgharib, 600 F.3d
at 605. The court held that the petitioner’s claim
The cases cited by Petitioners are not instructive here. In
Singh v. Gonzales, 499 F.3d 969 (9th Cir. 2007), the court was
addressing ineffective assistance committed after the removal
order had been issued, when counsel failed to file a timely
petition for review with the court of appeals. The court held
that § 1252 did not strip the district court of jurisdiction,
because the district court proceeding would not be based on a
substantive challenge to the order of removal; rather it would
focus on whether counsel had been ineffective – akin to the
challenge in Mustata. Here, by contrast, there is no challenge to
counsel’s performance or anyone else’s decision or action, other
than the Attorney General’s decision to remove them, allegedly
in violation of the CAT and the INA.
8

The ruling in Ilyabaev v. Kane, 847 F. Supp. 2d 1168 (D.
Ariz. 2012) is distinguishable, as well, because there the
petitioners were challenging the revocation of the petitioners’ I140 petition for a skilled worker visa, not an order of removal.
Section 1252(g) simply does not address revocation of a petition,
id. at 1174, but it does address orders of removals – the orders
at issue here.

101a

“directly target[ed]” her order of removal because she
explicitly requested that the Government be
prohibited from removing her so that she could seek
relief in an immigration court. Id. That is precisely
the posture of the present case.
Courts in this District have similarly held that
they are without jurisdiction to hear claims related to
decisions to execute removal orders, regardless of
whether the challenges might be deemed “direct” or
“indirect” challenges to the Attorney General’s
decision to remove, and even if they are brought only
to stay removal until the immigration courts can act.
See Benitez v. Dedvukaj, 656 F. Supp. 2d 725, 728
(E.D. Mich. 2009) (dismissing case and dissolving
temporary stay, because “Plaintiff cannot circumvent
the REAL ID Act’s review provisions and express
limitation of district court jurisdiction by claiming
that he is pursuing in this court a due process claim
that is somehow distinct from his removal order”); Ba
v. Holder, No. 09-14645, 2009 WL 5171793, at *2
(E.D. Mich. Dec. 24, 2009) (dismissing case and
vacating temporary stay, because Due Process claim
was not distinct from direct challenge to the
execution of the petitioner’s removal order).
Because Petitioners are bringing claims that
arise out of the Attorney General’s decision to
execute final orders of removal, 8 U.S.C. § 1252(g)
applies to divest this Court of subject-matter
jurisdiction, unless to do so would violate the
Constitution.
B.

Suspension Clause

Petitioners contend that if their claims are
barred by the REAL ID Act, the act violates the
Constitution’s Suspension Clause as applied.
102a

6/21/2017 Hr’g Tr. at 15. Petitioners argue that
because the changed conditions in Iraq arose
subsequent to the issuance of their final orders of
removal, they will be deprived of judicial review
unless some court hears their claims. In response,
the Government notes that Petitioners have the
option to file motions to reopen in the immigration
courts; in the event the motions are denied, they may
seek review in the courts of appeals. The
Government argues that, to the extent Petitioners
are now impeded in their ability to file motions to
reopen in light of their imminent removal,
Petitioners are to blame for not filing earlier.
“The Framers viewed freedom from unlawful
restraint as a fundamental precept of liberty, and
they understood the writ of habeas corpus as a vital
instrument to secure that freedom.” Boumediene v.
Bush, 553 U.S. 723, 739 (2008). However, “the
common-law writ all too often had been insufficient
to guard against the abuse of monarchial power.
That history counseled the necessity for specific
language in the Constitution to secure the writ and
ensure its place in our legal system.” Id. at 739-740.
The Suspension Clause was ultimately drafted in
order to protect against attempts to withhold habeas
relief. The Clause guarantees that “the Judiciary will
have a time-tested device, the writ, to maintain the
‘delicate balance of governance’ that is itself the
surest safeguard of liberty.” Id. at 745 (quoting
Hamdi v. Rumsfeld, 542 U.S. 507, 536 (2004)).
The Suspension Clause states that “[t]he
Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in Cases of Rebellion or
Invasion the public Safety may require it.” U.S.
Const. art. I, § 9, cl. 2. “[T]he Supreme Court has
103a

noted that this Clause requires ‘some judicial
intervention in deportation cases.’” Muka v. Baker,
559 F.3d 480, 483 (6th Cir. 2009) (quoting I.N.S. v.
St. Cyr, 533 U.S. 289, 300 (2001)). “However, the writ
of habeas corpus is not suspended in violation of this
Clause if, when the right to habeas is eliminated,
there is ‘the substitution of a new collateral remedy
which is both adequate and effective’ in allowing an
individual to challenge the legality of his or her
detention.” Id. (quoting Swain v. Pressley, 430 U.S.
372, 381 (1977)).
The court in Muka directly addressed this
issue in the context of the REAL ID Act, holding
that, “[b]ecause there is a remedy available, a
petition for review filed with the court of appeals, the
REAL ID Act does not violate the Suspension Clause
so long as a petition for review provides an ‘adequate
and effective’ mechanism for relief.” Id. at 484. The
court further noted that “every circuit to confront
this issue has agreed that, facially, the petition for
review filed in the court of appeals provides an
adequate and effective process to review final orders
of removal, and thus the elimination of habeas relief
does not violate the Suspension Clause.” Id. at 484485.
After ruling that the REAL ID Act was not
subject to a facial challenge, the court in Muka
addressed whether the petitioner had made out an
as-applied challenge. The petitioners argued that a
holding that the district court was without subjectmatter jurisdiction would leave them without a
judicial forum in which to seek a status adjustment
under 8 U.S.C. § 1255(i). In rejecting this claim, the
court noted that the petitioners “did have an avenue
to argue their § 1255(i) claim — their original
104a

removal proceedings and their petition for review.”
Id. at 485. The court held that “[s]imply because the
[petitioners] failed to make a known argument
during their prior proceedings does not mean that we
must grant them a second bite at the apple to satisfy
the Suspension Clause’s requirements.” Id. at 486.
Regarding future as-applied challenges, the court
stated, “[w]e do not say that there will never be an
alien claiming protection under § 1255(i) who could
make a successful as-applied challenge to the REAL
ID Act. However, we leave this inquiry to future
panels presented with different cases and do not
foreclose other distinct as-applied challenges.” Id.
(emphasis added).
The instant case is an as-applied challenge
markedly different than the one found wanting in
Muka. The most obvious difference is that the
petitioners in Muka had failed to assert an argument
that was available to them before their orders of
removal were entered. Petitioners here did not fail to
raise a claim in their prior administrative
proceedings. Indeed, their CAT and INA claims did
not ripen until fairly recently, sometime in or after
2014, when the persecution of religious minorities in
Iraq became far more threatening. See Heller Decl.,
Ex. D to Pet. Reply, ¶ 30 (Dkt. 30-5).
Further, unlike in Muka, the alternative to
standard habeas relief for Petitioners is plainly
inadequate and ineffective. The mechanism provided
by the REAL ID Act for judicial review of removal
orders — filing motions to reopen proceedings in
immigration courts and subsequent review in the
courts of appeals — does not take into account the
compelling
confluence
of
grave,
real-world
circumstances present in our case. This makes
105a

relegation to the immigration courts, without a stay
from this court in place, an alternative that is
neither adequate nor effective.
Without a stay in place, deportations will
begin immediately, which may mean a death
sentence for some deportees. Petitioners have
presented significant evidence — not contested by
the Government — that many will face death.
Beginning in August 2014, ISIS began carrying out
large-scale killings. Lattimer Decl. ¶ 10. Religious
minorities were particularly vulnerable to these
atrocities, with Christians being given the horrific
choice to “pay a protection tax, convert to Islam, or be
killed.” Id. ¶ 9. Obviously, deportees who are
murdered will never have the opportunity to present
their arguments that their removal orders are
prohibited by the CAT or the INA.
While death is certainly the most egregious
outcome deportees face, other persecution would also
compromise their ability to pursue their removal
challenges from foreign shores. Petitioners have
presented evidence — not contested by the
Government — that they may well face torture and
severe discrimination. ISIS routinely commits
arbitrary
executions,
torture,
and
sexual
enslavement against religious minorities and those
affiliated with the United States. Heller Decl. ¶¶ 11,
46, 55.
Deportees who must undertake evasive action
to avoid these grave challenges — changing
residences, leaving jobs — will be deprived of the
stability that is often necessary to properly pursue
legal challenges. Maintenance of legal paperwork
and communication with lawyers and potential
106a

witnesses would likely become
problematic, if not impossible.9

extraordinarily

What compounds Petitioners’ difficulties is the
great number of individuals suddenly at risk. In an
unanticipated decision to enforce removal orders, the
Government has, without notice, put some 1,444
persons at risk for deportation. This abrupt action
taxes the immigration bar’s ability to promptly
service all in need of legal protection. See Reed Decl.,
Ex. B. to Pet. Reply, ¶ 12 (Dkt. 30-3) (noting the
“relatively small size of Michigan’s immigration bar
willing to handle removal cases, and the years to
decades-long nature of most removal cases.”). It also
taxes the resources of the immigration courts to
provide prompt and appropriate decisions to all
affected. See, e.g., Mendoza-Mazariegos v. Mukasey,
509 F.3d 1074, 1084 (9th Cir. 2007) (vacating
departure order where petitioner was denied
continuance to obtain counsel and “in effect,
punished for the crowded docket of the immigration
courts”); Cui v. Mukasey, 538 F.3d 1289, 1295 (9th
The Government responds that “concerns about the ability to
adjudicate requests for relief before removal do not equate to a
denial of relief.” Gov’t Resp. to Mot. to Expand Stay at 11 (Dkt.
38) (quoting Roman v. Ashcroft, 340 F.3d 314, 327 (6th Cir.
2003) (“[W]e do not believe that the possibility of an alien’s
removal prior to the adjudication of his habeas corpus petition
amounts to an effective denial of the petitioner's opportunity to
seek meaningful habeas corpus relief.”)).
9

Crucially, Roman involved a petitioner whose ability to seek
readmission to the U.S. was not meaningfully affected by his
removal. See Roman, 340 F.3d at 327 (“[Petitioner] will not be
deprived of his opportunity to seek habeas corpus relief even if
he is removed prior to a court’s resolution of his petition.”).
Here, the deprivation of a meaningful opportunity to pursue a
habeas claim is virtually assured.

107a

Cir. 2008) (continuance improperly denied because of
“crowded docket of the immigration courts”).
The Government’s decision to move arrestees
to different locations within the country only
exacerbates this problem, as it disrupts attorneyclient communications and preparation of necessary
court papers. Preparing motions to stay and motions
to reopen requires original signatures from the
detained clients, thus necessitating in-person visits
that are often impractical in light of Petitioners’ everchanging locations. See Reed Decl. ¶ 12; see also
Youkhana Decl. ¶¶ 10, 12 (describing difficulties
faced by Michigan-based attorneys in communicating
with clients who have been transferred to Ohio);
Jajonie-Daman Decl. ¶¶ 7-8 (stating that it is “nearly
impossible” to meet with her Petitioner-clients
detained in Ohio).
It is reasonable to assume that delays in
preparing motions to reopen and stay and processing
them in the immigration courts — and further delays
in processing petitions for review in the courts of
appeals — will mean that many Petitioners will not
have their arguments heard before they are
repatriated. This, in turn, means many may face the
grave consequences of deportation — death, torture,
or other persecution — before their legal rights can
be properly adjudicated.
The Government’s response that these
difficulties are the result of Petitioners’ dereliction
unfairly ignores salient history. Although Petitioners
theoretically could have filed motions to reopen and
stay before the Government’s recent decision to
enforce orders, such action would have served no
immediately useful purpose. For many years, Iraq
108a

has refused repatriation of its nationals. The record
is unclear regarding when exactly this refusal to
accept deportees began, but it appears that
repatriation had been unavailable since as long ago
as 1986, the year in which one of the named
Petitioners, Jihan Asker, was issued a final order of
removal yet was not removed. See Am. Pet. ¶ 20.
Prior to the recent agreement with Iraq announced
in March 2017, filing a motion to challenge
enforcement of removal orders that stood no
reasonable chance of being enforced in the
foreseeable future would have been a purely
academic exercise. See also Reed Decl. ¶ 14 (“Stays of
Removal are not typically sought until removal is
imminent because they are rarely granted when
removal is not imminent.”).
And it would have been a costly exercise, at
that. Petitioners have presented evidence —
uncontested by the Government — of the steep legal
cost to prepare such motions. The cost of simply
preparing a motion to reopen or a motion to stay is
between $5,000 and $10,000. Id. ¶ 10. If the motion
is granted, the case will then proceed to a hearing on
the merits, which can cost a client an additional
$30,000. Id. When it is all said and done, a case of
this nature can cost up to $80,000. Id. Spending such
large sums to avoid a removal that seemed
impossible until March of this year would have been
unreasonable.
The totality of these facts leads to the
conclusion that casting Petitioners out of this court
without a stay — in the extraordinary context of this
case — would ignore the reality that the process for
judicial review provided for in the Real ID Act would
not be adequate or effective in protecting their
109a

habeas rights. The destructive impact would
critically compromise their ability to file and
prosecute motions to reopen — a legal right that the
Supreme Court has characterized as “an ‘important
safeguard’ intended ‘to ensure a proper and lawful
disposition’ of immigration proceedings.” Kucana v.
Holder, 558 U.S. 233, 242 (2010) (quoting Dada v.
Mukasey, 554 U.S. 1, 18 (2008)). To enforce § 1252(g)
in these circumstances would amount to a
suspension of the right to habeas corpus. The
Constitution prohibits that outcome.
Because Section 1252(g) may not be enforced,
the Court is not stripped of jurisdictional grants
found in other sources of the law, including 28 U.S.C.
§ 2241 (habeas); 28 U.S.C. § 1331 (federal question);
28 U.S.C. § 1361 (mandamus).
III.

CONCLUSION

The Court concludes that it has jurisdiction to
grant Petitioners the limited relief they request, i.e.,
an injunction against enforcement of the orders of
removal so that their habeas rights can be
meaningfully asserted and addressed before other
courts.
The next steps in this litigation remain to be
determined. As will be detailed in a separate order to
be issued, the Court will convene a status conference
with counsel on July 13, 2017 at 1:30 p.m. to discuss
those steps.
In the interim, the Court’s July 6, 2017 Order
staying the removal orders of all class members
remains in effect in accordance with its terms until
July 24, 2017, unless otherwise ordered by the Court.

110a

SO ORDERED.
Dated: July 11, 2017
Detroit, Michigan

s/Mark A. Goldsmith __
MARK A. GOLDSMITH
United States District Judge

111a

UNITED STATES DISTRICT COUT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
USAMA J. HAMAMA, et al.,
Petitioners

Case No. 17-cv11910

REBECCA ADDUCCI,

HON. MARK A.
GOLDSMITH

vs.
Respondent.
_______________________________/

OPINION & ORDER
DENYING IN PART RESPONDENTS’ MOTION
TO DISMISS (Dkt. 135), GRANTING IN PART
PETITIONERS’ MOTION FOR PRELIMINARY
INJUNCTION (Dkt. 138), AND GRANTING IN
PART PETITIONERS’ AMENDED MOTION TO
CERTIFY CLASS (Dkt. 139)
Last July, this Court put a halt to the
deportation of hundreds of aliens whom the
Executive Branch of the Federal Government had
sought to repatriate to their native Iraq. The Court
ruled that they must be given a hearing before
immigration judges on their claims that they would
face persecution, torture, and possibly death if sent
back. While that immigration court process proceeds
apace, the aliens who were arrested have now
languished in detention facilities — many for over six
months — deprived of the intimacy of their families,
the fellowship of their communities, and the
economic opportunity to provide for themselves and
112a

their loved ones. Detention may stretch into years, as
the immigration court proceedings and subsequent
appeals wind their way to a conclusion.
They now ask this Court to be allowed to
return to their productive lives by being placed on
bond, while the legal process continues, unless the
Government can show that they are unreasonable
risks of flight or danger to the community.
What they seek is consistent with the
demands of our Constitution — that no person
should be restrained in his or her liberty beyond
what is reasonably necessary to achieve a legitimate
governmental objective. Here, the Government may
fairly insist that those whose right to remain in this
country is yet to be determined must not undermine
the administration of justice by fleeing before that
determination is made, nor endanger the public
while that process unfolds. But those interests can be
served by a bond hearing process before immigration
judges, who can sort out those who endanger the
efficacy of the immigration system and public safety
from those who will not.
Our legal tradition rejects warehousing human
beings while their legal rights are being determined,
without an opportunity to persuade a judge that the
norm of monitored freedom should be followed. This
principle is familiar to all in the context of the
criminal law, where even a heinous criminal —
whether a citizen or not — enjoys the right to seek
pre-trial release. In the civil context of our case, this
principle applies with at least equal force. In either
context, the principle illustrates our Nation’s historic
commitment to individual human dignity — a core
value that the Constitution protects by preserving
113a

liberty through the due process of law.
As explained below, the Court will grant relief
by establishing a process of individual bond hearings
for all detainees entitled to them.
I.

BACKGROUND

This matter is before the Court on the motion
to dismiss (Dkt. 135) filed by Respondents (“the
Government”), Petitioners’ motion for preliminary
injunction (Dkt. 138), and Petitioners’ amended
motion to certify class (Dkt. 139). The issues have
been fully briefed and a hearing was held on
December 20, 2017. For the reasons stated below, the
Court denies in part the Government’s motion to
dismiss, grants in part Petitioners’ motion for
preliminary injunction, and grants in part
Petitioners’ amended motion to certify class.
As recited in the Court’s prior opinions, this
case arises out of the arrest and detention of Iraqi
nationals who are or were subject to long-standing
final orders of removal. See, e.g., Hamama v.
Adducci, 261 F. Supp. 3d 820 (E.D. Mich. 2017). In
June 2017, agents from Immigration and Customs
Enforcement (“ICE”), a division of the Department of
Homeland Security (“DHS”), began arresting
hundreds of these Iraqi nationals, the majority of
whom are Chaldean Christians who would face
persecution, torture, and possibly death if returned
to Iraq. The initial round-up took place in Michigan,
snaring approximately 114 individuals. Am. Compl.
¶ 5 (Dkt. 118). The number has since swelled to over
300, many of whom are still in Michigan detention
facilities, with others scattered to various detention
facilities throughout the country. Id. ¶¶ 5, 12.
114a

The vast majority of these individuals were
ordered removed to Iraq years ago (some decades
ago), because of criminal offenses they committed
while in the United States. There is only spotty
information in the record regarding the nature of the
detainees’ offenses. The offenses of the named
Petitioners range from relatively minor drug
possession convictions to more serious matters, such
as felonious assault and arson; one has no conviction
at all. Id. ¶¶ 22- 36.1 Although the Government

Below is information taken from the amended complaint
regarding the convictions of the named Petitioners:
1

Named
Petitioner

Usama
Hamama

Offense(s)
Felonious
assault;
possession of a
firearm;
misdemeanor
related to the
possession of a
firearm in a
vehicle

Year of
Conviction
1988

Two years’
imprisonment;
half served in
custody, half
supervised
release
2000

Ali AlDilaimi

Assault

Sami AlIssawi
Qassim AlSaedy

Aggravated
assault
Domestic
assault

Abbas AlSokaini

Two drug
offenses

Sentence

1998
2002
Unknown

115a

One year
imprisonment;
served five
months
360 days’
imprisonment
Unknown
No
incarceration,
placed on
supervision

Atheer Ali

Jihan
Asker
Moayad
Barash

Breaking and
entering;
receipt or
concealment of
stolen property;
drug possession

Misdemeanor
fraud
Drug charge
and possession
of a weapon
Arson

1996
(breaking and
entering;
receipt and
concealment
of stolen
property)
Drug
possession
convictions
entered “more
recently”
2003
“While still a
teenager”
1994

Jami
Derywosh

Anwar
Hamad
Jony
Jarjiss
Mukhlis
Murad
Habil
Nissan

Misdemeanor
drug crime;
felony drug
crime
Never been
convicted of a
crime
Drug possession
with intent to
deliver
Misdemeanor
destruction of
property; two
misdemeanor
assault charges

2013
(misdemeano
r)
2014 (felony)
N/A

No
incarceration,
spent a month
in a bootcamp

Six months’
probation
Incarcerated,
unclear for
how long
Seven years’
imprisonment;
served
approximately
half
Unknown

N/A
“Over two
decades ago”

Unknown

2005

116a

Twelve
months’
probation

presumably knows the criminal history of all the
putative class members, it has not placed that
information in the record. What is known is that all
detainees served their sentences and were released
long ago, under orders of supervision because Iraq
refused to accept repatriation. According to
Petitioners, they lived peaceably in their respective
communities under the orders of supervision — a
point the Government does not contest.
While the detainees were scheduled for
imminent removal following their arrests, this Court
enjoined their removal in a July 24, 2017 ruling. See
Hamama, 261 F. Supp. 3d at 841- 842. In its ruling,
the Court held that while the REAL ID Act, 8 U.S.C.
§ 1252, prohibits habeas actions that arise out of the
Attorney General’s decision to execute orders of
removal, the act was unconstitutional, as applied,
because it suspended Petitioners’ habeas rights.
While the REAL ID Act provides an alternative to
habeas actions (an administrative challenge in
immigration courts, followed by a petition for review
in the courts of appeals), the Court held that the
circumstances of this case effectively foreclosed
access to this alternative prior to removal.

Adel
Shaba

Kamiran
Taymour

Delivery and
manufacture of
less than fifty
grams of a
controlled
substance
Three
marijuanarelated offenses

1987

Unknown

1998; 2006;
2011

Unknown

117a

Having concluded that the Court had
jurisdiction to rule on Petitioners’ habeas claims, the
Court determined that Petitioners were entitled to a
preliminary injunction enjoining their removal until
they had a meaningful opportunity to challenge the
continued validity of their orders of removal — under
the Convention Against Torture, as implemented by
8 C.F.R. § 208.18 and other authorities — in
immigration courts and, if necessary, the courts of
appeals.
Since this case began, 164 of the putative class
members have filed motions to reopen. See Schlanger
Decl., Ex. 1 to Pet. Mot., ¶ 14 (Dkt. 138-2). Of these
164 motions, seventy-four have been granted, eleven
have been finally denied, and seventy-nine are
pending. Id. ¶ 21. Approximately ten of the seventyfour grantees have had their cases adjudicated to the
merits, with each one resulting in grants of relief or
protection. Id. ¶¶ 22-23. Since the Court’s
preliminary injunction was entered, roughly ninetyone percent of the motions to reopen have been
granted in the Detroit immigration court. Id. ¶ 17.
While these motions are being adjudicated,
most of those arrested are still incarcerated. The
most recent estimates have the number of detainees
at 274, with the vast majority having spent six
months or more in custody. Schlanger Decl. II, Ex. 34
to Pet. Reply, ¶ 26 (Dkt. 174-3). Some are held under
8 U.S.C. § 1231, which authorizes detention for those
with orders of removal in place, and provides for
release under certain circumstances. Others are held
under 8 U.S.C. § 1226(c), a statute that purports to
mandate detention when there is no order of removal
in place for certain detainees, including those with
certain criminal histories. The detainees held under
118a

this subsection previously had final orders of
removal; these orders were vacated when their
motions to reopen were granted. A smaller subset,
estimated to be six or seven individuals, are being
held pursuant to 8 U.S.C. § 1226(a) (authorizing
detention before entry of a removal order) or 8 U.S.C.
§ 1225(b) (authorizing detention for those interdicted
at the border). Id. ¶ 8.
Based on due process principles and the
Immigration and Nationality Act, 8 U.S.C. § 1101, et
seq., Petitioners now seek relief from detention under
a number of theories, as set forth in their motion for
preliminary injunction.
Petitioners first argue that they are entitled to
release pursuant to Zadvydas v. Davis, 533 U.S. 678
(2001), a seminal decision requiring, except in
extraordinary circumstances, release of detainees
when there is no reasonable likelihood of removal in
the reasonably foreseeable future. Pet. Br. at 19.
Petitioners argue that there is no significant
likelihood of removal in the reasonably foreseeable
future in our case, because there is no definitive
agreement that Iraq will accept repatriation, and
because there is no foreseeable end to their removal
proceedings. Id. at 19, 22.
In response, the Government submits
declarations from ICE officials stating that Iraq has
agreed to cooperate in the removal of the putative
class members. It also notes that it has removed a
few of the individuals who have had their stays of
removal consensually lifted. The Government also
argues that, because removal proceedings have a
definitive
end-point,
removal
is
reasonably
foreseeable. Gov. Resp. at 10.
119a

As explained below, the Court agrees that the
end point of the legal process is reasonably
foreseeable. But it holds that there is insufficient
evidence in the record to determine whether Iraq is
willing to accept class-wide repatriation. Without a
reasonable expectation that removal would follow the
termination of legal proceedings, the definitive “endpoint” of the legal process does not solve the due
process problem of indefinite detention. Because it is
unclear whether repatriation is likely, the Court
defers ruling on Petitioners’ Zadvydas claim, pending
further discovery.
Petitioners’ second theory is that, even if their
removal is reasonably foreseeable, their detention
has become unreasonably prolonged. They argue that
this unreasonable detention entitles them to a bond
hearing before an impartial adjudicator, such as an
immigration judge, to determine whether they are a
flight risk or danger to the community. Pet. Br. at 24.
In response, the Government argues that Sixth
Circuit precedent defeats Petitioners’ claim based on
an
unreasonably
prolonged
detention
and
corresponding entitlement to a bond hearing. The
Government contends that Petitioners are not
eligible for a bond hearing, because their detention
has not been sufficiently lengthy, and because their
actual removable is reasonably foreseeable. Gov.
Resp. at 17.
The Court holds that those detainees who have
been in custody for six months or more are entitled to
bond hearings, unless the Government presents
specific evidence to this Court demonstrating why a
particular detainee should be denied that right, such
as evidence that the detainee has engaged in badfaith or frivolous motion practice in an effort to
120a

artificially prolong the removal process. Bond
hearings will be conducted by immigration judges
who will consider flight and safety risks.
Petitioners contend that the Zadvydas and
prolonged detention claims are assertable by
detainees, regardless of whether the Government
purports to detain them under the mandatory
provisions of § 1226(c). Therefore, Petitioners also
ask that bond hearings be ordered for those
detainees being held under that provision.
Petitioners argue that § 1226(c) does not apply to
those who have had their motions to reopen granted
or who have been living in the community for a
significant period, after completion of their criminal
sentence, prior to their immigration detention.
Rather, Petitioners say, such people should be
considered held under 8 U.S.C. § 1226(a), a provision
that has been interpreted as requiring bond hearings
after prolonged detention. Pet. Br. at 28. The
Government argues that those who have had their
motions to reopen granted are not exempt from
mandatory detention, and that courts have
interpreted § 1226(c) to require mandatory detention
for those who had been living in their community
after completion of their criminal sentences. Gov.
Resp. at 20.
The Court agrees with Petitioners and holds
that § 1226(c) does not apply to those who have had
their motions to reopen granted or who were
previously living in their communities for years after
the conclusion of their criminal sentences. Section
1226(c) contemplates an expeditious removal
proceeding, which is typically not possible when a
motion to reopen is granted and certainly is not the
case here. Further, the plain language of § 1226(c)
121a

requires the conclusion that mandatory detention is
only permissible when an alien is placed into
immigration custody immediately following the
completion of his or her criminal sentence.2
Petitioners’ motion for preliminary injunction
intersects with issues raised by the Government’s
motion to dismiss. In its motion, the Government
seeks dismissal of all of Petitioners’ claims as pled in
the amended complaint — those pertaining to
detention, as well as those based on removal,
transfer, and right to counsel — on the grounds that
they are either jurisdictionally barred or fail as a
matter of law. See generally Gov. Mot. to Dismiss.
The Court will consider — and deny — the
Government’s motion in conjunction with the
detention claims raised in the motion for preliminary
injunction, and defers a ruling on the remaining
issues raised in the Government’s motion.
Finally, Petitioners have filed a motion to
certify the putative primary class and three
detention subclasses. Because the Court is limiting
its decision to detention issues, it will only consider
certification of the detention subclasses. Petitioners
argue that certification is appropriate because the
detainees are seeking relief as a result of
Government action that applies uniformly to those in
custody. Pet. Br. at 31. They argue that they are
sufficiently numerous; present common questions of
Petitioners also seek clarification regarding the Government’s
obligation to produce Alien Files (“A-Files”) and Records of
Proceedings (“ROPs”) in connection with the Court’s earlier
preliminary injunction order. These are materials class
members need to file well-supported motions to reopen. Because
this issue bears on the stay of removal, not detention, the Court
will address this by separate order.
2

122a

law and fact; assert claims that are typical of the
putative subclass members; and will fairly and
adequately represent them. In response, the
Government argues that each detention claim
requires a highly fact-intensive inquiry that makes
class treatment inappropriate. Gov. Resp. at 6. The
Court holds that these individual differences are
insufficient to defeat certification, and that
Petitioners have made a sufficient showing for class
certification of the subclasses.
II.

STANDARDS OF DECISION

To determine whether to grant a preliminary
injunction, a district court must consider: (i) the
plaintiff’s likelihood of success on the merits; (ii)
whether the plaintiff may suffer irreparable harm
absent the injunction; (iii) whether granting the
injunction will cause substantial harm to others; and
(iv) the impact of its decision on the public interest.
Yolton v. El Paso Tennessee Pipeline Co., 435 F.3d
571, 578 (6th Cir. 2006). These four factors “are
factors to be balanced, not prerequisites that must be
met.” Hamad v. Woodcrest Condo. Ass’n, 328 F.3d
224, 230 (6th Cir. 2003).
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “[T]he
tenet that a court must accept as true all of the
allegations contained in a complaint is inapplicable
123a

to legal conclusions. Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id.
With regard to class certification, “Rule 23
does not set forth a mere pleading standard.” WalMart Stores, Inc. v. Dukes, 564 U.S. 338, 350 (2011).
Rather, “[a] party seeking class certification must
affirmatively demonstrate his compliance with the
Rule . . . [S]ometimes it may be necessary for the
court to probe behind the pleadings before coming to
rest on the certification question.” Id. (quotation
marks omitted).
III.

ANALYSIS

The Court begins by analyzing the issues
raised in Petitioners’ motion for preliminary
injunction. Next, the motion to dismiss is considered,
but only insofar as it bears on the detention issues;
consideration of the balance of the issues, including
the jurisdictional challenge raised as to the removal
claims, will be deferred. The Court will then turn to
Petitioners’ motion to certify class, considering only
whether certification is appropriate as to the
detention subclasses.
A.

Motion for Preliminary Injunction
1.

Likelihood of Success on the
Merits
a.

Zadvydas Claim

Petitioners first argue that, pursuant to
Zadvydas, they are being unlawfully detained
because there is no significant likelihood of removal
in the reasonably foreseeable future. Pet. Br. at 19.
Zadvydas involved two petitioners, Kestutis
124a

Zadvydas and Kim Ho Ma. Zadvydas was taken into
custody after the conclusion of his criminal sentence
and ordered removed. Efforts by the Government to
deport Zadvydas to Germany, Lithuania, and the
Dominican Republic were all unsuccessful, and the
district court ordered Zadvydas released after
concluding that he would be permanently confined.
The Fifth Circuit reversed, holding that Zadvydas’s
detention was constitutional because his removal
was still possible in light of ongoing diplomatic
negotiations. Ma was also taken into custody
following completion of a criminal sentence. Both the
district court and Ninth Circuit ruled that Ma was
entitled to release because there was no likelihood of
removal in light of the lack of a repatriation
agreement between the United States and Cambodia,
Ma’s native country.
The Supreme Court began by interpreting 8
U.S.C. § 1231, the section of the INA addressing the
detention and removal of aliens ordered removed.
The statute establishes that where an alien has been
ordered removed, the Attorney General shall remove
the alien within ninety days. 8 U.S.C. §
1231(a)(1)(A). However, the statute permits the
Attorney General to continue detention beyond this
ninety day period. It states, in pertinent part:
An alien ordered removed [1] who is
inadmissible . . . [2] [or] removable [as a
result
of
violations
of
status
requirements or entry conditions,
violations of criminal law, or reasons of
security or foreign policy] or [3] who has
been determined by the Attorney
General to be a risk to the community or
unlikely to comply with the order of
125a

removal, may be detained beyond the
removal period and, if released, shall be
subject to [certain] terms of supervision.
Zadvydas, 533 U.S. at 678 (quoting 8 U.S.C. §
1231(a)(6)). The question before the Court was
whether this subsection “authorizes the Attorney
General to detain a removable alien indefinitely
beyond the removal period or only for a period
reasonably necessary to secure the alien’s removal.”
Id. The Court held that “the statute, read in light of
the Constitution’s demands, limits an alien’s postremoval-period detention to a period reasonably
necessary to bring about that alien’s removal from
the United States. It does not permit indefinite
detention.” Id. The Court reasoned that indefinite
detention would raise a significant constitutional
question, specifically as it pertains to the Fifth
Amendment’s Due Process Clause. Id. at 690. The
Court held that, in any event, it could not find “any
clear indication of congressional intent to grant the
Attorney General the power to hold indefinitely in
confinement an alien ordered removed.” Id. at 697.
The Court ultimately held that detention for
six months is presumptively reasonable and then
stated:
After this 6–month period, once the
alien provides good reason to believe
that there is no significant likelihood of
removal in the reasonably foreseeable
future, the Government must respond
with evidence sufficient to rebut that
showing. And for detention to remain
reasonable, as the period of prior
postremoval confinement grows, what
126a

counts as the “reasonably foreseeable
future” conversely would have to shrink.
Id. at 701. The Court remanded both cases in light of
its new standard. It noted in Zadvydas’s case that
the Fifth Circuit had concluded that continued
detention was lawful because Zadvydas had not
demonstrated that his removal was “impossible” —
meaning that an alien had to show “the absence of
any prospect of removal” — which the Supreme
Court found to be an excessive standard. Id. at 702
(emphasis in original). Remand was ordered in Ma’s
case, because the Ninth Circuit may have based its
conclusion of no likelihood of removal based solely on
the absence of a repatriation agreement, without
giving due weight to future negotiations over
repatriation.
With detention having exceeded the six-month
milestone for the initial June detainees — and with
more detainees reaching that milestone with the
passage of time — Petitioners first argue that there
is no significant likelihood of their removal in the
reasonably foreseeable future because it is unclear
whether Iraq will actually accept repatriation.3
Petitioners argue that the Government has not
provided any “particularized evidence” that removal
can be effected in the reasonably foreseeable future.
At the time the Government filed its response to Petitioners’
motion for preliminary injunction, the six-month period set
forth in Zadvydas had not passed. As a result, the Government
argued that the detention at issue was still presumptively
reasonable. Gov. Resp. at 11. Circumstances have since
changed. The majority of detainees began their detention on
June 11, 2017, i.e. more than six months ago. Thus, the
Government is no longer entitled to the presumption that
continued detention is reasonable.
3

127a

Pet Br. at 21. They note that the Government has
only provided “vague representations” about its
agreement with Iraq and that country’s supposed
willingness to relax its policies regarding issuance of
travel documents. Petitioners state that since the
alleged policy change was announced, several
putative members have unsuccessfully attempted to
receive their travel documents from the Iraqi
government. Id. at 22. Petitioners cite the Sixth
Circuit’s ruling in Rosales-Garcia v. Holland, 322
F.3d 386 (6th Cir. 2003), where the court held that
there was no significant likelihood of removal in the
reasonably foreseeable future for two Cuban aliens.
The court noted that “[a]lthough the government
presented evidence of . . . continuing negotiations
with Cuba over the return of Cuban nationals
excluded from the United States, neither [petitioner]
is currently on a list of persons to be returned.” Id. at
415.
In response, the Government provides the
declaration of John Schultz, the deputy assistant
director for DHS’s removal management division east. Schultz Decl., Ex. A to Gov. Resp., ¶ 1 (Dkt.
158-2). Schultz states that the Government’s
negotiations have resulted in Iraq’s agreement to
cooperate in removal of Iraqi nationals from the
United States. Id. ¶ 4. As evidence of this
cooperation, Schultz notes that, prior to this Court’s
rulings enjoining removal, ICE had scheduled
charter flights to depart in both June and July. Id. ¶
6. While very few travel documents have actually
been provided since this Court’s injunction was
issued, Schultz’s declaration states that these
documents are only being sought for those not
subject to the stay of removal, to avoid having to
128a

make multiple requests to Iraq in the event travel
documents expire during the pendency of the
injunction. Id. ¶ 8.
The Government later submitted, following
the hearing on these motions, a declaration by
Michael Bernacke, the acting assistant deputy
assistant director for DHS’s removal management
division - east. See Bernacke Decl., Ex. A to Gov.
Supp. Br., ¶ 1 (Dkt. 184-2). In his declaration,
Bernacke states that the agreement between the
United States and Iraq is not memorialized in
writing, but is instead the product of ongoing
negotiations. Id. ¶ 4. Bernacke also states that “the
agreement does not contemplate any numeric
limitation on the number of removals,” and that if
the injunction is lifted, large-scale removals can be
arranged via charter flight, without the need for
travel documents. Id. ¶¶ 5-6.
Based on this record, the Court cannot make a
determination regarding whether Iraq will accept
repatriation of the class. Schultz’s declaration does
not contain information regarding the framework of
the Government’s diplomatic agreement with Iraq.
When pressed at the hearing by the Court regarding
details of the agreement, counsel for the Government
was unsure whether there was any formal agreement
that had been memorialized in writing. Although the
post- hearing Bernacke declaration fills in some of
the blanks — it acknowledges that there is no
written agreement — there is still not enough
information regarding the scope of the agreement
with Iraq.4 While a handful of Iraqi nationals have
Further, Bernacke did not make the declaration based on his
personal knowledge, but something he called his “professional
4

129a

been removed to Iraq since April, it is unclear
whether Iraq has agreed to repatriate all 1,400
putative class members at issue here, and if so, what
conditions may have been attached that could impact
on whether removal is likely. Until the Court has a
more complete picture from the Government
regarding its communications with the Iraqi
government, it cannot make a ruling on Iraq’s
willingness to accept repatriation of the class.
Petitioners also argue that, even if Iraq has
agreed to accept repatriation of the class, their
removal is still not significantly likely in the
reasonably foreseeable future, because it could take
years to litigate their motions to reopen. Pet. Br. at
22. Petitioners contend that if a detainee is denied at
every stage of the litigation, from the immigration
judge to the court of appeals, the process can take
nearly three years. See Pet. Br., Table A.
In support, Petitioners rely on the Sixth
Circuit’s decision in Ly v. Hansen, 351 F.3d 263 (6th.
Cir. 2003), which addressed whether Zadvydas
extended to 8 U.S.C. § 1226(c), the mandatory preremoval detention statute. Id. at 267.5 The
knowledge” – a term his declaration does not define and not
something that appears to support supposedly factual
statements in an affidavit or declaration. See Ondo v. City of
Cleveland, 795 F.3d 597, 605 (6th Cir. 2015) (affidavits and
declarations in support of dispositive motions must be based on
personal knowledge).
Title 8 U.S.C. § 1226(c) states that “[t]he Attorney General
shall take into custody any alien who [is inadmissible or
deportable for having committed certain enumerated offenses]
when the alien is released, without regard to whether the alien
is released on parole, supervised release, or probation, and
without regard to whether the alien may be arrested or
imprisoned again for the same offense.”
5

130a

Government in that case argued that the alien was
partially responsible for his lengthy detention, noting
that he had filed applications to cancel his removal.
Petitioners rely on the court’s statement that
“appeals and petitions for relief are to be expected as
a natural part of the process,” and that “[a]n alien
who would not normally be subject to indefinite
detention cannot be so detained merely because he
seeks to explore avenues of relief that the law makes
available to him.” Id. at 272. Petitioners argue that
they too should not be subject to indefinite detention
simply because they have availed themselves of the
motion to reopen process.
In response, the Government cites to cases
holding removal to be reasonably foreseeable where
the end of a litigation will terminate detention. See
Soberanes v. Comfort, 388 F.3d 1305, 1311 (10th Cir.
2004) (“[H]is detention is clearly neither indefinite
nor potentially permanent like the detention held
improper in Zadvydas; it is, rather, directly
associated with a judicial review process that has a
definite and evidently impending termination
point.”); see also Prieto-Romero v. Clark, 534 F.3d
1053, 1065 (9th Cir. 2008); Flores v. Holder, 977 F.
Supp. 2d 243, 249 (W.D.N.Y. 2013). One of the cases
relied on by Petitioners supports the Government’s
point; it held that an alien who had been in custody
for seven years had a reasonably foreseeable removal
date because Colombia was willing to accept his
repatriation “if he ultimately fails in fighting the
government’s charge of removability.” CasasCastrillon v. Dep’t of Homeland Sec., 535 F.3d 942,
949 (9th Cir. 2008).6
6

As discussed infra, Casas supports Petitioners’ prolonged

131a

This line of cases is much clearer than the
language in Ly that Petitioners rely on. The court in
Ly was merely noting which factors courts should
consider when determining whether an alien has
been subject to an unreasonable detention. It simply
instructed courts to weigh whether prolonged
detention was attributable to dilatory tactics by the
alien. It does not reject the holdings by the Ninth and
Tenth Circuits that there is a significant likelihood of
removal in the reasonably foreseeable future where
the only impediment to removal is the litigation
process, which has a definite endpoint. The Court
finds those rulings persuasive, and holds that
removal is reasonably foreseeable where the only
barrier to removal is ongoing immigration
proceedings.7

detention claim, even though it undermines their alternative
theory under Zadvydas that an unduly long period can amount
to no significant likelihood of removal in the foreseeable future
although there is no impediment to ultimate removal.
While Ly does not support Petitioners’ argument on the
definitive end-point issue, it does bear on other arguments
raised by the Government — that the stay of removal has
prolonged removal and that detention hearings would provide a
“corrupt incentive” to litigate frivolously in the immigration
courts to artificially prolong detention. Gov. Resp. at 13. Ly
points out that aliens cannot be faulted for filing appropriate
motions; implicitly, this means that frivolous actions can be
evaluated in determining whether a period of detention is
unreasonable. There is thus no corrupt incentive for needlessly
churning a file. And while a stay of removal has — as a matter
of tautology — delayed removal, Ly is not critical of bona fide
efforts to utilize the tools the law affords, which is precisely
what Petitioners did in securing the initial preliminary
injunction.
7

132a

Thus, the Government is correct that
Petitioners would have no Zadvydas claim if removal
were blocked solely because the legal proceedings
had not terminated. But that is not necessarily our
circumstance. It is still an open question whether
Iraq has agreed to accept class- wide repatriation. As
noted above, a more developed record is necessary to
answer this question. Thus, the Court defers ruling
on the likelihood of success on the Zadvydas claim
pending further discovery.8
b.

Prolonged Detention

Petitioners next argue that even if their
removal is reasonably foreseeable, Zadvydas
provides a basis for them to receive individualized
hearings on the issue of release. Pet. Br. at 24. They
note Zadvydas’s statement that “if removal is
reasonably foreseeable, the habeas court should
consider the risk of the alien’s committing further
crimes as a factor potentially justifying confinement
within that reasonable removal period.” Zadvydas,
533 U.S. at 700. Petitioners also note rulings by
other circuits recognizing that those subject to
prolonged detention are entitled to bond hearings,
even where their removal is reasonably foreseeable.
For instance, the Ninth Circuit in Diouf v.
Petitioners also note language in an ICE field office manual
that states “[i]f the circumstances under which an alien was
taken back into custody no longer exist and his/her removal is
no longer imminent, the alien is to be released.” Pet. Br. at 22
(citing ICE Field Office Manual, DHS p. 104 (Rev. March 27,
2006)) (emphasis added). This language notwithstanding,
Zadvydas does not require that removal be imminent in order
for the Government to continue detention; there need only be a
significant likelihood of removal in the reasonably foreseeable
future.
8

133a

Napolitano, 634 F.3d 1081 (9th Cir. 2011), held that
§ 1231(a)(6) requires “an individualized bond
hearing, before an immigration judge, for aliens
facing prolonged detention under that provision.” Id.
at 1085. The court held that § 1231(a)(6) aliens are to
be released on bond unless the government can
establish that they are a flight risk or a danger to the
community. Id.
Diouf extended an earlier ruling by the Ninth
Circuit in Casas, in which the court, addressing a §
1226(a) detainee, held that “prolonged detention
without adequate procedural protections would raise
serious constitutional concerns,” noting that “[e]ven
where detention is permissible [under Zadvydas],
due
process
requires
‘adequate
procedural
protections’ to ensure that the government’s asserted
justification for physical confinement ‘outweighs the
individual’s constitutionally protected interest in
avoiding physical restraint.’” Casas, 535 F.3d at 951
(quoting Zadvydas, 533 U.S. at 690).9 The Casas
9

Title 8 U.S.C. § 1226(a) states that:
On a warrant issued by the Attorney General,
an alien may be arrested and detained pending
a decision on whether the alien is to be removed
from the United States. Except as provided in
subsection (c) and pending such decision, the
Attorney General-(1) may continue to detain the arrested alien;

and
(2) may release the alien on-(A) bond of at least $1,500 with security
approved by, and containing conditions
prescribed by, the Attorney General; or
(B) conditional parole; but

134a

court held that “the prolonged detention of an alien
without an individualized determination of his
dangerousness
or
flight
risk
would
be
‘constitutionally doubtful.’” Id. (quoting Tijani v.
Willis, 430 F.3d 1241, 1242 (9th Cir. 2005)).
The Government does not address Diouf. Nor
does it address that portion of the Casas decision
that upheld a prolonged detention claim. Instead, it
argues that Ly defeats any claim Petitioners have to
an individualized hearing on whether their release
would pose a flight risk or danger to the community.
The Government claims that Ly holds that detainees
must establish both that removal proceedings have
not been concluded within a reasonable time, and
that actual removal is not reasonably foreseeable.
Gov. Resp. at 17.
However, Ly did not purport to address a
detainee asserting a pure prolonged detention claim,
i.e. a claim without any argument that removal was
not foreseeable. It addressed only a Zadvydas claim,
and specifically whether Zadvydas, which involved a
§ 1231(a)(6) detainee, “extends to the mandatory preremoval detention statute [§1226(c)].” Ly, 351 F.3d at
267 (emphasis in original). Ly involved an alien who
was detained and ordered removed after committing
crimes, but his native Vietnam had no repatriation
agreement with the United States. The court
(3) may not provide the alien with work
authorization (including an “employment
authorized” endorsement or other appropriate
work permit), unless the alien is lawfully
admitted for permanent residence or otherwise
would (without regard to removal proceedings)
be provided such authorization.

135a

engaged in a multi-factor analysis to determine
whether a 500-day detention was unreasonable,
noting that what made the detention “especially
unreasonable” was the lack of a repatriation
agreement, id. at 271-272, meaning no likelihood of
removal. While that factor contributed to the court’s
ultimate decision, nowhere in the opinion does the
court state that that factor is necessary for granting
a relief to a § 1226(c) detainee, or to a detainee under
any other authority, whenever the detainee
complains of excessive detention. Thus, Ly does not
mandate that Petitioners demonstrate no likelihood
of removal for a prolonged detention claim.
Courts that have been presented with
circumstances where detention was prolonged, but
removal was reasonably foreseeable, have adopted
Petitioners’ position. That is the teaching of Diouf
and Casas, which this Court chooses to follow. The
Government has presented no contrary authority
analogous to our case. All that Petitioners must
demonstrate is the unreasonableness of their
detention, an issue discussed infra.
c.

§ 1226(c)

Petitioners next seek a ruling that those being
detained under § 1226(c) should instead be
considered § 1226(a) detainees, and as such entitled
to bond hearings, pursuant to Casas. See Casas, 535
F.3d at 951 (deeming an alien held purportedly
under § 1226(c) as one being held under § 1226(a)
and ordering a bond hearing, reasoning that
“[b]ecause the prolonged detention of an alien
without an individualized determination of his
dangerousness
or
flight
risk
would
be
‘constitutionally doubtful,’ we hold that § 1226(a)
136a

must be construed as requiring the Attorney General
to provide the alien with such a hearing”) (quoting
Tijani, 430 F.3d at 1242). They argue that § 1226(c)
does not apply for two reasons: (i) it does not apply to
detention pending reopened removal proceedings;
and (ii) it does not apply to individuals who were
living in the community prior to detention, i.e. they
were not taken into immigration custody
immediately upon release from their criminal
sentences. Pet. Br. at 28.
In support of their contention that § 1226(c)
does not apply to motion to reopen proceedings,
Petitioners rely on the Ninth Circuit’s ruling in
Casas. In that case, the alien had been in custody for
seven years at the time the Ninth Circuit was
reviewing his petition for review. The court was
tasked with determining whether the alien was being
held under § 1226(c), which requires mandatory
detention of criminal aliens, or § 1226(a), which
entitles the alien to a bond hearing. The court
rejected the Government’s argument that § 1226(c)
applied, holding that the mandatory detention
provision “applies only to ‘expedited removal of
criminal aliens.’” Casas, 535 F.3d at 951 (quoting
Tijani, 430 F.3d at 1242). The court also noted the
Supreme Court’s ruling in Demore v. Kim, 538 U.S.
510 (2003), that § 1226(c) detention is meant to be
brief, and DHS regulations that interpreted § 1226(c)
to apply only “during removal proceedings,” which it
defined as concluding upon dismissal by the Board of
Immigration Appeals (“BIA”). Id. at 948 (quoting 8
C.F.R. §§ 236.1(c)(1)(i), 1241.1(a)). The court held
that “[b]ecause neither § 1231(a) nor § 1226(c)
governs the prolonged detention of aliens awaiting
judicial review of their removal orders, we conclude
137a

that Casas’ detention was authorized during this
period under the Attorney General’s general,
discretionary detention authority under § 1226(a).”
Id.
The Government argues that Casas is
inapposite, because it did not apply to motion to
reopen proceedings; instead it addressed what
statute governs an alien’s detention during and
following any remand from a petition for review
proceeding in the court of appeals. Pet. Br. at 21.
This difference is immaterial.
In Casas, the court rejected the Government’s
contention that even if the alien was not subject to §
1226(c) while his petition for review was pending, he
became subject to such custody again after his
petition was granted and the case was remanded to
the BIA. The court reasoned that “[a]n alien whose
case is being adjudicated before the agency for a
second time - after having fought his case in this
court and won, a process which often takes more
than a year - has not received expeditious process.”
Id. at 948. The same principle applies here.
Petitioners are adjudicating their cases for a second
time, by way of a motion to reopen. For those who
have prevailed on their motions, the merits
proceeding will likely not conclude for several
months or possibly years. See Pet. Br., Table A
(noting that a decision on the merits of a motion to
reopen can take anywhere from two months to nearly
three years if an alien takes his case to the court of
appeals). This is well beyond the “relatively brief”
period of five months, which the Supreme Court
found was acceptable and supported mandatory
detention in Demore. See Demore, 538 U.S. at 529.
On this basis alone, Petitioners have shown that
138a

mandatory detention under § 1226(c) should not be
deemed applicable, and that persons purportedly
held under that provision should be deemed held
under § 1226(a).
However, Petitioners also argue that § 1226(c)
is inapplicable because it does not apply to
individuals who were living in the community prior
to detention. Title 8 U.S.C. § 1226(c) states that
“[t]he Attorney General shall take into custody any
alien who [has committed enumerated offenses] when
the alien is released.” (emphasis added). Petitioners
argue that this language means an alien is only
subject to § 1226(c) mandatory detention if he is
released directly from criminal custody into the
custody of the Attorney General.
Petitioners contend the subsection is
inapplicable to those who were released years ago
and had been living in their communities, citing
rulings by the Ninth and First Circuits, as well as
courts in the district. See Preap v. Johnson, 831 F.3d
1193, 1197 (9th Cir. 2016) (holding that § 1226(c)
“unambiguously imposes mandatory detention
without bond only on those aliens taken by the AG
‘when [they are]’ released from criminal custody”);
Castaneda v. Souza, 810 F.3d 15, 43 (1st Cir. 2015)
(Three judges of equally divided en banc court ruled
“the detention mandate requires that aliens who
have committed certain offenses be taken into
immigration custody in a timely manner following
their release from criminal custody . . . These
petitioners were released from criminal custody
years before they were first placed in immigration
custody. For that reason, they clearly do not fall
within ‘this detention mandate.’”); Khodr v. Adducci,
697 F. Supp. 2d 774, 778–779 (E.D. Mich. 2010) (“If
139a

Congress wished to permit the Attorney General to
take custody of criminal aliens at any time after
being released from criminal confinement, it could
have done so using the phrase ‘at any time after the
alien is released.’ But, by using the word ‘when,’
Congress demonstrated its intent that such aliens be
taken into custody contemporaneous with their
release or not at all (at least under section 1226(c)).”).
In response, the Government notes cases by
the Third and Fourth Circuits, as well as the BIA,
holding that immediate detention upon release from
criminal custody is not necessary to detain an alien
under § 1226(c). See Sylvain v. Att’y Gen. of U.S., 714
F.3d 150, 157 (3d Cir. 2013); Hosh v. Lucero, 680
F.3d 375, 384 (4th Cir. 2012); In Re Rojas, 23 I. & N.
Dec. 117, 124 (BIA 2001). However, the Government
argues that addressing this circuit split is not
necessary, because Petitioners, by reopening their
immigration cases, have placed themselves within §
1226(c) by operation of law. The Government notes
that the mandatory detention subclass was originally
detained pursuant to § 1231(a)(6), when their final
orders were still live. When their motions to reopen
were granted, the Government argues, they
automatically reverted to the pre- order detention
subsection for those with a criminal history, i.e., §
1226(c). It argues that this case does not implicate
the concern courts have that § 1226(c) is being used
to detain an alien for a reason other than the crime
underlying his eligibility for mandatory detention
and removal.
The case law is in conflict on this issue, but
one point proves decisive — the plain language of the
statute. The terms of § 1226(c) plainly state that
mandatory detention is only authorized for those who
140a

are taken into custody by DHS “when . . . released”
from their criminal sentence. This was not done here.
Petitioners were taken into custody years after their
release from criminal sentences. See Khodr, 697 F.
Supp. 2d at 778–779 (“[B]y using the word ‘when,’
Congress demonstrated its intent that such aliens be
taken into custody contemporaneous with their
release or not at all (at least under section 1226(c)).”).
Because § 1226(c) does not apply to those who
have their motions to reopen granted, or who were
living in the community for years prior to their
immigration detention, those purportedly being held
under § 1226(c) are deemed to be held pursuant to §
1226(a). This conclusion is consistent with the
principle recognized in several decisions that the
length of the detention — not the stage of the
proceeding — drives the constitutional concern. See,
e.g., Diouf, 634 F.3d at 1087 (“Regardless of the stage
of the proceedings, the same important interest is at
stake — freedom from prolonged detention.”).
d.

Reasonable Time
Limitation

Having determined that those subject to
prolonged detention under § 1231(a)(6) and § 1226(a)
may be entitled to bond hearings, the Court must
determine whether Petitioners have made a
sufficient showing that they have been held for an
unreasonably prolonged period.
Courts have taken different approaches
regarding the reasonableness of detention. In the
context of § 1226(c), the Sixth Circuit rejected the
six-month bright-line limitation set forth in
Zadvydas, instead holding that “courts must examine
the facts of each case, to determine whether there
141a

has been unreasonable delay in concluding removal
proceedings.” Ly, 351 F.3d at 271. The court
considered several factors, including the actual
removability of a criminal alien, his length in
detention as compared to the length of his criminal
sentence, and whether the alien has engaged in
dilatory tactics. Id. at 271-272. The First, Third, and
Eleventh Circuits follow this case-by-case approach.
See Sopo v. U.S. Attorney Gen., 825 F.3d 1199, 1217–
1218 (11th Cir. 2016); Reid v. Donelan, 819 F.3d 486,
502 (1st Cir. 2016); Diop v. ICE/Homeland Sec., 656
F.3d 221, 233 (3d Cir. 2011).
In contrast, the Second and Ninth Circuits
have adopted the six-month, bright-line rule set forth
in Zadvydas. In Lora v. Shanahan, 804 F.3d 601, 615
(2d Cir. 2015), the Second Circuit stated that
“Zadvydas and Demore, taken together, suggest that
the preferred approach for avoiding due process
concerns in this area is to establish a presumptively
reasonable six- month period of detention.” The court
noted that the case-by-case approach results in
“random outcomes resulting from individual habeas
litigation in which some detainees are represented by
counsel and some are not, and some habeas petitions
are adjudicated in months and others are not
adjudicated for years.” Id. The court ultimately held
that “in order to avoid the constitutional concerns
raised by indefinite detention, an immigrant
detained pursuant to section 1226(c) must be
afforded a bail hearing before an immigration judge
within six months of his or her detention.” Id. at 616.
This is consistent with the Ninth Circuit’s
ruling in Rodriguez v. Robbins, 715 F.3d 1127, 1133
(9th Cir. 2013), cert. granted sub. nom. Jennings v.
Rodriguez, 136 S. Ct. 2489 (2016), which construed
142a

“the government’s statutory mandatory detention
authority under Section 1226(c) and Section 1225(b)
as limited to a six-month period, subject to a finding
of flight risk or dangerousness.” This followed its
previous ruling in Diouf that § 1231(a)(6) required a
bond hearing after the six-month mark. See Diouf,
634 F.3d at 1091–1092. Further, the court in
Rodriguez held that “[t]o the extent Diop and Ly
reject a categorical time limit, their reasoning in that
respect is inapplicable here . . . because this petition
is a class action (and thus relief will perforce apply to
all detainees).” Rodriguez, 715 F.3d at 1139.
This Court follows the Ly multi-factor
approach, adapted for use in this class action context.
The starting point is the six-month benchmark,
whose pedigree can be traced to Zadvydas, and which
was followed in Lora, Diouf, and Rodriguez. The
Court follows Zadvydas in concluding that any
presumption of reasonableness ends after six
months. As the Supreme Court noted, there is
“reason to believe that Congress . . . doubted the
constitutionality of detention for more than six
months.” Zadvydas, 533 U.S. at 701. Further, as
noted in Lora, a six-month benchmark will help
protect against inconsistent outcomes that could
otherwise result.10

The Government points out that certain cases granting relief
from unreasonable detention have involved detentions in excess
of six months. See, e.g., Sopo v. U.S. Attorney Gen., 825 F.3d
1199, 1220 (11th Cir. 2016) (over three years of detention); Reid
v. Donelan, 819 F.3d 486, 501 (1st Cir. 2016) (fourteen months );
Chavez-Alvarez v. Warden York Cty. Prison, 783 F.3d 469, 478
(3d Cir. 2015) (twelve months); Ly, 351 F.3d at 271 (eighteen
months). However, nothing in those cases suggests that those
periods were viewed as minimum periods for establishing
10

143a

This Court recognizes that in a small
percentage of cases, detainees may engage in bad
faith tactics that prolong what would otherwise be a
relatively brief period of detention. To address this
concern, the Government may present evidence that
specific individuals have themselves significantly
contributed to the unreasonable length of detention
because of bad faith or frivolous tactics that delayed
adjudication of their case. The Government may also
present evidence of other factors as to a particular
detainee that it claims should be considered as a
basis for denial of a bond hearing as to a particular
detainee.11 If such evidence is presented as to a
unreasonable detention. To the contrary, the six-month period
referenced in Zadvydas was acknowledged as a benchmark. See,
e.g., Ly, 351 F.3d at 267.
Beyond dilatory tactics, courts have considered the following
factors when determining whether continued detention is
reasonable: the alien’s actual removability, whether the length
of time in immigration detention has exceeded the alien’s
criminal sentence, and whether the immigration detention
facility is “meaningfully different from a penal institution for
criminal detention.” Sopo, 825 F.3d at 1218; see also Reid, 819
F.3d at 502; Ly, 351 F.3d at 271-272. These factors do not
appear to be appropriate in our case. Actual removability is
contingent on the Zadvydas claim, for which there is
insufficient evidence to make a ruling. As for comparing the
criminal sentence to the period in immigration custody, such a
comparison has little meaning when the sentence was served
years before, even assuming that the comparison makes sense
in some other context. And comparing detention facilities to
prisons leads to the conclusion that both are very challenging
environments, as the record amassed here of the hardship
detention imposes on the economic, mental and medical health
of detainees. See discussion infra. What purpose would be
served by exploring the particular similarities and
dissimilarities of the two environments is somewhat of a
mystery. Nonetheless, the Government is free to present
specific evidence as to a particular detainee if it concludes that
11

144a

particular detainee, this Court will rule on whether
the detainee will receive a bond hearing. Any bond
hearing shall be conducted before an immigration
judge at which the judge shall release the detainee
under an appropriate order of supervision unless the
Government establishes by clear and convincing
evidence that the detainee is a flight or public safety
risk. Rodriguez, 715 F.3d at 1131.12
The Government argues that granting habeas
relief in the form of ordering bond hearings is
somehow inconsistent with Ly. Gov. Resp. at 17.
While upholding habeas relief for an alien asserting
consideration of such evidence should bear on whether a
detainee is entitled to a bond hearing.
Although the Government notes that detainees receive postorder custody reviews (“POCRs”) by ICE, see 8 C.F.R. §§ 241.4,
241.13, the Government does not, and cannot, contend that they
are an adequate replacement for a bond hearing. The Supreme
Court has suggested that “the Constitution may well preclude
granting an administrative body the unreviewable authority to
make determinations implicating fundamental rights.”
Zadvydas, 533 U.S. at 692. Further, the court in Casas held
that a POCR “falls far short of the procedural protections
afforded in ordinary bond hearings, where aliens may contest
the necessity of their detention before an immigration judge and
have an opportunity to appeal that determination to the BIA.”
Casas, 535 F.3d at 951–952. Moreover, there is strong evidence
that the reviews in our case were not undertaken in a good faith
effort to detain only those who were flight and safety risks.
Virtually every detainee who had a POCR review was denied
release, and given a terse written statement that the
Government was still interested in removing the detainee; there
is no indication that any legitimate bond issue was even
considered. Pet. Mot. at 7. Those who have been released
appear to have been released for medical reasons, or having
won a bond hearing, not as a result of a POCR. See Schlanger
Decl. ¶ 30.
12

145a

a Zadvydas claim, the Ly court noted that “we do not
require the United States to hold bond hearings for
every criminal alien detained under [§ 1226(c)]”
because “in the majority of cases, where an order of
removal is promptly entered and removal is effected
within the time allotted under Zadvydas, bond
hearings are not required.” Ly, 351 F.3d at 270. The
court’s meaning is not clear. It may have meant that
there generally is no need for a bond hearing, given
that removal usually takes place promptly. It may
have meant that no bond hearing was required in
that particular case, because the petitioner had
already been released from immigration custody. But
what is clear is that Ly did not purport to issue a
blanket rule that bond hearings may never be
appropriate, especially when used as part of habeas
relief, as is being done here, and in particular, as
part of class-wide relief. Thus, this Court is not
acting contrary to Ly.
In sum, Petitioners have demonstrated a
probability of success both as to their statutory and
constitutional arguments regarding their prolonged
detention claim and their § 1226(c) claim. Relief is
accorded to all asserting such claims, as defined
below in the class action discussion, provided they
have been detained at least six months.
Consideration of the Zadvydas claim is deferred
pending further discovery.
2.

Irreparable Harm; Balance of
the Equities; Public Interest

Petitioners have unquestionably met their
burden regarding irreparable harm. Detention has
inflicted grave harm on numerous detainees for
which there is no remedy at law. Some have lost
146a

businesses and jobs. See Ali Al-Dilaimi Decl., Ex. 6 to
Pet. Mot., ¶ 26 (Dkt. 138-7) (“After June 11, 2017, my
oil change business, which my wife used to help
manage, had to close down.”); Atheer Ali Decl., Ex. 9
to Pet. Mot., ¶ 23 (Dkt. 138-10) (“Recently, I was
forced to close my auto shop business and now face a
real possibility of losing it forever because I cannot
continue running it while I am detained, and cannot
afford to have someone else replace all of my
duties.”). Dreams of a college education for the
children of detainees are now in doubt. See Usama
Hamama Decl., Ex. 5 to Pet. Mot., ¶ 25 (Dkt. 138-6)
(“Our son is scheduled to attend college next year but
as of now, we cannot afford to even pay the minimum
deposit for his tuition.”). The medical needs of some
detainees have gone unmet. See Adel Shaba Decl.,
Ex. 4 to Pet. Mot., ¶¶ 24-25 (Dkt. 138-5) (“The
medical care I receive in detention is inadequate as
they do not provide some of the medications that my
doctor prescribed me.”); Habil Nissan Decl., Ex. 15 to
Pet. Mot., ¶ 15 (Dkt. 138-16) (“[I]t took two months
for me to receive medical treatment after my transfer
to Chippewa County, Michigan.”). Other harms have
also been documented. Qassim Hashem Al-Saedy
Decl., Ex. 8 to Pet. Mot., ¶ 21 (Dkt. 138-9) (describing
assault while in custody).
The balance of equities tips decidedly in favor
of preliminary relief. Without some relief from
detention, detainees will undoubtedly continue to
experience these or similar harms. On the other
hand, the Government does not substantiate any
claim that it will suffer any harm if enjoined.
Finally,
the
public
interest
requires
preliminary relief. Our Nation has a long history of
resisting unreasonable governmental restraints. In
147a

the present circumstances, allowing bond hearings
for those who have been subjected to prolonged
detention is in keeping with the core value of liberty
our Constitution was designed to protect.
In balancing all of the factors, the Court
concludes that Petitioners are entitled to preliminary
relief.
B.

Motion to Dismiss

The Government’s motion to dismiss argues
that the detention counts in Petitioners’ amended
complaint — counts four, five, and six — should be
dismissed because they fail to state a claim. There is
no jurisdictional challenge to the detention claims.
The Court has already ruled that not only do
Petitioners state a plausible claim for relief, but that
they are likely to succeed on the merits. As a result,
the Government’s motion to dismiss is denied as to
Petitioners’ detention claims.
C.

Motion to Certify Class

Petitioners also seek to certify their putative
primary class, which they originally defined in their
motion to certify class as “All Iraqi nationals in the
United States who had final orders of removal on
March 1, 2017, and who have been, or will be,
detained for removal by U.S. Immigration and
Customs Enforcement (ICE).” Petitioners have since
filed a supplemental brief (Dkt. 176) in which they
seek to amend the primary class definition to “All
Iraqi nationals in the United States who had final
orders of removal at any point between March 1,
2017 and June 24, 2017 and who have been, or will
be, detained for removal by U.S. Immigration and
Customs Enforcement.” This was done so that those
who did not have final orders of removal as of March
148a

1, 2017 are protected by the stay of removal.
Petitioners also seek to certify three
subclasses. The first, referred to as the “Zadvydas
subclass,” is defined as “All Primary Class Members,
who are currently or will be detained in ICE custody,
and who do not have an open individual habeas
petition seeking release from detention.” Petitioners
seek to certify this subclass as to count four. Count
four alleges that the detainees are entitled to release
because there is no significant likelihood that they
will be removed in the reasonably foreseeable future.
Next, Petitioners seek certification for the
“detained final order subclass,” which they define as
“All Primary Class Members with final orders of
removal, who are currently or will be detained in ICE
custody, and who do not have an open individual
habeas petition seeking release from detention.”
Certification is sought for this subclass as to count
five, which alleges that due process requires that
those held for a prolonged period receive an
individualized
hearing
before
an
impartial
adjudicator to determine whether they are a flight
risk or danger to the community.
Finally, Petitioners request that the Court
certify the “mandatory detention subclass,” defined
as “All Primary Class Members whose motions to
reopen have been or will be granted, who are
currently or will be detained in ICE custody under
the authority of the mandatory detention statute, 8
U.S.C. § 1226(c), and who do not have an open
individual habeas petition seeking release from
detention.” Petitioners seek to certify this class as to
counts five and six. Count six alleges that those who
have had their motions to reopen granted or who had
149a

been living in their community prior to their
immigration detention are being improperly held
under § 1226(c).
To obtain class certification, Petitioners must
first show the following four requirements:
(1) the class is so numerous that joinder
of all members is impracticable; (2)
there are questions of law or fact
common to the class; (3) the claims or
defenses of the representative parties
are typical of the claims or defenses of
the class; and (4) the representative
parties will fairly and adequately
protect the interests of the class.
In re Whirlpool Corp. Front-Loading Washer Prod.
Liab. Litig., 722 F.3d 838, 850 (6th Cir. 2013)
(quoting Fed. R. Civ. P. 23(a)).
The Court determines that certification is
appropriate for the three detention subclasses and
defers a ruling on whether the primary class should
be certified. Deferral is prudent because Petitioners
only seek certification of the primary class as to the
removal counts, claims that are not at issue in this
Opinion. Moreover, those claims are the subject of an
appeal pending in the Sixth Circuit. At this point, it
does not appear that there is a need to rule on
certification of the primary class until that court has
ruled.
1.

Numerosity

The Government does not contest that
Petitioners have met the numerosity requirement for
the Zadvydas subclass or the detained final order
subclass. However, it argues that the requirement is
150a

not met for the mandatory detention subclass. Gov.
Resp. at 23. It notes the assertion in the declaration
of Petitioners’ counsel that that there are fifty-nine
detained putative class members who have had their
motions to reopen granted, and that “it appears that
the vast majority are being detained without bond
under 8 U.S.C. § 1226(c).” Schlanger Decl. ¶ 31. The
Government contends that this assertion is “directly
contradicted” by Petitioners’ motion, which notes
that some primary class members “are not in either
subclass because they are detained under a third
statutory provision.” The Government also argues
that Petitioners are ignoring another group of
individuals – those who are being held pursuant to 8
U.S.C. § 1225(b) as a result of being immediately
detained at the border.
The Court does not see how Petitioners’
counsel’s assertion that a “vast majority” of the fiftynine detainees who have had their motions to reopen
granted are being held pursuant to § 1226(c) is
contradicted by the acknowledgment that a small
number (possibly six or seven) are being held
pursuant to § 1226(a) or § 1225(b). See Schlanger
Decl. II ¶ 7. Petitioners’ calculation appears accurate,
and sufficient to establish numerosity. See Daffin v.
Ford Motor Co., 458 F.3d 549, 552 (6th Cir. 2006)
(“[W]hile there is no strict numerical test,
‘substantial’ numbers usually satisfy the numerosity
requirement.”); see also Turnage v. Norfolk S. Corp.,
307 F. App’x 918, 921 (6th Cir. 2009) (broad
geographic proximity weighs in favor of numerosity);
Davidson v. Henkel Corp., 302 F.R.D. 427, 436 (E.D.
Mich. 2014) (“[I]t generally is accepted that a class of
40 or more members is sufficient to satisfy the
numerosity
requirement.”).
The
Government
151a

provides no evidence to the contrary.
2.

Commonality

The Court must next consider whether there
are questions of law or fact common to the
subclasses. “To demonstrate commonality, plaintiffs
must show that class members have suffered the
same injury.” In re Whirlpool Corp., 722 F.3d at 852.
The plaintiffs’ claims “must depend upon a common
contention . . . of such a nature that it is capable of
classwide resolution – which means that
determination of its truth or falsity will resolve an
issue that is central to the validity of each of the
claims in one stroke.” Id. Commonality depends on
“the capacity of a classwide proceeding to generate
common answers apt to drive the resolution of the
litigation. Dissimilarities within the proposed class
are what have the potential to impede the generation
of common answers.” Wal-Mart, 564 U.S. at 350.
“Commonality under Rule 23(a)(2) is met where,
notwithstanding some factual differences, the class
action claims are based on a common course of
conduct of misrepresentations, omissions, or other
wrongdoing affecting all class members in the same
manner.” Yadlosky v. Grant Thorton, L.L.P., 197
F.R.D. 292, 298 (E.D. Mich. 2000) (quotation marks
omitted).
a.

Count Four: Zadvydas
Claim

The Zadvydas subclass has multiple common
questions of law and fact. As discussed at length
above, Petitioners’ Zadvydas claim rests on the
factual issue of whether Iraq is actually willing to
accept repatriation of all putative class members.
Petitioners assert that Iraq will not, stating that
152a

certain putative class members have been denied
travel documents. See Andrade Decl., Ex. 21 to Pet.
Mot., ¶ 13 (Dkt. 138-22). The Government argues
otherwise, stating that, after ongoing negotiations,
Iraq has agreed to accept the putative class
members. There are also common legal issues, such
as whether Petitioners can demonstrate that there is
no significant likelihood of removal in the reasonably
foreseeable future where they are subject to
prolonged immigration proceedings, and if so,
whether their detention is unlawful and they must
be released.
In its response, the Government lists several
reasons why it believes the class should not be
certified as to this claim, including that (i) the
putative class includes a large number of aliens who
have not been detained for the requisite time or at
all; (ii) it includes those not detained under § 1231;
(iii) it includes a number of aliens who will not file
motions to reopen or will have the motions
adjudicated quickly because they are in expedited
proceedings; and (iv) Zadvydas requires an
individualized inquiry into each alien’s nationality
and travel documents. Gov. Resp. at 13. None of
these defeats commonality. As discussed above,
whether Iraq will actually accept the detainees will
likely be dispositive of the Zadvydas claim,
regardless of the length of time each class member
has been in custody or how quickly their motions to
reopen will be adjudicated. The Government’s
argument that there is not commonality because the
Zadvydas framework only applies to § 1231 detainees
ignores that courts have extended Zadvydas to §
1225(b), § 1226(a), and § 1226(c) detainees. See
Casas, 535 F.3d at 949 (extending to § 1226(a));
153a

Nadarajah v. Gonzales, 443 F.3d 1069, 1076–1077
(9th Cir. 2006) (extending to § 1225(b)); Ly, 351 F.3d
at 267 (extending to § 1226(c)). Further, the
Government’s argument that Zadvydas requires an
individualized inquiry into each travel document is
belied by the Bernacke declaration, which states that
Iraq has agreed to accept charter flights of the class
members without travel documents, provided the
injunction is lifted. See Bernacke Decl. ¶ 6. In sum,
Petitioners have demonstrated commonality with
regard to the Zadvydas subclass.
b.

Counts Five and Six:
Prolonged Detention
and § 1226(c) Claims

There are also common questions of law as it
relates to both the detained final order subclass and
the mandatory detention subclass. With respect to
the detained final order subclass, the Court must
consider whether, as stated in Diouf, due process
requires that those with final orders of removal are
entitled to a bond hearing after being in detention for
a prolonged period. The mandatory detention
subclass presents multiple common questions of law.
As it relates to count six, the Court has to determine
whether § 1226(c) even applies to those who are
being detained while they litigate motions to reopen,
and to those who had previously been living in their
communities long after their criminal sentences
ended. The resolution of that issue bears on the next
legal question, i.e., whether, as alleged in count five,
the mandatory detention subclass is entitled to a
bond hearing after being subject to prolonged
detention.

154a

The Government argues that there is no
commonality because prolonged detention claims
involve a highly individualized inquiry. Gov. Resp. at
15. The Ninth Circuit’s ruling in Rodriguez v. Hayes,
591 F.3d 1105 (9th Cir. 2010), is directly on point and
rejects the Government’s position. In Hayes, the
petitioner sought certification of a class of aliens in
the Central District of California who had been or
would be detained under any of the general
immigration statutes for more than six months and
had not been afforded a hearing to determine
whether prolonged detention was justified. The
Government argued that the propriety of each
putative class member’s detention “turns on
divergent questions of statutory interpretation and
consideration of different factual circumstances.” Id.
at 1122. The court held that this did not defeat
commonality, stating that Rule 23(a)(1) does not
require that members of a putative class “share every
fact in common or completely identical legal issues.”
Id. The rule requires that courts “look only for some
shared legal issue or a common core of facts.” Id. The
court concluded that there was a common legal issue
of whether the Constitution allowed an individual to
be detained for longer than six months where not
authorized explicitly by statute. Id. at 1123. That
same question is posed here, both for the detained
final order subclass and the mandatory detention
subclass.
As a result, the Court finds commonality as to
the detained final order subclass and the mandatory
detention subclass.

155a

3.

Typicality

To demonstrate typicality, Petitioners must
demonstrate that “the class members’ claims are
fairly encompassed by the named plaintiffs’ claims.”
In re Whirlpool, 722 F.3d at 852 (quotation marks
omitted). The typicality requires ensures that “the
representatives’ interests are aligned with the
interests of the represented class members so that,
by pursuing their own interests, the class
representatives also advocate the interests of the
class members.” Id. at 852- 853. “[C]ommonality and
typicality tend to merge in practice because both of
them serve as guideposts for determining whether
under the particular circumstances maintenance of a
class action is economical and whether the named
plaintiff’s claim and the class claims are so
interrelated that the interests of the class members
will be fairly and adequately protected in their
absence.” Id. at 853 (quotation marks omitted).
The claims of the named Petitioners are
typical of the claims of members of the Zadvydas
subclass, the detained final order subclass, and the
mandatory detention subclass. With regard to the
Zadvydas subclass, all but two of the named
Petitioners are still being held in detention. They all
allege that, pursuant to Zadvydas, they are entitled
to be released because there is no significant
likelihood of their removal in the reasonably
foreseeable future. They are typical of all of the
current or future detainees in the Zadvydas subclass
who allege that their detention is unconstitutional
because they are not likely to be released in the
foreseeable future.

156a

The named Petitioners are also typical of the
prolonged detention subclasses. Nine of the named
Petitioners — Usama Hamama, Ali Al-Dilaimi,
Qassim Al-Saedy, Abbas Al-Sokaini, Moayad Barah,
Jami Derywosh, Jony Jarjiss, Mukhlis Murad, and
Adel Shaba — are typical of the detained final order
subclass in light of their continued detention
pursuant to § 1231(a)(6). Like the subclass, these
named Petitioners contend that § 1231 mandates an
individualized
hearing
before
an
impartial
adjudicator on the issues of danger and flight risk.
Further, two of the named Petitioners, Atheer Ali
and Anwar Hamad, are being held in mandatory
detention pursuant to § 1226(c).13 Their claims
encompass those of the mandatory detention
subclass. Like the subclass, they argue that § 1226(c)
A third named Petitioner, Kamiran Taymour, was previously
held pursuant to § 1226(c); his removal proceedings were
subsequently cancelled. See Taymour Order, Ex. A. to Gov.
Resp. (Dkt. 159-2). The Government argues that this makes
him an inadequate representative for the mandatory detention
subclass. If, in fact, the Government is no longer proceeding at
all against Taymour, he may no longer be in the class, but the
Government has not clearly stated that. The Government also
argues that Ali and Hamad are not typical or adequate
representatives because they have had, or will have, merits
hearings. It argues that because these Petitioners may succeed
at their hearings, they will not be deported, and thus can no
longer represent the putative subclass members. The
Government’s speculation regarding the potential success of
these hearings is not sufficient to demonstrate their inadequacy
as class representatives. Further, even if these individuals
eventually are deemed inadequate because of their litigation
success, others can be added as subclass representatives. The
Government has offered no authority that potentially changing
circumstances that may exclude a member from remaining a
class representative must mean that the class action vehicle
may not be used.
13

157a

does not apply to those in detention while litigating a
motion to reopen, nor to those who were previously
living in their communities after being released from
criminal custody years prior. They also argue that
they are entitled to release unless an impartial
adjudicator determines that they are a flight risk or
danger to the community. The named Petitioners are
typical of the three detention subclasses.
4.

Adequacy

The Court must next consider whether the
named Petitioners’ representation will fairly and
adequately protect the interests of the class. The
Sixth Circuit employs the following two- prong test to
determine adequacy: (i) the class representatives
must have common interests with the putative class
members; and (ii) the representatives will “vigorously
prosecute the interests of the class through qualified
counsel.” Vassalle v. Midland Funding LLC, 708 F.3d
747, 757 (6th Cir. 2013).
As discussed above, the concerns of the named
representatives are common to each putative
subclass. See In re Whirlpool, 722 F.3d at 853
(“[C]ommonality and typicality tend to merge with
the requirement of adequate representation,
although the latter factor also brings into play any
concerns about the competency of class counsel and
any conflicts of interest that may exist.”). Further,
class counsel have established throughout the course
of this case that they are more than willing to
zealously prosecute this case on behalf of all putative
class members. The named Petitioners, through class
counsel, are adequate representatives.

158a

5.

Rule 23(b)(2)

Finally, the Court must determine whether
certification pursuant to Rule 23(b)(2) is proper. The
rule states that a class may be maintained if “the
party opposing the class has acted or refused to act
on grounds that apply generally to the class, so that
final injunctive relief or corresponding declaratory
relief is appropriate respecting the class as a whole.”
Fed. R. Civ. P. 23(b)(2). “The key to the (b)(2) class is
the indivisible nature of the injunctive or declaratory
remedy warranted — the notion that the conduct is
such that it can be enjoined or declared unlawful
only as to all of the class members or as to none of
them.” Wal-Mart, 564 U.S. at 360 (quotation marks
omitted).
The Government argues that a Rule 23(b)(2)
class is inappropriate in light of the class members’
“highly fact-intensive claims.” Gov. Resp. at vi. This
objection was addressed and rejected in Hayes.14 The
court held that “[t]he rule does not require us to
examine the viability or bases of class members’
claims for declaratory and injunctive relief, but only
to look at whether class members seek uniform relief
from a practice applicable to all of them.” Hayes, 591
F.3d at 1125; see also Parsons v. Ryan, 754 F.3d 657,
688 (9th Cir. 2014) (“While each of the certified
[Arizona Department of Corrections’] policies and
practices may not affect every member of the
The Government argues that Hayes is not good law because it
was decided prior to Wal-Mart, which held that courts may
consider the merits when deciding whether certification is
appropriate. As Petitioners note, the Government has not
explained how consideration of the merits would have altered
the court’s decision on certification.
14

159a

proposed class and subclass in exactly the same way,
they constitute shared grounds for all inmates in the
proposed class and subclass.”).
Petitioners are seeking uniform relief from a
practice applicable to all three subclasses, i.e., the
Government’s uniform decision to detain each
putative class member without granting release due
to a lack of likelihood of removal, or without granting
an individualized hearing on the issues of danger or
flight risk. The preliminary relief is also of a classwide nature because all affected detainees are being
given the same habeas relief: the right to a bond
hearing unless the Government can present some
specific evidence why a particular detainee should
not be entitled to that right. As the Hayes court
noted, “[t]he fact that some class members may have
suffered no injury or different injuries from the
challenged practice does not prevent the class from
meeting the requirements of Rule 23(b)(2).” Id.
Petitioners have met the requirements for
certification under Rule 23(b)(2).
6.

Appointment of Class Counsel

The Government also argues that class
certification is inappropriate because class counsel
cannot be appointed at this time. Rule 23(g)(1) states
that “[u]nless a statute provides otherwise, a court
that certifies a class must appoint class counsel.”
Courts must consider the counsel’s identification or
investigation of potential claims, counsel’s relevant
experience, knowledge of relevant law, and the
resources counsel will commit to representation. Fed.
R. Civ. P. 23(g)(1)(A).
The Government argues appointment is not
appropriate at this time because counsel have not
160a

submitted affidavits in support of their motion,
instead submitting their internet biographies. Gov.
Resp. at 25. However, there is no requirement that
an affidavit be submitted attesting to the
biographies. The Court can accept the biographies as
true, based on the attorneys’ statements in the
briefing to that effect.
Further, an examination of these biographies,
in conjunction with the Court’s awareness of the
attorneys’ past filings in this case, as well as their
organizations’ past work, all demonstrate that
Petitioners’ counsel satisfy the requirements of Rule
23(g)(1)(A). The attorneys have demonstrated that
they have thoroughly investigated and researched
each claim, and are willing to devote considerable
time and effort to their representation. Their
biographies show that they have more than enough
relevant experience.
The Government also argues that Petitioners
have not justified the need for six organizations
consisting of hundreds of attorneys and argues that
there may be a conflict between class counsel and
their colleagues who may have failed to timely file
motions in past immigration proceedings. Id.
With regard to the number of organizations
and attorneys, the Court believes that many laboring
oars are required in a nationwide litigation such as
this. The putative primary class numbers
approximately 1,400, with some 274 detainees in
facilities across the country. It is to be expected that
a case of this size, moving at an expedited pace,
would require a large number of attorneys.
Regarding the allegation of potential conflicts of
interest, the Government has not identified any
161a

particular conflicts between class counsel and past
counsel for putative class members. If any such
conflicts are presented, the Court will address them
at that time.
At this time, the Court designates Margo
Schlanger and Kimberly Scott of Miller Canfield as
class counsel. To the extent additional attorneys
should be appointed as class counsel or whether the
participation of other counsel should be approved by
the Court are matters that can be addressed at a
forthcoming status conference.15
7.

Nationwide Class

Finally, the Government argues that if the
Court grants class certification, it should limit
certification to those within the Eastern District of
Michigan. Id. at 28. The Government contends that
certifying a nationwide class would violate principles
of inter-circuit comity and strip other courts of
jurisdiction over claims pending before them. It
argues that the Court should allow the other courts
of appeals to decide the difficult questions posed by
this case.
The Government’s concerns that certification
will strip other courts of jurisdiction over pending
claims and harm inter-circuit comity is addressed by
the Petitioners’ amended subclass definitions. The
definitions specifically exclude from the subclasses
Further, the Government argues that the Court should
establish a framework regarding billing and should decline to
issue a class notice at this time because Petitioners have not
submitted a proposed order, and because notice is unnecessary
for a Rule 23(b)(2) class. These issues, and others relating to
certification, will be addressed at a forthcoming status
conference with the parties.
15

162a

those who have filed individual habeas petitions.
This Court’s rulings will have no bearing on those
petitions; to the extent those other courts disagree,
the courts of appeals and the Supreme Court will
receive the benefit of differing perspectives. See
United States v. Mendoza, 464 U.S. 154, 160 (1984)
(“Allowing only one final adjudication would deprive
this Court of the benefit it receives from permitting
several courts of appeals to explore a difficult
question before this Court grants certiorari.”).
As a result, nationwide certification of the
three detention subclasses is appropriate.16
IV.

CONCLUSION

For the reasons set forth above, the Court
awards the following relief.
1. Petitioners’ motion for class certification (Dkt.
139) is granted in part.
a.

The Court certifies a subclass for the
Zadvydas claim pleaded in count four. The
subclass consists of “All Primary Class
Members, who are currently or will be
detained in ICE custody, and who do not have
an open individual habeas petition seeking
release from detention.” The definition of the
primary class to be used for purposes of
defining the subclasses is “All Iraqi nationals
in the United States who had final orders of

The Government also argues that limiting the class to those
in this District is appropriate because they share a common
religion, and thus have more similar removal claims than a
nationwide group of “all Iraqis.” Because the Court is not
addressing the removal claims at this time, it need not consider
this argument.
16

163a

removal at any point between March 1, 2017
and June 24, 2017, and who have been, or will
be, detained for removal by ICE.” The
primary class itself is not being certified at
this time.
b.

The Court certifies a detained final order
subclass for those pleading a prolonged
detention claim pleaded in count five. The
subclass consists of “All Primary Class
Members with final orders of removal, who
are currently or will be detained in ICE
custody, and who do not have an open
individual habeas petition seeking release
from detention.”

c.

The Court certifies a mandatory detention
subclass for those pleading a prolonged
detention claim pleaded in count five and for
those pleading a § 1226(c) claim pleaded in
count six. The subclass consists of “All
Primary Class Members whose motions to
reopen have been or will be granted, who are
currently or will be detained in ICE custody
under the authority of the mandatory
detention statute, 8 U.S.C. § 1226(c), and who
do not have an open individual habeas
petition seeking release from detention.”

d.

Attorneys Margo Schlanger and Kimberly
Scott of Miller Canfield are appointed as class
counsel.

e.

Any other relief requested in the motion for
class certification is deferred. Any issues
pertaining to class action may be raised at the
forthcoming conference or through future
proceedings.
164a

2. Petitioners’ motion for preliminary injunction
(Dkt. 138) is granted in part.
a.

The Government shall be required to release,
no later than February 2, 2018, any detained
member of the detained final order subclass
and any member of the mandatory detention
subclass who has been detained, as of
January 2, 2018, for six months or more,
unless a bond hearing for any such detainee is
conducted on or before February 2, 2018
before an immigration judge; provided that
neither release of a particular detainee nor a
bond hearing for that detainee shall be
required if the Government files with this
Court a memorandum, by February 2, 2018,
objecting to a bond hearing for any specific
detainee and supplies evidence supporting the
objection. If such an objection is filed, the
release of the detainee and the conducting of
a bond hearing shall be deferred pending
further order of the Court.

b.

Any subclass member whose detention first
exceeds six months after January 2, 2018,
shall be released no more than 30 days after
the six-month period of detention is
completed, unless a bond hearing for any such
detainee is conducted during that 30-day
period before an immigration judge; provided
that neither release of such detainee nor a
bond hearing for such detainee shall be
required if the Government files with this
Court a memorandum, before the end of that
30- day period, objecting to a bond hearing for
such detainee and supplies evidence
supporting the objection. If such an objection
165a

is filed, the release of the detainee and the
conducting of a bond hearing shall be deferred
pending further order of the Court.
c.

At the bond hearing, the immigration judge
shall release the detainee under an order of
supervision unless the immigration judge
finds, by clear and convincing evidence, that
the detainee is either a flight risk or a public
safety risk.

d.

The parties may engage in discovery directed
to the Zadvydas claim. Discovery shall
encompass
depositions
of
appropriate
government personnel with knowledge of the
Iraq repatriation agreement or program, and
production of documents pertaining to that
subject. Counsel will confer regarding
additional specific requests, and later
depositions,
by
January
5,
2018.
Disagreements regarding the discovery,
including scope and applicable privileges, will
be addressed by the Court at the forthcoming
conference. The parties’ respective positions
on any disputes, including legal authorities,
shall be set out in the Joint Statement of
Issues referenced below.

e.

Relief requested regarding A-Files and ROPs
will be addressed in a separate order.

3. The Government’s motion to dismiss (Dkt. 135),
as it pertains to counts four through six, is
denied. Consideration of the balance of the motion
is deferred pending resolution of the appeal of this
Court’s earlier preliminary injunction before the
United States Court of Appeals for the Sixth
Circuit and/or pending other legal developments.
166a

4. The Court will convene an in-person conference
to address any issue raised by this Opinion and
Order on January 11, 2018 at 9:30 a.m. By noon
on January 9, 2018, the parties shall file a Joint
Statement of Issues, setting forth their
agreement and disagreement on any matter
that they wish to raise at the conference.
SO ORDERED.
Dated: January 2, 2018
Detroit, Michigan

s/Mark A. Goldsmith
MARK A. GOLDSMITH
United States District Judge

167a

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-2171/18-1233
USAMA JAMIL HAMAMA, ET AL.,
Petitioners-Appellees,

ORDER

v.

[Filed: April 2,
2019]

REBECCA ADDUCCI, ET AL.,
Respondents-Appellants.

Before: BATCHELDER, SUTTON, and
WHITE, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the cases. The petition
then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied. Judge White
would grant rehearing for the reasons stated in her
dissent.
ENTERED BY ORDER OF THE COURT
___________________
Deborah S. Hunt, Clerk

168a

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
501 POTTER STEWART U.S. COURTHOUSE
100 EAST FIFTH STREET
CINCINNATI, OHIO 45202-3988
Deborah S. Hunt
Clerk

513-564-7070
April 27, 2018

Scott Stewart, Esq.
Lee P. Glernt, Esq.
Margo Schlanger, Esq.
RE: Case Nos. 17-2171/18-1233, Hamama v. Adducci
Dear Counsel,
The panel has directed me to invite the parties
to provide letter briefs, if they wish, about some
issues that arose during the oral argument. Any
letter briefs should be no longer than 10 pages single
spaced and should be filed no later than Friday, May
4, 2018.
The parties are permitted to address the
following questions:
(1)

In what way, if any, would the
jurisdictional ruling with respect to the
removal-based claims in No. 17-2171—
either finding jurisdiction or not—affect
the district court’s jurisdiction over the
detention-based claims in No. 18-1233?

169a

(2)

What are the differences, if any,
between seeking an emergency stay of
removal from an agency or circuit court
(during the pendency of a motion to
reopen or petition for review) and
seeking such a stay from a district court
or circuit court (during the pendency of
a habeas petition)?

(3)

Was the district court authorized to
grant petitioners class-wide injunctive
relief from detention in light of 8 U.S.C.
§ 1252(f)(1) and Reno v. American-Arab
Anti-Discrimination Committee, 525
U.S. 471, 481 (1999)?

Sincerely,

Deborah S. Hunt
Clerk of Court

170a

